<html>
<title> - DEPARTMENTS OF COMMERCE, JUSTICE, AND STATE, THE JUDICIARY, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2005</title>
<body><pre>[Senate Hearing 108-]
[From the U.S. Government Printing Office]



 
DEPARTMENTS OF COMMERCE, JUSTICE, AND STATE, THE JUDICIARY, AND RELATED 
              AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2005

                              ----------                              

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

                       NONDEPARTMENTAL WITNESSES

    [The following testimonies were received by the 
Subcommittee on Commerce, Justice, and State, the Judiciary, 
and Related Agencies for inclusion in the record. The submitted 
materials relate to the fiscal year 2005 budget request for 
programs within the subcommittee's jurisdiction.]
      Prepared Statement of the American Museum of Natural History
              about the american museum of natural history
    The American Museum of Natural History [AMNH] is one of the 
nation's preeminent institutions for scientific research and public 
education. Since its founding in 1869, the Museum has pursued its 
mission to ``discover, interpret, and disseminate--through scientific 
research and education--knowledge about human cultures, the natural 
world, and the universe.'' It is renowned for its exhibitions and 
collections of more than 32 million natural specimens and cultural 
artifacts. With nearly four million annual visitors, its audience is 
one of the largest, fastest growing, and most diverse of any museum in 
the country. Museum scientists conduct groundbreaking research in 
fields ranging from zoology, comparative genomics, and informatics to 
earth, space, and environmental sciences and biodiversity conservation. 
Their work forms the basis for all the Museum's activities that seek to 
explain complex issues and help people to understand the events and 
processes that created and continue to shape the Earth, life and 
civilization on this planet, and the universe beyond.
    More than 200 Museum scientists, led by 46 curators, conduct 
laboratory and collections-based research programs as well as fieldwork 
and training. The Museum's research programs are organized under five 
divisions (Anthropology; Earth, Planetary, and Space Sciences; 
Invertebrate Zoology; Paleontology; and Vertebrate Zoology), along with 
the Center for Biodiversity and Conservation (CBC). The Museum also 
conducts graduate training programs, supports doctoral and postdoctoral 
scientists with research fellowships, and offers talented 
undergraduates an opportunity to work with Museum scientists.
    The Museum's Center for Biodiversity and Conservation, founded in 
1993, is dedicated to enhancing the use of scientific data to mitigate 
threats to global biodiversity, and integrating this information into 
the conservation process and to disseminate it widely. It conducts 
conservation-related field projects around the world, trains 
scientists, organizes scientific symposia, presents public programs, 
and produces publications geared toward scientists, policy makers, and 
the lay public. Each spring, the CBC hosts symposia that focus on 
conservation issues. In 2002, the symposium, ``Sustaining Seascapes: 
the Science and Policy of Marine Resource Management,'' was co-
sponsored by NOAA's Marine Protected Areas Center, along with other 
federal and private organizations, and examined the large-scale 
conservation of marine ecosystems, giving special consideration to 
novel approaches to the sustainable management of biodiversity and 
fisheries. The focus of 2003's symposium was on conservation issues 
related to increased ecotourism in Southeast Asia, and 2004's symposium 
examines the role of invertebrates in environmental systems.
    The Museum's vast collections provide the foundation for the 
Museum's interrelated research, education, and exhibition missions. 
They often include endangered and extinct species as well as many of 
the only known ``type specimens''--examples of species by which all 
other finds are compared. Collections such as these are historical 
libraries of species and artifacts, providing an irreplaceable record 
of life on earth. They provide vital data for Museum scientists as well 
for more than 250 national and international visiting scientists each 
year.
    The Museum's renovated Hall of Ocean Life, reopened in Spring 2003, 
is a major focal point for public education on marine science issues. 
Drawing on the Museum's world-renowned expertise in Ichthyology as well 
as other areas of vertebrate as well as invertebrate zoology, the Hall 
is pivotal in educating visitors about the oceans' key role in 
sustaining life on our planet. The renovated Hall of Ocean Life, 
together with the new Halls of Biodiversity, Planet Earth, and the 
Universe and the rebuilt Hayden Planetarium (part of the new Rose 
Center for Earth and Space) provide visitors a seamless educational 
journey from the universe's beginnings to the formation and processes 
of Earth to the extraordinary diversity of life on our planet.
    In its Halls of Biodiversity, Planet Earth, and the Universe, the 
Museum presents current science news through Science Bulletins--
multimedia productions that bring the latest science news and 
discoveries to the public using high-definition video documentaries, 
kiosks, and the web. The Bulletins present features on such issues as 
marine biodiversity, ocean life discoveries, and more. In addition, the 
Museum's comprehensive education programs attract more than 400,000 
students and teachers and more than 5,000 teachers for professional 
development opportunities. The Museum also takes its resources beyond 
its walls with Moveable Museums, an after-school program, online 
resources, and through the National Center for Science Literacy, 
Education, and Technology, launched in 1997 in partnership with NASA.

              COMMON GOALS OF NOAA AND THE AMERICAN MUSEUM

    Today, as throughout its history, the National Oceanic and 
Atmospheric Administration [NOAA] is committed to managing and 
conserving the nation's living marine resources and their environments, 
forecasting environmental changes, providing decision makers with 
reliable scientific information, and fostering global environmental 
stewardship, especially of coastal and marine resources. The American 
Museum shares NOAA's commitment to these environmental goals and to the 
scientific research, technologies, and public education that support 
them. Indeed, informed environmental stewardship and preservation of 
our planet's biodiversity and resources--in marine, coastal, and other 
natural environments and habitats--are integral to the Museum's most 
fundamental purposes.
    The Museum has also long been at the forefront of developing new 
research tools--including molecular technologies, new collection types, 
innovations in computation, and GIS and remote sensing--that are 
revolutionizing the way research can be conducted and data analyzed, as 
well as the way museum collections can be used. The Museum has 
significant resources in these areas, which it would bring to bear in 
continued partnership with NOAA. These include:
    Remote Sensing and Geographical Information Systems Technologies.--
The CBC launched the Remote Sensing/Geographical Information Systems 
(RS/GIS) lab in the fall of 1998. Wise conservation policy requires 
effective knowledge of the distribution of species and ecological 
communities at local, regional, and global scales. Without this 
information, it is difficult to decide where to allocate scarce 
conservation resources. Remote sensing technologies can provide 
essential data on such things as land-cover and land-use, as well as 
sea surface temperatures and chlorophyll content. GIS makes it possible 
for scientists to compare and visualize the relationships among 
satellite and legacy data, raw standardized samples, and data obtained 
through ground truthing. Because it provides the database backbone than 
can connect field work to analysis, GIS is becoming an indispensable 
component in environmental data analysis and is thus revolutionizing 
work in conservation.
    The CBC uses its RS/GIS technologies in biodiversity and marine 
reserve research in various ways--for example, to identify sites 
suitable for biological inventory; to provide supplementary 
quantitative and qualitative data in and around study sites; and to 
develop visual depictions and digital presentations for reports, 
publications, and meetings. RS/GIS is also key for predictive modeling, 
which when coupled with groundtruthing significantly enhances 
understanding of aquatic habitats.
    Molecular Research Program.--The Museum is also home to a 
distinguished molecular systematics program that is at the leading edge 
of comparative genomics and the analysis of DNA sequences for 
biological research. In its laboratories, more than 40 researchers in 
molecular systematics, conservation genetics, and developmental biology 
conduct their research on a variety of terrestrial and aquatic study 
organisms. Their work is supported by the Museum's new frozen tissue 
collection of biological tissues and isolated DNA stored in a super-
cold storage facility, which preserves genetic material and gene 
products from rare and endangered organisms that may become extinct 
before science fully exploits their potential. These researchers also 
have onsite access to a 700-processor supercomputing cluster--the 
fastest parallel computing cluster in an evolutionary biology 
laboratory and one of the fastest installed in a non-defense 
environment.

                     MARINE ENVIRONMENTS INITIATIVE

    The explosion of research technologies has created an opportunity 
for the Museum to integrate these state-of-the-art analytical tools 
into its biological and environmental research, as well as to present 
results to the public in its exhibition halls, websites, and 
educational programs. This intersection of research capability and 
technological opportunity underlies the Museum's marine environments 
initiative. The Museum proposes to continue, in partnership with NOAA, 
this basic and applied research initiative in areas of shared concern, 
such as the following:
    Biodiversity and Conservation Research.--AMNH investigators are 
exploring applications of GIS and remote sensing technologies to 
advance research pertinent to conservation and protecting threatened 
species and habitats. For example, Museum vertebrate and invertebrate 
zoologists carry out ambitious field work and collection expansion 
programs throughout the tropical freshwaters of the globe, conduct 
biotic surveys, and explore marine ecosystems. In addition to the 
discovery and classification of many still unknown species, Museum work 
concerns the protection and conservation of many species whose habitats 
and survival are at risk. These researchers rely on the capacities of 
GIS/RS to develop finer, tighter, more precise datasets. Also, GIS 
analysis enables researchers to ask more sophisticated and flexible 
questions, and to discover patterns, series, and gradations. Projects 
include the following:
  --Marine reserve networks.--Analyzing the physical, biological, and 
        cultural processes affecting coral reef systems in the Bahamas. 
        GIS allows the researchers to integrate maps with sets of 
        biophysical and socioeconomic data and to create dynamic models 
        for testing hypotheses about marine reserve networks in a 
        spatially realistic framework.
  --Humpback whales in Madagascar.--Researchers from the American 
        Museum and the Wildlife Conservation Society are using GIS to 
        track the migrations of humpback whales in the western Indian 
        Ocean region and create a database that contains identification 
        photos, biopsies, DNA sequences, and sighting information for 
        hundreds of whales.
  --Aquatic ecosystem research.--Aquatic ecosystems research includes 
        predictive modeling and riparian ecosystems research, and 
        focuses on questions of restoration, management, and 
        monitoring, drawing on resources of the Museum and facilities 
        of the Southwestern Research Station.
  --Biotic surveys and inventories.--The CBC has conducted floral and 
        faunal surveys in Bolivia and Vietnam, providing data on the 
        distribution and abundance of species, and enabling researchers 
        to analyze the role of climate change on land cover and develop 
        plans to reduce threats to biodiversity. Researchers are also 
        experienced in training local field biologists and conservation 
        managers how to conduct surveys using RS data and biophysical 
        measures and how to apply results to the long-term conservation 
        of biodiversity.
    Collections data and access.--Museum researchers use GIS to bring 
the Museum's vast collections alive and to increase exponentially the 
analyses that researchers can carry out for conservation research and 
decision-making. By coupling GIS with the Museum's increasingly strong 
web presence, researchers worldwide are able to pose more sophisticated 
questions and uncover new connections and relationships among the 
collections data.
    Public education and outreach.--The Museum features current NOAA-
related science and discovery in the Hall of Ocean Life as well as in 
its other educational programs and resources. For example, the Museum 
is collaborating with partners such as the New York State Marine 
Education Association and the New York Sea Grant on an annual 
conference, scheduled for Summer 2004, to promote marine awareness and 
encourage the growth and exchange of instructional resources within the 
scientific, commercial, and educational communities.
    These applications for GIS and other technologies demonstrate the 
Museum's unique capabilities to advance environmental forecasting, 
provide decision makers with reliable scientific information, and 
foster global environmental stewardship.
    We therefore request $1 million to continue in partnership with 
NOAA to build its marine environmental sciences initiative. 
Contributing its participatory share with funds from nonfederal as well 
as federal sources, the Museum will use cutting-edge technologies to 
advance basic and applied research, integrated with education and 
access efforts, related to marine environments. In so doing, we seek to 
increase scientific understanding and public awareness of vital 
environmental resource management issues.
                                 ______
                                 
 Prepared Statement of the National Association of State Universities 
 and Land-Grant Colleges (NASULGC) and the University Corporation for 
                      Atmospheric Research (UCAR)

    On behalf of the 235 institutions that constitute the University 
Corporation for Atmospheric Research (UCAR) and the National 
Association of State Universities and Land-Grant Colleges (NASULGC), we 
thank the Subcommittee for your support of weather and climate research 
and education within the National Oceanic and Atmospheric 
Administration (NOAA). Under your leadership, Congress has taken 
important steps to recognize NOAA's contribution to our nation's 
quality of life, national security, public health, and economic well-
being. However, UCAR and NASULGC have grave concerns that the fiscal 
year 2005 President's budget request places that progress in serious 
jeopardy by recommending significant reductions or eliminations of 
funding compared to the fiscal year 2004 appropriated amount.
    The proposed reductions in funding for extramural research and 
education programs are very worrisome and seem in direct contradiction 
to the atmospheric science community's repeated request to establish a 
significant peer-reviewed NOAA extramural research fund to strengthen 
NOAA research by creating strong partnerships between the agency and 
the academic and private sectors. Enabling such collaborations among 
the country's best scientists is warranted given the statement 
contained in the fiscal year 2005 Budget Request that, ``Weather- and 
climate-sensitive industries, directly or indirectly, account for 
approximately $2.7 trillion of the Nation's gross domestic product.'' 
We urge the Subcommittee to return NOAA to its fiscal year 2004 
appropriated level of $3.689 billion at the very minimum.
    Currently, NOAA is undergoing a congressionally mandated evaluation 
of its research enterprise. During this time of change and uncertainty, 
it is critical that Congress continue to support, and use any 
restructuring to enhance, NOAA's core research programs and competitive 
programs and partnerships with the academic community. These 
partnerships leverage research and research applications expertise, 
bring the best talent to bear in addressing high priority technology 
development requirements, and serve to train a new generation of 
scientists that NOAA and the rest of the scientific community will 
desperately need as present employees retire. As NOAA research 
activities are strengthened, we urge the Subcommittee to keep in mind 
the concept of the competitive, peer-reviewed Collaborations Fund, an 
external, peer-reviewed grants program to accelerate progress in the 
nation's weather research, for which the atmospheric sciences community 
has been advocating for several years.
    We would like to offer the following specific NOAA program 
recommendations:

Office of Oceanic and Atmospheric Research (OAR)
    Climate and Global Change Program.--The fiscal year 2005 budget 
request includes a reduction of $9.15 million and 12 FTE for the 
Climate and Global Change program. We understand that this is a partial 
offset to fund climate increases for observation programs, but we 
question the choice of programs, all involving the external research 
and education communities, that will be diminished greatly or 
eliminated. Each of the targeted programs has much to do with the 
nation's basic climate research and the future of the atmospheric 
science in this country. They include NOAA's entire post doctoral 
program in climate science; NOAA's entire participation in the inter-
agency funded, Presidential award-winning Significant Opportunities in 
Atmospheric Research and Science (SOARS) program for undergraduate 
students who are underrepresented in the atmospheric sciences; 
university climate research grants that enable this country to 
participate in international field programs, such as the Climate 
Variability and Predictability World Climate Program (CLIVAR), designed 
to improve our ability to observe, understand, predict, and respond to 
changes in the global environment; and the entire Human Dimensions of 
Global Change Research Program that funds competitively awarded social 
sciences research grants to advance understanding of the human response 
to and planning for the effects of climate variability. NOAA is the 
only agency funding this applied social sciences research examining how 
social and economic systems are influenced by fluctuations in short-
term climate (seasons to years), and how human behavior can be affected 
by variability in the climate system, and it is the only agency funding 
this country's participation in CLIVAR. We urge the Subcommittee to 
restore the fiscal year 2005 Climate and Global Change funding and 
personnel levels to the fiscal year 2004 enacted level of $69.66 
million and current FTE level.
    Climate Observations and Services.--We urge the Subcommittee to 
support the requested amount of $72.82 million, particularly the 
increases requested for the Global Ocean Observing System (increased by 
$10.7 million over current program levels) and Carbon Cycle Atmospheric 
Observing System (increased by $6.5 million over current program 
levels). The increases for these programs will build the climate 
observing system required to support the research, modeling, and 
decision support activities for the Administration's Climate Change 
Research Initiative. We ask that the Subcommittee urge NOAA to expand 
partnerships with academia in this area, as we understand that most of 
the research is slated to be conducted internally.
    Educational Partnership Program for Minority-Serving Institutions 
(EPPMSI).--We urge the Subcommittee to support the fiscal year 2005 
$15.0 million request for EPPMSI, and to support the requested transfer 
of the program from Program Support to OAR. The under-representation of 
minorities in the earth science disciplines continues to be a glaring 
problem, and NOAA's outreach initiatives provide vital contributions 
toward correcting the imbalance. EPPMSI also has the full support of 
NASULGC's Office for the Advancement of Public Black Colleges.

National Weather Service (NWS)
    The U.S. Weather Research Program (USWRP) is an interagency program 
that is dedicated to making forecasts of high-impact weather more 
specific, accurate, and reliable, thereby saving lives and property, 
and helping regional economies. It is a program that engages in basic 
research, the societal applications of that research, and to moving 
these applications into operations. It therefore straddles the missions 
of OAR (research and applications oriented) and NWS (operations 
oriented). Within the President's fiscal year 2005 request, USWRP is 
moved from OAR to NWS. Before this is accomplished, we ask that the 
Subcommittee take into consideration relevant recommendations of the 
NOAA Research Review Team, of a current internal USWRP study, of the 
OAR and NWS administration, and of congressional authorizers. We 
support any plan that is carefully considered and that strengthens 
NOAA's leadership role in this interagency program. We urge the 
Subcommittee to support the fiscal year 2005 request of $4.25 million 
for USWRP.
    THORPEX.--A Global Research Program is a component of the USWRP 
that has its own line in the fiscal year 2005 request. THORPEX is an 
interagency, international program the goal of which is to provide, for 
the benefit of society and the economy, 7-14 day forecasts that are as 
reliable and useful as are current 2-3 day forecasts. We urge the 
Subcommittee to support the fiscal year 2005 THORPEX request of $2.3 
million.
    The Space Environment Center (SEC) is the national and world 
warning center for solar disturbances that can affect people and 
equipment working in the space environment as well as the 
communications network of the nation. We agree with the 
Administration's conclusions that the operational nature of SEC is a 
good fit with the NWS mission and that the Center should therefore be 
transferred from OAR. We urge the Subcommittee to support the $7.5 
million requested for the Space Environment Center, as well as the 
proposed SEC transfer to NWS from OAR.
    The Cooperative Observer Network Modernization (COOP) will 
eventually provide the country with a network of accurate surface 
weather data that is critical to the maintenance of the country's 
climate record as well as to work of NWS local field offices and 
university research laboratories. We urge the Subcommittee to support 
the reinstatement and modernization of the Cooperative Observer Network 
by appropriating the requested fiscal year 2005 funding level of $1.4 
million.
    The NOAA Profiler Network is zeroed out in the fiscal year 2005 
request, terminating the nation's 35 stations that provide hourly wind 
profiles from the ground to 53,000 feet to operational weather 
forecasters and weather models. These data provide invaluable support 
in the forecasting of tornadoes, winter storms and flash floods. The 
Network saves lives and helps mitigate the destruction of property in 
severe weather. The fiscal year 2004 enacted funding for the Network 
was $4.1 million, an amount that allowed continued operation of the 
stations while the NWS prepared a report, requested by Congress, 
analyzing the need for a profiler network and producing a plan for 
implementation of a modernized system. This report has not been 
completed. We strongly urge the Subcommittee to restore in fiscal year 
2005 $4.1 million plus inflation for the continued operation of the 
Profiler Network, and to urge the NWS to produce, as soon as possible, 
the detailed plan requested by Congress for the replacement of the 
current Network with a much-needed state-of-the-art system.

National Environmental Satellite, Data, and Information Service 
        (NESDIS)
    National Polar-orbiting Operational Environmental Satellite System 
(NPOESS).--We support the requested increase of $30.9 million for 
NPOESS, and urge you to ensure that the necessary resources are 
provided to guarantee the system's capability to utilize, manage, 
store, and make available the data from this critical observing 
program. Resources are necessary also for education and training 
activities that are critical to encourage and enable the efficient and 
effective use of these data. This service is provided through the 
Cooperative Program for Operational Meteorology, Education and Training 
(COMET) program. We urge the Subcommittee to support the requested 
fiscal year 2005 amount of $307.6 million for NPOESS.
    Regional Climate Centers.--The President's budget terminates 
funding for these centers, which are located on university campuses and 
continue to provide detailed climate and related products essential to 
private sector economic activities specific to each of the regions. 
They are needed to address the expanding demand for climate services, 
currently growing at a rate of 25 percent per year. We urge the 
Subcommittee to restore funding for Regional Climate Centers to the 
fiscal year 2003 level of $2.98 million.

Facilities
    Boulder Facilities Operations.--Six OAR laboratories, one NESDIS 
Data Center, one OAR Joint Institute, and the Denver Forecast Office of 
the National Weather Service are all housed in Boulder at the David 
Skaggs Research Center. The rent for this important facility should 
definitely be paid out of facilities operating costs and not have to be 
taken from research funding as has been forced upon NOAA in past years. 
We urge the Subcommittee to support the $4.56 million fiscal year 2005 
request for Boulder Facilities Operations.

About UCAR
    UCAR is a consortium of 68 universities that manages and operates 
the National Center for Atmospheric Research and additional atmospheric 
and related sciences programs. In addition to its member universities, 
UCAR has formal relationships with approximately 100 additional 
undergraduate and graduate schools including several historically black 
and minority-serving institutions, and 40 international universities 
and laboratories.

About NASULGC
    NASULGC is the nation's oldest higher education association. 
Currently the association has 213 member institutions--including the 
historically black Land-Grant institutions--located in all fifty 
states. Its members constitute the major public research institutions 
in the nation. The Association's overriding mission is to support high 
quality public education through efforts that enhance the capacity of 
member institutions to perform their traditional teaching, research, 
and public service roles.

Conclusion
    The academic community is cognizant of the serious budgetary 
constraints that face the Congress in the coming fiscal year. However, 
short-term savings achieved by cutting funding for extramural research 
and education programs will surely result in long-term degradation of 
NOAA's ability to meet its core mission requirements which are critical 
to the economic health, safety, and security of the nation. We thank 
you for your past support for atmospheric science and look forward to 
working with you to restore and stabilize the funding base for NOAA's 
extramural research and education programs.

                                 ______
                                 
    Prepared Statement of the Association for Enterprise Opportunity

    Chairman Gregg, Ranking Member Hollings and other Members of the 
Subcommittee: On behalf of the Association for Enterprise Opportunity 
(AEO), thank you for the opportunity to submit comments to the 
Commerce-Justice-State Appropriations Subcommittee regarding the 
proposed termination of the Small Business Administration (SBA) 
Microloan Program and the Program for Investments in Microentrepreneurs 
(PRIME) in the President's fiscal year 2005 budget. My name is Bill 
Edwards, and I am Executive Director of AEO. AEO is the national trade 
and membership association for microenterprise development in the 
United States with nearly 500 member organizations nationwide. The vast 
majority of AEO's membership consists of microenterprise practitioner 
agencies, including over half of all Microloan Intermediaries and PRIME 
grantees. AEO is requesting $30 million in lending capital for the SBA 
Microloan Program, $25 million for SBA Microloan Technical Assistance, 
and $15 million for the SBA PRIME Program.
    The Administration's proposed elimination of the SBA Microloan and 
PRIME Programs threatens to wipe out two essential federal funding 
sources for microenterprise development in the United States, 
effectively terminating the only available sources of business 
assistance for thousands of underserved entrepreneurs across the 
country.
    AEO respectfully requests that this Subcommittee fund these crucial 
SBA programs at the following levels: $30 million for Microloan Lending 
(requiring a $2.8 million appropriation), $25 million for Microloan 
Technical Assistance, $15 million for PRIME, and $14.5 million for 
Women's Business Centers.

The SBA Microloan Program
    The SBA Microloan Program, the single largest source of funding for 
microenterprise development in the nation, was created in 1992 to help 
small business owners in need of small amounts of capital (less than 
$35,000) that are not yet ``bankable'' in the private sector lending 
community. Since 1992, SBA Microloan Intermediaries have made nearly 
19,000 Microloans totaling over $213 million, primarily to women, 
minority, and low-income entrepreneurs. In fiscal year 2003, 
Intermediaries made 2,422 loans, totaling $29,932,410.49, well 
exceeding the SBA's stated goal of $28 million in new loans.
    The Administration contends that banks will now lend to Microloan 
borrowers through 7(a) loan programs such as SBA Express, Community 
Express, and Lowdoc. This is not true. While banks may at times make 
business loans under $35,000, these programs serve entirely different 
borrowers, using entirely different criteria. Microloan borrowers often 
have FICO credit scores as low as 550, past credit problems, little or 
no collateral, and a lack of business experience. Traditional banks 
will simply not lend to these borrowers, with or without a SBA 
guarantee. Also, it is important to note that 40 percent of SBA 
Microloans go to start-ups while 7(a) loan guarantees require that 
individuals already be in business anywhere from 1 to 3 years.
    Despite lending to the riskiest borrowers, the Microloan Program 
has experienced a default rate of less than 1 percent. This 
accomplishment can be primarily attributed to the countless hours of 
intensive technical assistance that Intermediaries provide to Microloan 
borrowers. The technical assistance acts as a driver for business 
success and greatly improves the chances for successful business 
repayment.
    Finally, the Administration claims that the Microloan Program costs 
taxpayers $.97 per $1.00 loaned, but fails to recognize that this cost 
is directly related to the high level of technical assistance that 
borrowers receive and, thus, to the success of the program itself. 
Without technical assistance, these borrowers would be ill-equipped to 
manage a business! AEO is awaiting the SBA's response to a question 
posed by the Senate Small Business Committee regarding the methods by 
which the $.97 per $1.00 loaned were calculated.

The SBA PRIME Program
    PRIME is the only federal microenterprise program that provides 
intensive training and technical assistance to low- and very low-income 
entrepreneurs. For many entrepreneurs, lack of access to capital is 
only one of the barriers to starting or growing a successful small 
business. PRIME provides grants to microenterprise organizations 
throughout the country to offer this invaluable assistance. In 
addition, PRIME is unique in that at least 50 percent of all grant 
award dollars must be used to provide these services to very low-income 
individuals.
    The Administration has proposed the elimination of the PRIME 
Program for the past four years. However, Congress has continued to 
fund PRIME each year and in doing so has recognized that by investing 
in very low-income entrepreneurs, the program succeeds in creating jobs 
and income in communities that need it most. PRIME is just that--an 
investment. PRIME clients create and retain jobs, move off of public 
assistance and pay increased taxes as their businesses and incomes 
grow.

The SBA Women's Business Center Program
    The Women's Business Centers (WBC) of the Office of Women's 
Business Ownership provide training and technical assistance to women 
starting or expanding their businesses. In 2003 alone, Women's Business 
Centers across the country trained and counseled over 104,000 women in 
core business areas such as marketing, bookkeeping and finance. The 
Centers serve an invaluable role in meeting the special needs of female 
entrepreneurs across the country.
    America's 9.1 million women-owned businesses employ 27.5 million 
people and contribute $3.6 trillion to the economy. However, women 
continue to face unique obstacles in the world of business and greatly 
need the specialized services that Women's Business Centers provide.
    Again, we ask that the Subcommittee do what is truly best for small 
business in America and appropriate: $30 million for Microloan Lending 
(requiring a $2.8 million appropriation), $25 million for Microloan 
Technical Assistance, $15 million for PRIME, and $14.5 million for 
Women's Business Centers.

                                 ______
                                 
 Prepared Statement of the National Association of State Universities 
and Land-Grant Colleges (NASULGC) and the Consortium for Oceanographic 
                     Research and Education (CORE)

    On behalf of the 256 institutional members of the Consortium for 
Oceanographic Research and Education and the National Association of 
State Universities and Land-Grant Colleges, thank you for your support 
of ocean sciences within the National Oceanic and Atmospheric 
Administration (NOAA). Under your leadership, Congress has taken 
important steps to recognize NOAA's contributions to our nation's 
quality of life, national security, public health, and economic well-
being. However, CORE and NASULGC have serious concerns that the 
Administration budget request for fiscal year 2005 puts that progress 
in jeopardy by recommending significant cuts in funding for NOAA's 
extramural ocean research programs.
    As you are aware, NOAA is the third largest source of federal 
funding for marine academic research, oversees the nation's coastal and 
ocean monitoring networks, and participates in several important 
climate research programs. In that capacity, NOAA provides support for 
scientists at many of our member institutions to conduct research that 
provides critical information to policy-makers. This external research 
offers important benefits to NOAA, leveraging limited resources to meet 
ever-expanding needs for scientific support of its missions.
    University research funds are awarded through peer-reviewed, 
competitive processes, ensuring that tax dollars support the best 
science and that duplication is minimized. In addition to grants 
awarded by NOAA, the states and universities themselves support 
academic research through their contributions to scientists' salaries 
and research facilities. This reduces NOAA's personnel and 
infrastructure costs, and gives the agency greater flexibility to make 
rapid changes in order to address emerging issues and priorities.
    NOAA-sponsored extramural research also is essential to support the 
training of the next generation of ocean scientists and engineers. 
Because the competitive review process ensures that funding is awarded 
to the highest-priority science, graduate students have the opportunity 
to work on cutting edge research. These students will provide the 
foundation upon which our nation's future ability to understand and 
manage marine issues is built. University partnerships will also be the 
best remedy for the large number of anticipated NOAA retirements in the 
coming years. Currently NOAA is undergoing a congressionally mandated 
evaluation of its research enterprise. During this time of change and 
uncertainty, it is critical that Congress continue to support, and use 
any restructuring to enhance NOAA's competitive research programs and 
partnerships with the academic community. These partnerships will allow 
NOAA to bring the best talent to bear in addressing high priority 
research and development requirements.
    The academic community recognizes the serious budgetary constraints 
that Congress faces in the coming fiscal year. However, short term 
savings achieved by cutting funding for extramural research programs 
could seriously jeopardize NOAA's long term capacity to meet its core 
mission requirements.
    We thank you for your past support for ocean science and look 
forward to working with you to restore and stabilize the funding base 
for NOAA's extramural programs. A list of recommended funding levels 
for specific programs is below.
    Thank you for your consideration.

National Ocean Service
    Competitive programs of the National Centers for Coastal Ocean 
Science (NCCOS).--The Administration's fiscal year 2005 budget request 
includes reductions of approximately $10 million from the competitive 
research programs of the National Centers for Coastal Ocean Science. 
These programs support important peer-reviewed, multi-disciplinary 
research in three goal areas: coastal ecosystem studies, cumulative 
coastal impacts, and harmful algal blooms and hypoxia. The proposed 
cuts would have devastating impacts on ongoing research and threaten 
the viability of future science plans, and we urge you to restore 
funding to the previously appropriated level of $23.5 million.
    National Estuarine Research Reserve System (NERRS).--We support the 
National Estuarine Research Reserve Association's requested level of 
$20 million for NERRS, an increase of $3.6 million over the fiscal year 
2005 President's request. This level is necessary to maintain support 
for the system's basic operating requirements and core programs, and to 
provide support for one new site in Texas. NERRS operates the only 
national monitoring program for estuaries, identifying short-term 
variability and long-term trends in coastal environmental quality and 
health at national, regional, and local levels. These funds would also 
support the NERRS graduate fellowship program that brings academic 
research expertise to bear upon coastal and estuarine research data 
gaps and trains the next generation of scientists.

Oceanic and Atmospheric Research
    Climate and Global Change Program.--The fiscal year 2005 budget 
request includes a reduction of $9.15 million for the Climate and 
Global Change program. This important competitive grants program helps 
further our understanding of how the oceans control Earth's climate and 
enhances our predictive capability with respect to forecasting climate 
cycles affecting the United States. We urge you to restore the program 
to the fiscal year 2004 enacted level of $69.7 million.
    Global Ocean Observing System.--For fiscal year 2005, NOAA is 
requesting an increase of $10.7 million to continue building a global 
ocean observing system. These funds bring the completion of the system 
to 53 percent, establishing a global network of ocean reference 
stations to document long-term ocean/atmosphere variability and provide 
validation points for climate forecast models. This funding is an 
important step towards completion of a multi-year plan to fully 
implement the ocean climate observing system by 2010.
    Oceans and Human Health.--The fiscal year 2004 omnibus 
appropriations bill provided $10 million to continue an important new 
program in NOAA studying the role of the oceans in human health. This 
developing effort is composed of three key elements: establishment of 
NOAA centers of excellence, implementation of a competitive external 
research grants, and support for traineeships and distinguished 
scholars. NOAA's program, which complements the joint National Science 
Foundation and the National Institute of Environmental Health Sciences 
initiative, is particularly important given the agency's unique 
leadership position with respect to ocean and coastal stewardship. We 
urge the Committee to continue the program and provide a modest 
increase of $2 million in fiscal year 2005.
    National Sea Grant College Program.--For over 35 years, Sea Grant 
has proven its value to U.S. taxpayers as a program that supports 
rigorous, high-quality research that is directly responsive to the 
concerns of coastal constituents. Over 300 Sea Grant institutions 
across 31 programs collaborate to respond to issues of national and 
regional importance using federal, state and industry partnerships that 
provide an extraordinary return on a modest federal investment. 
Congress recognized the value of Sea Grant when it reauthorized the 
program in 2002 at funding levels 25 percent higher than before. 
However, Sea Grant has lost significant opportunities to respond to 
critical national issues simply because actual program funding has not 
kept pace with inflation and needs. For this reason, we urge you to 
provide $68.4 million for Sea Grant in fiscal year 2005.
    Ocean Exploration.--The Administration's fiscal year 2005 budget 
requests a decrease of $1.8 million for the Ocean Exploration program 
which funds partnerships with public and private institutions to search 
for new ocean resources, assess and explain the diversity of marine 
organisms, survey and explore historic shipwrecks, monitor ocean 
acoustics, and support educational efforts and outreach. This reduction 
will lead to a 20 percent decline in funding available for the academic 
community and other partners to engage with NOAA's program on specific 
projects. We urge you to restore this funding so that the ocean science 
community will be able to continue their participation in efforts to 
promote ocean exploration and research.
    National Undersea Research Program (NURP).--Each year, NOAA's 
undersea research program supports over 200 research projects focused 
on developing the tools and expertise needed to work in the undersea 
environment. Projects are carried out primarily through the six 
regional NURP Centers, and are chosen on the basis of a merit-based 
peer-review process. This open, competitive process ensures a variety 
of high quality research projects directed towards pressing national 
and regional problems. We urge you to provide funding of $15 million in 
fiscal year 2005 to support the work of the NURP centers.
    Educational Partnership Program for Minority-Serving Institutions 
(EPPMSI).--We support the request of $15 million for EPPMSI, and 
support the requested transfer of the program from Program Support to 
OAR. The under-representation of minorities in the earth science 
disciplines continues to be a glaring problem, and NOAA's outreach 
initiatives are vital steps towards correcting the imbalance. This 
program also has the support of NASULGC's Office for the Advancement of 
Public Black Colleges.

National Marine Fisheries Service
    Marine Mammals.--Sound is an essential tool for ocean researchers 
to penetrate the otherwise opaque waters of the sea. However, in recent 
years, concerns have grown about the impact of many types of noise on 
marine mammals, including acoustic research. One of the primary 
challenges to addressing this issue is our current, very limited 
scientific understanding of the effects of sound on marine mammals. 
Increasing this understanding would clarify and guide NOAA managers in 
developing administrative policies to allow the conduct of ocean 
research in compliance with applicable environmental laws as well as 
making it easier for researchers to include effective mitigation 
measures in their experimental plans. We urge that $4 million be made 
available to NOAA for its participation in an independent, peer-
reviewed interagency research program on the effects of sound on marine 
mammals. In addition, we urge that $1 million be provided to NOAA 
Fisheries to strengthen its permitting capabilities and develop more 
efficient and effective criteria and guidance for ocean researchers 
with respect to marine mammals.

NOAA Education Programs
    National Ocean Sciences Bowl (NOSB).--Since its establishment in 
1997, the National Ocean Sciences Bowl has reached more than 8,200 
students and teachers in 24 regions, bringing the oceans into high 
school classrooms. The NOSB, an academic competition for high school 
students who excel in math and science, is funded through a partnership 
with NOAA and other federal agencies, academia, foundations and 
industry. The Committee's past support for the NOSB has supported 
important program enhancements including a pilot program to introduce 
the NOSB in inner-city schools with high numbers of disadvantaged 
students, the National Ocean Scholars program in which students who 
have participated in the NOSB compete for two-year college 
scholarships, and increased regional support. To continue and expand 
the NOSB program, $1.5 million is requested for fiscal year 2005.
Program Support--Marine Operations and Maintenance
    Oceanographic Fleet Support.--For fiscal year 2005, NOAA has 
requested $2.5 million from the University-National Oceanographic 
Laboratory System fleet to support work in the Pacific Ocean. The time 
at sea would be used to support long-time series research for 
Fisheries-Oceanographic Coordination Investigations (FOCI), studies of 
deep-sea vents and the maintenance of tsunami moorings in the Gulf of 
Alaska and the Pacific Ocean. Increased utilization of the UNOLS fleet 
by our federal colleagues helps to lower the overall costs of fleet 
support, leaving more funding for agency operations and research and 
experimentation.

                                 ______
                                 
Prepared Statement of the National Association of University Fisheries 
                         and Wildlife Programs

    The National Association of University Fisheries and Wildlife 
Programs (NAUFWP) appreciates the opportunity to submit testimony 
concerning the fiscal year 2005 budget of the National Oceanic and 
Atmospheric Administration (NOAA). NAUFWP represents approximately 55 
university programs and their 440 faculty members, scientists, and 
extension specialists, and over 9,200 undergraduates and graduate 
students working to enhance the science and management of fisheries and 
wildlife resources.
    The National Sea Grant College Program provides essential academic 
research, education, and extension services for the oceans community. 
Sea Grant research is critical to the maintenance and improvement of 
the nation's marine resources, such as in the areas of combating 
aquatic nuisance and marine invasive species. The program is an 
excellent example of collaboration between federal and state 
governments and universities. Unfortunately, the Sea Grant program has 
been undermined by project terminations and a requested decrease in 
fiscal year 2005. Therefore, NAUFWP strongly urges Congress to 
appropriate $62.4 million for this program in fiscal year 2005, which 
is $5 million above the President's request.
    NAUFWP supports the National Invasive Species Act (NISA) Program to 
prevent and control invasive species, and the Marine Aquaculture 
Program. These partnership programs within NOAA provide information to 
support policy and management decisions, increase knowledge of coastal 
and marine ecosystems, and provide the scientific basis for enhancing 
the Nation's marine economic sector. NAUFWP supports the 
Administration's request of $500,000 for NISA/Prevent and Control, and 
$1.612 million the Marine Aquaculture Program. We urge Congress to 
appropriate these amounts for fiscal year 2005.
    Thank you for considering the views of universities with fisheries 
and wildlife programs. We look forward to working with you and your 
staff to ensure adequate funding for fish and wildlife research, 
education, and conservation. Please include this testimony in the 
official written record.

                                 ______
                                 
              Prepared Statement of The Ocean Conservancy

    The Ocean Conservancy (TOC) is pleased to share its views regarding 
the marine conservation programs in the budgets of the National Oceanic 
and Atmospheric Administration (NOAA), the Department of State's Bureau 
of Oceans and International Environmental and Scientific Affairs and 
the Marine Mammal Commission and requests that this statement be 
included in the official record for the fiscal year 2005 Commerce, 
Justice, State, the Judiciary and Related Agencies bill.
    TOC cannot overstate the importance of this Subcommittee in 
advancing marine conservation and appreciates the funding provided in 
fiscal year 2004. TOC is deeply troubled by the severe cuts totaling 
over $237 million to the National Ocean Service and the National Marine 
Fisheries Service proposed in the Administration's fiscal year 2005 
budget request. If enacted, these cuts will cripple the agency's 
ability to properly manage our oceans. TOC recognizes the constraints 
this Subcommittee faces, but with the upcoming release of the U.S. 
Commission on Ocean Policy's draft report, we urge that you reject 
these cuts and make ocean conservation a top priority.

            NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION

Conservation Trust Fund
    Passed by Congress in 2000, the Conservation Trust Fund is a 
groundbreaking bipartisan accomplishment and represents a major 
advancement in conservation funding. TOC is grateful that this 
Subcommittee has upheld its commitment to funding the Conservation 
Trust Fund over the last four fiscal years and calls for your continued 
commitment in fiscal year 2005 by dedicating $560 million for critical 
ocean and coastal conservation activities within NOAA. We also urge you 
to protect the integrity of the trust fund by limiting its uses to net 
increases, rather than using the fund as a substitute for base funding.

Coral Reef Conservation
    NOAA plays a critical role in protecting coral reefs, serves on the 
Interagency Coral Reef Task Force and has major responsibilities for 
implementing the National Action Plan to Conserve Coral Reefs. Through 
monitoring, mapping, restoration and outreach activities, NOAA works 
with state, territorial, local and other parties to reduce land-based 
pollution, overfishing, diseases, and other threats to coral reefs. TOC 
urges the Subcommittee to provide $2 million above the Administration's 
request, which will leverage an additional $2 to $4 million in matching 
resources, to support local action strategies to protect coral reefs 
through partnerships with local, state and territorial governments, 
universities and the private sector.

National Ocean Service

            National Marine Sanctuary Program
    The 13 U.S. national marine sanctuaries encompass more that 18,000 
square miles of our most significant marine resources. TOC applauds the 
Subcommittee's recognition of the importance of the Sanctuary program 
by providing $49 million for operations in fiscal year 2004 and urges 
at least level funding in fiscal year 2005. Continued funding at this 
level will reduce staffing shortages, support conservation, community 
outreach, research, and education programs, as well as provide the 
necessary funds for updating sanctuary management plans as required by 
law. TOC also supports $10 million for construction, particularly for 
interpretive facilities to educate the public about the federal 
government's role in managing our nation's ocean and coastal resources.

            Marine Protected Areas (MPAs)
    TOC appreciates this Subcommittee's continued support of NOAA's MPA 
initiative and requests $5 million in fiscal year 2005. This $0.5 
million increase will allow NOAA to work more effectively with federal 
and state agencies and other partners to acquire data for the ongoing 
MPA inventory, support the Marine Protected Areas Advisory Committee 
and better assist stakeholders, including states and the National Park 
Service, by holding regional workshops and providing training and 
technical assistance.

            Nonpoint Pollution Implementation Grants
    Polluted runoff continues to be the nation's largest source of 
water pollution. TOC urges the Subcommittee to reject the 
Administration's proposed termination of this program and maintain 
level funding in fiscal year 2005 to help coastal states and 
territories continue to implement their approved nonpoint pollution 
control plans.

National Marine Fisheries Service

            Expanding Fisheries Stock Assessments
    The status of roughly two-thirds of our commercially caught ocean 
fish populations is unknown due in large part to lack of funding for 
basic research and regular stock assessments. We applaud the 
Subcommittee's decision to increase stock assessment funding to $18 
million in fiscal year 2004 and urge that this trend continue with 
$33.9 million in fiscal year 2005, $15 million above the 
Administration's request. Regular stock assessments will give managers 
baseline information critical to managing our fisheries and help reduce 
the backlog in research days-at-sea, which currently exceeds 3,800 days 
according to NMFS's current 10-year plan. This funding is one of The 
Ocean Conservancy's highest priorities.

            Fisheries Observers
    Along with stock assessments, reliable, objective information about 
how many fish and marine wildlife are being caught, directly and as 
bycatch, is crucial to responsible management of our ocean resources. 
Observers are a key means of collecting such information. TOC 
recommends $35 million for fisheries observers in fiscal year 2004, 
$12.5 million above the Administration's request, and encourages the 
Subcommittee to prioritize the following programs.
  --West Coast Observers.--TOC respectfully requests that the 
        Subcommittee fund west coast observers at $5 million in fiscal 
        year 2005, $120,000 above fiscal year 2004 enacted.
  --Pelagic Longline Observers.--TOC strongly supports $3 million in 
        funding for Atlantic and $4 million in funding for Western 
        Pacific pelagic longline fisheries observers. High interaction 
        rates with endangered sea turtles have resulted in partial 
        closures in both fisheries in recent years to avoid 
        jeopardizing the continued existence of these species. In 2004, 
        fishermen will return to the closed areas with gear and bait 
        modifications expected to reduce the number and severity of sea 
        turtle interactions. Adequate observer coverage is essential to 
        determine the effectiveness of these modifications in each 
        fishery. NMFS will require 100 percent observer coverage in the 
        reopened longline swordfish fishery in the Western Pacific. TOC 
        believes that a minimum of 20 percent observer coverage should 
        be required throughout the Atlantic, with 100 percent coverage 
        for any further gear research. Since 2001, Atlantic observer 
        coverage has not met even the 5 percent level required by NMFS 
        in order to comply with the ESA. As a result, NMFS estimates 
        that several hundred endangered sea turtles were captured in 
        excess of authorized levels before the agency took action to 
        require further protections.
  --New England Observers.--TOC appreciates this Subcommittee's 
        inclusion of report language and $9.3 million for New England 
        groundfish observers in fiscal year 2004 and requests level 
        funding and the inclusion of the following report language in 
        fiscal year 2005: ``The Subcommittee expects NMFS to allocate 
        sufficient funds to achieve ten percent observer coverage in 
        the New England groundfish fishery, and in the non-directed 
        fishery to the extent practicable.''
  --Bycatch Observers.--TOC respectfully requests the Subcommittee 
        support level funding at $4.9 million in fiscal year 2005.

            Endangered Species Act--Other Species
    TOC urges the Subcommittee to restore funding in fiscal year 2005 
for Endangered Species Act (ESA) recovery planning and implementation. 
This funding is vital for NMFS to support the recovery of endangered 
marine species like the smalltooth sawfish, respond to listing 
petitions in a timely fashion, conduct Section 7 consultations, 
designate critical habitat and implement recovery plans. Of the 52 ESA-
listed species managed by NOAA, less than one-third have recovery plans 
in place, most of which are critically out of date. We implore the 
Subcommittee to address this problem and provide $5.7 million in fiscal 
year 2005, $2.0 million above the Administration's request.

            Marine Mammal Protection
    A lack of adequate resources has severely hampered NMFS's ability 
to effectively implement the Marine Mammal Protection Act. TOC is 
deeply disappointed that the Subcommittee cut funding in fiscal year 
2004 and strongly urges the Subcommittee to provide at least $15 
million in fiscal year 2005. This will allow NMFS to fund top priority 
studies identified by the take reduction teams; design and implement 
fishery management plans that will not endanger marine mammals; conduct 
research on population trends, health, and demographics; and carry out 
education and enforcement programs. This funding is one of The Ocean 
Conservancy's highest priorities. In addition, we urge the Subcommittee 
to restore funding for the Marine Mammal Health and Stranding Response 
Program, which was cut in fiscal year 2004, and provide $2 million in 
fiscal year 2005. Die-offs of large numbers of marine mammals, 
including a recent bottlenosed dolphin event in Florida, are of 
significant conservation importance. Determining the cause of these 
events requires not only expertise, but also financial resources.

            Protected Resources Stock Assessments
    The MMPA and the ESA require NMFS to regularly evaluate the status 
of approximately 230 stocks of marine mammals, sea turtles, and other 
marine and anadromous species. Accurate and precise biological 
information is necessary to carry out effective conservation programs, 
promote recovery, evaluate listing status, and authorize scientifically 
defensible incidental take permits. Unfortunately, over 130 marine 
mammal stocks and all U.S. sea turtle populations lack the necessary 
data required under MMPA or ESA. TOC urges the Subcommittee to consider 
providing $5 million in fiscal year 2005, which will begin to address 
the problem.

            National Environmental Policy Act (NEPA) Implementation
    TOC supports the Administration's $8.0 million request for 
implementing NEPA. This funding is critical, as NMFS is required by law 
to consider and document potential environmental impacts of agency 
actions, ranging from complex rulemakings to controversial research 
permits. Of these funds, we urge the committee to dedicate $2 million 
to ensure robust NEPA analyses for marine mammal permitting.

            Highly Migratory Shark Fisheries Research Program
    This effective multi-regional collaborative effort conducts vital 
research on shark and ray populations in the Gulf of Mexico, the 
Atlantic, and the Pacific. This research provides NMFS with critical 
information necessary for effective management and conservation of 
shark fishery resources. TOC appreciates the Subcommittee's rejection 
of the Administration's proposed cut in fiscal year 2004 and requests 
level funding at $2.0 million in fiscal year 2005.

                          DEPARTMENT OF STATE

Bureau of Oceans and International Environmental and Scientific Affairs
            International Fisheries Commission Account
    TOC requests $200,000 for the State Department to implement the 
landmark Inter-American Convention for the Protection and Conservation 
of Sea Turtles and the Memorandum of Understanding on the Conservation 
and Management of Marine Turtles and their Habitats of the Indian Ocean 
and South East Asia. The United States played a leading role in the 
establishment of these conservation instruments and our continued 
leadership and support will ensure that momentum continues.

                        MARINE MAMMAL COMMISSION

    TOC requests that the Subcommittee support the Marine Mammal 
Commission's base program at $2.25 million in fiscal year 2004, 
$350,000 above the Administration's request.

                       ANTI-ENVIRONMENTAL RIDERS

    TOC urges the Subcommittee to not attach any anti-environmental 
rider to this or any other appropriations bill. In the past, riders 
have been used by Members of Congress to roll back environmental 
protections and prevent NOAA from advancing marine conservation.
    These programs and issues are of the utmost importance to the 
stewardship of the nation's living marine resources. We greatly 
appreciate your support for these programs in the past and look forward 
to continued, responsible funding for these programs in fiscal year 
2005. Thank you for considering our requests.

                                 ______
                                 
Prepared Statement of the National Federation of Community Broadcasters

    Thank you for the opportunity to submit testimony to this 
Subcommittee requesting a $55 million appropriation for the Public 
Telecommunications Facilities Program (PTFP) in fiscal year 2005. As 
the President and CEO of the National Federation of Community 
Broadcasters, I speak on behalf of nearly 250 community radio stations 
and related organizations across the country. This includes the new Low 
Power FM service that has recently been authorized by the FCC. NFCB is 
the sole national organization representing this group of stations, 
which provide service in both the smallest communities and largest 
metropolitan areas of this country. Nearly half of our members are 
rural stations, and half are minority controlled stations.
    In summary, the points we wish to make to this Subcommittee are 
that NFCB:
  --Supports funding for PTFP that will cover the on-going needs of 
        public radio and television stations.
  --Supports funding for conversion of public radio and television to 
        digital broadcasting.
  --Requests report language to ensure that PTFP utilizes any digital 
        funds it receives for radio as well as television needs.
    Community radio supports $55 million in funding for the Public 
Telecommunications Facilities Program in fiscal year 2005. Federal 
support distributed through the PTFP is essential to continuing and 
expanding the public broadcasting service throughout the United States. 
It is particularly critical for rural stations and for those stations 
serving minority communities. PTFP funds new stations, expanding the 
reach of public broadcasting to rural areas and to audiences that are 
not presently served by existing stations. In addition, it replaces 
obsolete and worn out equipment so that the existing stations can 
continue to broadcast high quality programming. Finally, with the 
advent of digital broadcasting, PTFP funding will help with the 
conversion to this new technology.
    We support $55 million in funding to ensure that both the on-going 
program--currently funded in fiscal year 2004 at $22 million--will be 
continued, and that the increase to $55 million will be available to 
help cover the cost of radio and television converting to digital 
transmission. This increase in funding is urgent because the FCC has 
now endorsed a standard for digital radio broadcasting and the 
television conversion deadline is imminent. In addition, commercial 
radio stations are converting to digital transmission and public radio 
should not be left behind.
    Funding from PTFP has been essential to keep public radio stations 
on the air by funding replacement of equipment, often after 20 or more 
years of use. The program is administered carefully to be sure that 
stations are acquiring the most appropriate type of equipment. They 
also determine that equipment is being properly maintained and will not 
fund the replacement of equipment before an appropriate length of time. 
PTFP has also helped bring public radio service to rural areas where it 
is not available. Sometimes they fund translators to expand the 
coverage of an existing station and sometimes they help with the 
planning and equipment needs of a new station. Recently, many of these 
new projects have been for Native American controlled stations on 
Indian Reservations or new local Low Power FM installations.
    Federal funding is particularly critical to stations serving rural 
and underserved audiences which have limited potential for fundraising 
because of sparse populations, limited number of local businesses, and 
low income levels. Even so, PTFP funding is a matching program so that 
the federal money is leveraged with a local commitment of funds. This 
program is a strong motivating factor in raising the significant money 
necessary to replace, upgrade and purchase expensive broadcast 
equipment.
    Community radio supports funding for conversion to digital 
broadcasting for public radio and television. While public television's 
digital conversion is mandated by the Federal Communications 
Commission, public radio is converting to digital to provide more 
public service and to keep up with the market. The digital standard for 
radio has been approved. The initial conversion of radio stations is 
being concentrated in 13 seed markets and it is important that public 
radio be part of this project. Most exciting to public radio is the 
encouraging results of tests that National Public Radio has conducted 
that indicate that stations can broadcast two high quality signals, 
even while they continue to provide the analog signal. The development 
of 2nd digital audio channels will potentially double the public 
service that public radio can provide, particularly to unserved and 
underserved communities.
    We appreciate Congress' direction to the Corporation for Public 
Broadcasting that it utilize its digital conversion fund for both radio 
and television and ask that you ensure that the PTFP funds are used for 
both media. Congress stated, with regard to the fiscal year 2000 
digital conversion funds:

    ``The required (digital) conversion will impose enormous costs on 
both individual stations and the public broadcasting system as a whole. 
Because television and radio infrastructures are closely linked, the 
conversion of television to digital will create immediate costs not 
only for television, but also for public radio stations. Therefore, the 
Committee has included $15,000,000 to assist radio stations and 
television stations in the conversion to digitization . . .'' (S. Rpt. 
105-300)

    Thank you for your consideration of our testimony. If the 
Subcommittee has any questions or needs to follow-up on any of the 
points expressed above, please contact: Carol Pierson, President and 
CEO, National Federation of Community Broadcasters, 1970 Broadway, 
Suite 1000, Oakland, CA 94612. Telephone: 510-451-8200. Fax: 510-451-
8208. E-mail: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="46252734292a06282025246829342168">[email&#160;protected]</a>
    The NFCB is a twenty-nine year old grassroots organization which 
was established by and continues to be supported by our member 
stations. Large and small, rural and urban, NFCB member stations are 
distinguished by their commitment to local programming, community 
participation and support. NFCB's nearly 250 members come from across 
the United States, from Alaska to Florida; from every major market to 
the smallest Native American reservation. While urban member stations 
provide alternative programming to communities that include New York, 
Minneapolis, San Francisco and other major markets, rural members are 
often the sole source of local and national daily news and information 
in their communities. NFCB's membership reflects the true diversity of 
the American population: 41 percent of members serve rural communities, 
and 46 percent are minority radio services.
    On community radio stations' airwaves examples of localism abound: 
on KWSO in Warm Springs, Oregon, you will hear morning drive programs 
in their Native language; throughout the California farming areas in 
the central valley, Radio Bilingue programs five stations targeting 
low-income farm workers; in Chevak, Alaska, on KCUK you will hear the 
local weather reports and public service announcements in Cup'ik/Yup'ik 
Eskimo; in Dunmore, West Virginia, you will hear coverage of the local 
school board and county commission meetings; KABR in Alamo, New Mexico 
serves its small isolated Native American population with programming 
almost exclusively in Navajo; and on WWOZ you can hear the sounds and 
culture of New Orleans throughout the day and night.
    In 1949 the first community radio station went on the air. From 
that day forward, community radio stations have been reliant on their 
local community for support through listener contributions. Today, many 
stations are partially funded through the Corporation for Public 
Broadcasting grant programs. CPB funds represent under 10 percent of 
the larger stations' budgets, but can represent up to 50 percent of the 
budget of the smallest rural stations. PTFP funding is a critical 
source of matching funds for these essential community resources.

                                 ______
                                 
       Prepared Statement of the Marine Fish Conservation Network

    The Marine Fish Conservation Network (Network) is pleased to share 
its views regarding National Marine Fisheries Service (NMFS) programs 
in the National Oceanic and Atmospheric Administration's (NOAA) fiscal 
year 2005 budget request. We ask that this statement be included in the 
hearing record for the fiscal year 2005 Commerce, Justice, State, and 
the Judiciary Appropriations Bill. We are requesting a budget increase 
of $40.75 million for NMFS programs in the fiscal year 2005 budget to 
be allocated for stock assessments ($15 million), observer programs 
($12.5 million), essential fish habitat ($10.15 million), and vessel 
monitoring systems ($3.1 million) as described below.
    The Network is a national coalition of more than 160 environmental 
organizations, commercial and recreational fishing associations, 
aquariums, and marine science groups dedicated to conserving marine 
fish and promoting their long-term sustainability. We greatly 
appreciate the funding this Subcommittee has provided for the marine 
fish conservation programs within NMFS in the past and we look forward 
to working with the Subcommittee to enact adequate levels of funding 
for the coming fiscal year.
    There are four areas of the NMFS budget where we believe the 
requested funding levels need to be increased to help the agency 
fulfill its obligations as the federal government's fish management 
agency.

                           STOCK ASSESSMENTS

Request: Total of $33.9 million
    While we are pleased that NMFS has requested an $800,000 increase 
in the expanding stock assessments line item, we remain concerned that 
funding in this area is insufficient. There currently is a gap of over 
$40 million between what NMFS needs to conduct stock assessments of 
federally managed fish populations and the funding that is available. 
Also, NMFS estimates that under current funding levels it has a deficit 
of 3,811 days at sea, many of which are used to conduct stock 
assessments. The impact of this deficit is demonstrated by the fact 
that the status of three-quarters of all fish species managed by NMFS 
is unknown, largely due to a lack of funding for basic research and 
stock assessments. An additional $15 million, for a total appropriation 
of $33.9 million for expanding stock assessments, would further this 
essential work.

                           OBSERVER PROGRAMS

Request: Total of $35 million
    As stated by NOAA in their budget summary, the current level of 
funding will only provide observers for 43 fisheries and adequate 
coverage for only 29 of those. Last year Congress took a strong 
positive step to improve the management of America's fish populations 
when it increased the overall fisheries observer budget by almost $11 
million. Observers are an essential fish management tool because they 
provide critical data on the amount and type of ocean wildlife killed 
due to fishing. However, the proposed fiscal year 2005 budget would 
decrease this funding by $2.3 million. A nationwide observer program 
for all federal fisheries would cost approximately $118 million. A 
smart investment toward the sustainability of our nation fisheries 
would be to fully fund a national observer program. Increasing funding 
for observers by $12.5 million to a total of $35 million, would be a 
down payment on that effort.

                         ESSENTIAL FISH HABITAT

Request: Total of $15 million
    Essential fish habitats (EFH) are those waters and substrate upon 
which fish depend for reproduction and growth. Land-based activities 
and destructive fishing practices threaten the viability of these 
habitats and the sustainability of the fish populations that depend on 
them. While the Sustainable Fisheries Act of 1996 gave NMFS a clear 
mandate to identify and protect EFH, too little has been done to 
protect these habitats. NMFS has approximately $4.85 million in its 
base budget for EFH. This level of funding is not nearly adequate for 
protecting the EFH for the almost 1,000 federally managed fish, nor for 
the research necessary to understand the relationship between habitat 
and healthy fish populations. Increasing funding by $10.15 million to a 
total of $15 million would better equip NMFS to gain the information 
necessary to further refine EFH designations and take action to protect 
EFH from the adverse impacts of fishing.

                       VESSEL MONITORING SYSTEMS

Request: Total of $12.4 million
    Increasing funding for vessel monitoring systems (VMS) to $12.4 
million would allow for the establishment and implementation of VMS, as 
well as placing VMS transponders on many of the estimated 10,000 
vessels in the U.S. commercial fishing fleet. This represents a $3.1 
million increase over the President's request. VMS programs enhance 
data collection and safety at sea. VMS is beneficial to regulators 
because it will allow officials to know when a fishing vessel is 
violating closed areas or is fishing beyond the end of a regulated 
fishing season.
    Thank you for considering our request for increasing funding for 
these important fish management programs. These increases will go a 
long way toward ensuring that NMFS can better manage and protect our 
nation's fish resources now and for the future.
                                 ______
                                 
     Prepared Statement of the Honorable Jimmie Kerr, Pinal County 
                               Supervisor

    Chairman Gregg, Ranking Member Hollings, and distinguished members 
of the Subcommittee, thank you for allowing me to testify today in 
support of a $9 million Cooperative Assistance Grant (CAP) from the 
U.S. Marshals Service (USMS) for expansion of the Pinal County 
detention facility in the fiscal year 2005 Senate Commerce, Justice, 
State and the Judiciary Appropriations bill.
    As you may know, Mr. Chairman, Arizona is the second fastest 
growing state in the nation. And, Pinal County is the fastest growing 
county per capita in the state. Unfortunately, with increased 
population comes increased crime. Simply put, our jails and prisons are 
grossly overcrowded and each and every year this problem is only 
exacerbated by our growing population. Our county has come up with a 
unique proposal that will repay the federal government, help the 
Marshals Service obtain much needed additional bed space, and, at the 
same time, relieve our county's overcrowded prison population. This 
proposal would be a win-win for the federal government and Pinal 
County.
    Under the proposal, the CAP grant would enable Pinal County to 
build an additional 500 unit pod onto its new detention facility. In 
return, the USMS would be guaranteed an additional 200 beds in the 
Pinal County facility.
    Pinal County would reduce the established USMS per diem rate for 
all inmates in the facility by $18.60 per day until the grant is fully 
repaid to the USMS. It is estimated that USMS would recover the entire 
$9 million in less than seven years, which would save the USMS the 
total annual operating cost equivalent of approximately 153,577 
prisoner days over this roughly seven year period.
    The reduced per diem rate, while working to pay back the USMS, 
would also help fund the additional operating costs of the new facility 
to the tune of about $2.92 million per year (200 inmates <greek-e> $40 
<greek-e> 365 days = $2,920,000). In addition, the USMS would save 
nearly $1.4 million per year over the next seven years for operating 
expenditures under this unique proposal ($18.60 <greek-e> 200 <greek-e> 
365 = $1,357,800).
    Again, our detention center facilities are way too overcrowded and 
Pinal County's approach to this problem benefits both the federal 
government and the county. At a time when the federal deficit threatens 
fiscal solvency, this plan responds to those fiscal demands by repaying 
the federal government for all the money that is borrowed.
    Therefore, I strongly urge the Subcommittee to support Pinal 
County's request for a $9 million CAP grant to expand its overcrowded 
facility. Thank you in advance for your consideration of this request.

                                 ______
                                 
 Prepared Statement of the Regional Information Sharing Systems (RISS) 
                                Program

    The Regional Information Sharing Systems (RISS) Program 
respectfully requests that Congress appropriate for fiscal year 2005, 
$50 million to continue their support in combating terrorism, drug 
trafficking, and organized crime.
    These funds will enable RISS to continue services to state and 
local law enforcement agencies to identify, target, prosecute, and 
remove criminal conspirators involved in terrorism activity, drug 
trafficking, organized criminal activity, criminal gangs, and violent 
crime that span multijurisdictional boundaries. Funds will allow RISS 
to continue to support the investigation and prosecution efforts of 
over 6,600 local, state, tribal, and federal law enforcement member 
agencies across the nation comprising over 744,000 sworn law 
enforcement personnel.
    Through funding from Congress, RISS has implemented and operates 
the only secure Web-based nationwide network--called riss.net--for 
communications and sharing of criminal intelligence by local, state, 
tribal, and federal law enforcement agencies. Funds will allow RISS to 
upgrade the technology infrastructure and resources to support 
increased use and reliance on the system by member law enforcement 
agencies and support the integration of other systems connected to 
riss.net for information sharing and communication. Using Virtual 
Private Network technology, the law enforcement users access the public 
Internet from their desktops and have a secure connection over the 
private riss.net intranet to all RISS criminal intelligence databases 
and resources. RISS member law enforcement agencies accessed riss.net 
an average of 3.6 million times per month during fiscal year 2003. 
Riss.net is a proven, highly effective system that improves the quality 
of criminal intelligence information available to law enforcement 
officers to make key decisions at critical points in their 
investigation and prosecution efforts.
    The Office of Justice Programs (OJP), Regional Information Sharing 
Systems (RISS) is a federally funded program comprised of six regional 
intelligence centers. The six centers provide criminal information 
exchange and other related operational support services to local, 
state, tribal, and federal law enforcement agencies located in all 
fifty states, the District of Columbia, U.S. territories, Canada, 
Australia, and England. These centers are:
  --Middle Atlantic-Great Lakes Organized Crime Law Enforcement Network 
        (MAGLOCLEN).--Delaware, District of Columbia, Indiana, 
        Maryland, Michigan, Pennsylvania, Ohio, New Jersey, and New 
        York, as well as Australia, Canada, and England.
  --Mid-States Organized Crime Information Center (MOCIC).--Illinois, 
        Iowa, Kansas, Minnesota, Missouri, Nebraska, North Dakota, 
        South Dakota, and Wisconsin, as well as Canada.
  --New England State Police Information Network (NESPIN).--
        Connecticut, Maine, Massachusetts, New Hampshire, Rhode Island, 
        and Vermont, as well as Canada.
  --Regional Organized Crime Information Center (ROCIC).--Alabama, 
        Arkansas, Florida, Georgia, Kentucky, Louisiana, Mississippi, 
        North Carolina, Oklahoma, South Carolina, Tennessee, Texas, 
        Virginia, and West Virginia, as well as Puerto Rico and the 
        U.S. Virgin Islands.
  --Rocky Mountain Information Network (RMIN).--Arizona, Colorado, 
        Idaho, Montana, Nevada, New Mexico, Utah, and Wyoming, as well 
        as Canada.
  --Western States Information Network (WSIN).--Alaska, California, 
        Hawaii, Oregon, and Washington, as well as Canada, Guam, and 
        Australia.
    RISS is a force multiplier in fighting increased violent criminal 
activity by terrorists, drug traffickers, sophisticated cyber 
criminals, street gangs, and emerging criminal groups that require a 
cooperative effort by local, state, tribal, and federal law 
enforcement. There is an increasing communications sophistication by 
the criminal networks, including terrorists, and a rising presence of 
organized and mobile narcotics crime. Interagency cooperation in 
sharing information has proven to be the best method to combat the 
increasing criminal activity in these areas. The RISS centers are 
filling law enforcement's need for rapid, but controlled, sharing of 
information and intelligence pertaining to known or suspected 
terrorists, drug traffickers, and other criminals. Congress funded the 
RISS Program to address this need as evidenced by its authorization in 
the Anti-Drug Abuse Act of 1988.
    The success of RISS has been acknowledged and vigorously endorsed 
by the International Association of Chiefs of Police (IACP), as well as 
other national law enforcement groups such as the National Sheriffs' 
Association (NSA) and the National Fraternal Order of Police (NFOP).
    RISS is operating current state-of-the-art technical capabilities 
and systems architecture that allow local, state, tribal, and federal 
law enforcement member agencies to interact electronically with one 
another in a secure environment. The RISS system has built-in 
accountability and security. The RISS secure intranet (riss.net) 
protects information through use of encryption, smart cards, Internet 
protocol security standards, and firewalls to prevent unauthorized 
access. The RISS system is governed by the operating principles and 
security and privacy standards of 28 CFR Part 23 (Criminal Intelligence 
Systems Operating Policies). The technical architecture adopted by RISS 
requires proper authorization to access information, but also provides 
flexibility in the levels of electronic access assigned to individual 
users based on security and need-to-know issues. Riss.net supports 
secure e-mail and is easily accessible using the Internet. This type 
system and architecture is referenced and recommended in the General 
Counterdrug Intelligence Plan (GCIP) and is endorsed by the National 
Criminal Intelligence Sharing Plan (NCISP).
    The FBI Law Enforcement Online (LEO) system and the RISS system 
achieved interconnection of the two systems in 2002 for distribution of 
sensitive but unclassified homeland security information to authorized 
users of both LEO and RISS. The value of this interconnection was 
recognized in 2003 by the National Criminal Intelligence Sharing Plan, 
which is sponsored by the U.S. Department of Justice. The Plan 
designates the RISS/LEO interconnection as the initial sensitive but 
unclassified communications backbone for implementation of a nationwide 
criminal intelligence sharing capability. This nationwide sensitive but 
unclassified communications backbone supports fully functional, 
bidirectional information sharing capabilities that reuse existing 
local, state, tribal, regional, and federal infrastructure investments. 
The Plan recommends that interoperability of existing systems with the 
RISS/LEO communications capability proceed immediately to leverage 
information sharing systems and expand intelligence sharing. The 
International Association of Chiefs of Police, the U.S. Attorney 
General, and other federal agency administrators endorse the Plan and 
have adopted it as a national model for all law enforcement agencies, 
organizations, and associations. RISS officials are working to 
implement the Plan recommendations within current budgetary restraints.
    In addition, RISS has recognized that the need for exchange of 
information extends beyond law enforcement and the RISS/LEO virtual 
single system. During 2003, RISS implemented a service available over 
riss.net to link law enforcement with the public safety and first 
responder agencies involved in securing our nation from terrorism. The 
service is known as the RISS Anti-Terrorism Information Exchange, or 
RISS ATIX, and includes a secure Web site, secure bulletin board, and 
secure e-mail. Through this capability, users can post timely threat 
information, view and respond to messages posted by government, police, 
fire, emergency, and infrastructure security personnel, and collaborate 
with law enforcement partners. These additional groups of users include 
public service, public safety, emergency management, utility, and other 
critical infrastructure personnel that have traditionally not been 
served by RISS. RISS began this service with limited funding to provide 
a rapid, secure means for first responder agencies to share 
information.
    RISS has entered into a partnership with the High Intensity Drug 
Trafficking Areas (HIDTA) to electronically connect all of the HIDTAs 
to riss.net for communications and information sharing. Currently, 16 
HIDTAs are electronically connected as nodes to riss.net, and RISS is 
working to complete the connection of the remaining HIDTAs. Twelve 
state agencies are currently connected as nodes on riss.net. An 
additional nine state law enforcement agencies are pending connection 
as nodes to share information, including terrorism and homeland 
security information, using riss.net.
    The Executive Office for United States Attorneys (EOUSA) has 
connected staff to riss.net at each of the 93 U.S. Attorneys' Offices 
(USAO) Anti-Terrorism Task Forces throughout the United States. Staff 
at the U.S. Department of Justice, Criminal Division, has connected to 
riss.net. RISS and the El Paso Intelligence Center (EPIC) officials 
entered into a partnership and have electronically connected EPIC as a 
node to riss.net to capture clandestine laboratory seizure data from 
RISS state and local law enforcement member agencies. Other systems 
connected to riss.net include the Law Enforcement Intelligence Unit 
(LEIU), the National Drug Pointer Index (NDPIX), the National White 
Collar Crime Center (NW\3\C), the National Law Enforcement 
Telecommunication System (NLETS), and the Criminal Information Sharing 
Alliance (CISA), formerly the Southwest Border States Anti-Drug 
Information System (SWBSADIS). The United States Postal Inspection 
Service (USPIS) is currently pending connection to riss.net as a node. 
The National Drug Intelligence Center (NDIC) uses the RISS network as a 
communications mechanism for publishing counterdrug intelligence 
products to federal, state, local, and tribal law enforcement members.
    The integration of the above-mentioned state and federal agencies 
and systems with the riss.net secure nationwide communications backbone 
has increased the sharing of criminal intelligence and alerts and 
homeland security information within their own agencies and among the 
other agencies. The operation of RISS ATIX provides first responders 
and critical infrastructure personnel with a secure means via riss.net 
to communicate, share information, and receive terrorist threat 
information.
    Due to the interest of many law enforcement agency systems to 
electronically connect to the RISS/LEO backbone, RISS has developed a 
security architecture solution to allow users with various types of 
security credentials to connect and traverse riss.net to share 
information and access resources without being required to use the RISS 
specific security credentials. Adequate funding is needed to implement 
the technology.
  --RISS is operating an unprecedented nationwide network for 
        communicating critical information in a secure environment to 
        both law enforcement and other first responders. To support the 
        increased needs of these personnel and continue to maintain the 
        RISS system and demand for RISS services and resources, RISS is 
        requesting an increase in funding to $50 million for 2005.
    In view of today's increasing demands on federal, state, local, and 
tribal law enforcement budgets, requests for RISS services have risen. 
This support of law enforcement has had a dramatic impact on the 
success of their investigations. Over the three-year period 2001-2003, 
RISS generated a return by member agencies that resulted in 11,701 
arrests, seizure of narcotics valued at over $189 million, seizure of 
over $9.8 million in currency, and recovery or seizure of property 
valued at over $31 million.
    RISS continues to work with federal, state, local, and tribal 
agencies in their efforts to combat the menace of drugs on our street, 
and the significant influence of youth gangs in the distribution and 
sale of drugs. RISS is working to foster relationships with public 
safety and first responder agencies to increase information sharing on 
terrorism and critical infrastructure matters among those groups and 
with law enforcement.
    The Bureau of Justice Assistance administers the RISS Program and 
has established guidelines for provision of services to member 
agencies. The RISS regional intelligence centers are subject to 
oversight, monitoring, and auditing by the U.S. Congress; the General 
Accounting Office, a federally funded program evaluation office; the 
U.S. Department of Justice, Bureau of Justice Assistance; and state and 
local governmental units. The Bureau of Justice Assistance also 
monitors the RISS centers for 28 CFR Part 23 compliance. This 
regulation emphasizes adherence to individual constitutional and 
privacy rights and places stricter controls on the RISS intelligence 
sharing function than those placed on most federal, state, or local 
agencies. RISS firmly recognizes the need to ensure that individuals' 
constitutional rights, civil liberties, civil rights, and privacy 
interests are protected throughout the intelligence process. In this 
regard, RISS officials recently adopted a RISS Privacy Policy to 
further strengthen their commitment and support of 28 CFR Part 23 and 
protection of individual privacy rights.
    It is respectfully requested that the Congress fully fund the RISS 
Program as a line item in the Congressional budget, in the requested 
amount of $50 million. Local and state law enforcement, who depend on 
the RISS centers for information sharing, training, analytical support, 
investigative funding, and technical assistance, are experiencing 
increased competition for decreasing budget resources. It would be 
counterproductive to require the RISS members from state and local 
agencies to self-fund match requirements, as well as to reduce the 
amount of BJA discretionary funding. The state and local agencies 
require more, not less, funding to fight the nation's crime/drug 
problem. The RISS Program cannot make up the decrease in funding that a 
match would cause, and it has no revenue source of its own. Cutting the 
RISS appropriation by requiring a match should not be imposed on the 
program.
    We are grateful for this opportunity to provide the committee with 
this testimony and appreciate the support this committee has 
continuously provided to the RISS Program.

                                 ______
                                 
      Prepared Statement of the Institute of Makers of Explosives

Interest of the Institute of Makers of Explosives (IME)
    The IME is the safety and security association of the commercial 
explosives industry. Our mission is to promote safety and the 
protection of employees, users, the public and the environment; and to 
encourage the adoption of uniform rules and regulations in the 
manufacture, transportation, storage, handling, use and disposal of 
explosive materials used in blasting and other essential operations. 
ATF is one of the agencies that plays a primary role in assuring that 
explosives are identified, tracked, and stored only to and by 
authorized persons. The ability to manufacture, distribute and use 
these products safely and securely is critical to this industry. With 
this perspective, we have carefully reviewed the Administration's 
fiscal year 2005 budget request and have the following comments.

Performance Measures Fall Short of Strategic Goals
    The commerce of explosives is one of the nation's most heavily 
regulated activities. ATF plays a key role in this regulatory scheme 
through its implementation of Federal Explosives Law. To ensure that 
the Bureau meets its statutory responsibilities, ATF has identified 
goals and performance standards that can measure areas of progress or 
areas needing attention. With regard to its explosives mission, the 
Bureau states that its strategic goals are to ``counter crimes of 
violence'' by effective enforcement of Federal Explosives Law (FEL) and 
to ``protect public safety'' through regulation of the explosives 
industry and explosives safety efforts.\1\ To accomplish these goals, 
ATF sets a number of performance measures.\2\ Regrettably, with two 
exceptions, these measures do not identify outcome measures as required 
by Government Results and Performance Act.
---------------------------------------------------------------------------
    \1\ DOJ Fiscal Year 2005 Budget Summary, page ATF-29.
    \2\ DOJ Fiscal Year 2005 Budget Summary, page ATF-35.
---------------------------------------------------------------------------
    The two exceptions are the measures to ``investigate all reported 
explosives thefts'' and to respond to all ``telephone inquiries from 
industry [within] 72 hours.'' \3\ We support these measures. However, 
we question ATF's determination to limit its efforts to timely respond 
to inquiries from industry to those inquiries received by telephone. 
This measure should be expanded to include other electronic forms of 
communication, as well as letter correspondence.
---------------------------------------------------------------------------
    \3\ DOJ Fiscal Year 2005 Budget Summary, page ATF-35.
---------------------------------------------------------------------------
    This leaves a number of measures with questionable outcomes. Under 
its goal to ``counter crimes of violence,'' the Bureau states that it 
will open some yet to be determined number of explosives investigations 
and related to this the ``number of [explosives] defendants 
convicted.'' However, if ATF's enforcement initiatives were working, a 
more meaningful outcome measure should be the number of investigations 
closed or otherwise resolved, irrespective of whether a conviction was 
obtained. Under its goal to ``protect public safety,'' the Bureau 
states that it will conduct 33 percent of its universe of explosives 
licensee/permittees, which it projects to be about 4,000, and that it 
will resolve up to 850 unsafe explosives conditions discovered by its 
inspectors. In fact, the statutory standard for inspection of licensee/
permittees is, with the exception of ``limited permittees,'' to inspect 
all licensee/permittee applicants prior to the issuance of such license 
or permit.\4\ Thus the appropriate inspection measure should be the 
percentage of inspections performed within the timeframe required by 
law. ATF's standard to resolve up to 850 unsafe explosives conditions 
is also inadequate. ATF has used this estimate at least since the 
Administration's fiscal year 2003 budget request when it suggested that 
850 corrective actions were less than half the Bureau's current 
workload.\5\ The Administration's fiscal year 2005 request does not 
disclose what the Bureau's current corrective action workload is. 
Without this context, the 850 corrective action standard has no basis. 
If ATF's compliance initiatives are working, however, a more meaningful 
outcome measure should be to show a decreasing trend in the percent of 
non-compliance practices that industry fails to rectify after 
corrective actions have been issued.
---------------------------------------------------------------------------
    \4\ 18 U.S.C. 843(b)(4)(A).
    \5\ Statement of Bradley A. Buckles, Director, ATF, Subcommittee on 
Treasury, Postal Service and General Government, House Appropriations 
Committee, February 28, 2002, page 17. (Fiscal year 2001--1,813 
violations; 1st quarter fiscal year 2002--1,763 violations.)
---------------------------------------------------------------------------
Concerns about the Adequacy of Budget Resources
    To accomplish the missions of ATF's explosives and arson program, 
the Administration requests $231.2 million, an increase of $16.1 
million over fiscal year 2004, but only $2.6 million over current 
services.\6\ Nearly half of this new money, $1.1 million is for partial 
funding of 62 new positions (31 FTE).\7\ All of these FTP would be 
brought in as inspectors.\8\ Still, the fiscal year 2005 budget request 
raises questions about ATF's ability to perform assigned functions.
---------------------------------------------------------------------------
    \6\ DOJ Fiscal Year 2005 Budget Summary, page ATF 29. About 9 
percent of this request, $20.7 million, is programmed for information 
and technology enhancements, basically a level funding of the fiscal 
year 2004 allocation for these functions.
    \7\ DOJ Fiscal Year 2005 Budget Summary, page ATF-A6
    \8\ DOJ Fiscal Year 2005 Budget Summary, page ATF-A5.
---------------------------------------------------------------------------
  --Baseline Data.--We cannot comment on the adequacy of ATF's services 
        to industries other than our own. Still, the budget request is 
        difficult to evaluate in terms of resources because it does not 
        disclose information about its current workload, with the 
        exception of reports due to Congress. Even that is incomplete 
        as noted below. To better justify the Bureau's budget 
        submission, ATF should be asked to provide information on: the 
        number of investigations that are open, the date of the oldest 
        and the number of new cases opened in the last fiscal year; the 
        number of inspections that will be required to be preformed do 
        to permit/license renewals; the number of times ATF failed and 
        for what reason to issue a permit or license within the 90-day 
        timeframe required by law; the number of background checks that 
        ATF has performed, within what average timeframe, and of those, 
        how many individuals failed to receive clearance, and of those, 
        how many appealed the Bureau's findings; the number of 
        rulemakings outstanding and their priority; turnover rates 
        among agents and inspectors; and the number of persons and from 
        what agencies that are trained through ATF programs. Absent 
        information of this type, it is unclear how Congress can 
        effectively oversee ATF's explosives operations and determine 
        the adequacy of its budget request.
  --Inspections.--As noted above, the statutory standard for inspection 
        of licensee/permittees is, with the exception of ``limited 
        permittees,'' to inspect the licensee/permittee applicant prior 
        to the issuance of such license or permit. ATF has not met this 
        standard in all instances. We would hope, with the addition of 
        62 inspector positions, that this situation will improve.
  --Rulemakings.--The last publication of a ``final'' rule of 
        consequence to the explosives industry was in 1998.\9\ 
        Currently, ATF has six open rulemakings of interest and concern 
        to the explosives industry.\10\ The oldest of these was 
        proposed in 1997. Several are a result of the enactment of the 
        Safe Explosives Act (SEA) in 2002. Our primary interface with 
        ATF is through efforts to comply with the Bureau's regulations. 
        Two of these rulemakings, which implement the SEA, were issued 
        as ``interim final rules,'' which allows rules to be enforced 
        without standard input as to the effect of the rule on the 
        regulated community. Subsequently, IME raised a number 
        interpretative questions and concerns about these rules which 
        are critical to the continued commerce of commercial 
        explosives. Yet, ATF does not project finalizing these rules 
        until February 2005.
---------------------------------------------------------------------------
    \9\ 63 FR 44999 (August 24, 1998).
    \10\ Semiannual Agenda, 68 FR 73169-72 (December 22, 2003).
---------------------------------------------------------------------------
      Another pending rulemaking deserving of comment stems from a 
        loophole in current regulations that allows the importation of 
        explosives with no marks of manufacture identification. 
        Conversely, ATF regulations require domestic manufacturers to 
        mark all explosive materials they manufacture for sale or 
        distribution for reasons of security and safety.\11\ ATF has 
        emphasized that the failure to apply these markings inhibits 
        law enforcement from tracking explosives to the source, and 
        proving criminal activity. The marks enhance safety because 
        some explosives deteriorate over time and the code allows users 
        to keep inventory fresh. Additionally, the marks are one of 
        industry's ``QA/QC'' tools, allowing the manufacturer the 
        ability to trace product quality problems back to the point of 
        manufacture and distribution. In 2000, IME petitioned ATF for a 
        rulemaking to close this loophole as it applies to high 
        explosives and blasting agents.\12\ Our petition would make it 
        unlawful for any licensee to import such explosive materials 
        without marking all explosives materials in the same manner 
        prescribed by the ATF for domestic manufacturers. ATF finally 
        published a proposed rulemaking on this issue in October 
        2002.\13\ In light of the priority given to strengthening 
        homeland security, we have not understood the lack of urgency 
        given to this rulemaking. In the latest edition of the 
        Administration's semi-annual regulatory agenda, ATF has pushed 
        back for the third time its ``deadline'' for completing this 
        rulemaking.\14\ Now, four years after the filing of our initial 
        petition, we ask you to insist that ATF not let this target 
        release date slip.
---------------------------------------------------------------------------
    \11\ 27 CFR 55.109(a).
    \12\ March 7, 2000 and August 2, 2000.
    \13\ 67 FR 63862 (October 16, 2002).
    \14\ Semiannual Agenda, 68 FR 73170 (December 22, 2003).
---------------------------------------------------------------------------
  --Reports.--ATF acknowledges three reports that are due to House and 
        Senate Appropriations Committees.\15\ Two of the reports are 
        required ``prior'' to the obligation of the $14 million fiscal 
        year 2004 allocation to implement the SEA or the National 
        Explosives Licensing Center which will process the SEA license/
        permit applications. The release of these funds is crucial to 
        the effective and efficient implementation of the SEA. We are 
        concerned by ATF's lack of timeliness in submitting these 
        reports given that the provisions of the SEA have been 
        effective since May 24, 2003. According to ATF's estimate, 
        nearly a year will have passed between the effective date of 
        the SEA and the ``target'' date of the delivery of these 
        reports to Congress. We find this delay without 
        justification.\16\ There are other reports due Congress from 
        the ATF and are not mentioned in the Bureau's budget request of 
        particular concern to IME. The Antiterrorism and Effective 
        Death Penalty Act of 1996 charged ATF, which was delegated the 
        authority, to report on the feasibility of tagging explosive 
        materials for purposes of detection and/or identification, 
        rendering common chemicals used to manufacture explosive 
        materials inert, and imposing controls on certain precursor 
        chemicals used to manufacture explosive materials.\17\ We 
        understand that ATF intends to provide two reports to meet this 
        mandate. One will address issues related to the tagging, and in 
        particular ``identification'' tagging, of explosive materials. 
        The other will address issues related to the enhanced control 
        of ammonium nitrate (AN)--a precursor chemical used to 
        manufacture explosives. We have been told by ATF that the 
        ``AN'' report is pending at DOJ and that the ``Taggant'' report 
        has yet to clear the Bureau. We are particularly concerned 
        about the content and recommendations potentially contained in 
        the Taggant report. ATF initially planned to submit the report 
        to Congress by the end of fiscal year 2001. IME had worked with 
        ATF to ensure that the Bureau had the industry data required. 
        Throughout the process ATF made efforts to keep us informed of 
        the work on the study and preliminary findings. As late as 
        August 2001, we were led to believe that ATF's research had 
        concluded, as did contemporary assessments by the National 
        Academy of Sciences, that identification taggants cannot be 
        supported with current technology. However, following the 
        events of September 11, 2001, ATF informed us that the report 
        had been pulled back and its conclusions are being reassessed. 
        As tragic and sobering as the events of September 11th are, it 
        does not alter the fact that current technology does not 
        support identification taggants. In the Subcommittee's 
        oversight capacity, ATF should be asked about the release date 
        of the 1996-mandated report and, after seven years of study, 
        what if any of the reports recommendations have been changed 
        due to the events of September 11th.
---------------------------------------------------------------------------
    \15\ DOJ Fiscal Year 2005 Budget Summary, page ATF-A10.
    \16\ While the President did not enact the law requiring these 
reports until January 23, 2004, ATF was aware of congressional 
intentions with regard to such reports as early as September 5, 2003. 
In view of the fact that the Bureau has been enforcing the SEA since 
May 2003, we would have thought that by September 2003 and certainly 
January 2004, ATF would have a clear idea of its implementation funding 
needs and priorities.
    \17\ Public Law 104-132, Section 732.
---------------------------------------------------------------------------
      ATF has also from time to time, but we hoped annually, reported 
        on arson and explosives incidents. IME uses this data to inform 
        the industry and the public about these incidents, trends they 
        may suggest, and lessons we may learn. However, ATF's last 
        published version of this document is dated, reporting 
        incidents occurring in 1997. A similar, though not identical, 
        report is issued by the Federal Bureau of Investigation (FBI). 
        Since ATF released its 1997 report, the FBI has released a 1998 
        and a 1999 bombing incident report. When IME last asked ATF 
        about the anticipated release date of its report, we were told 
        that it was being held up pending a reconciliation of data 
        between the Bureau and the FBI. It begs the questions of 
        whether the ATF report will continue in its current or a 
        revised form now that the Bureau has been transferred to DOJ, 
        home of the FBI, and the FBI has been, with more regularity, 
        producing a type of explosives incident report.
      The future of the ATF Arson and Explosives Incident Report is but 
        a small example of overlaps and duplications that may exist 
        between the Bureau and other law enforcement programs at DOJ, 
        and provides a segway to a report we are all anxious to review. 
        In the conference report to the fiscal year 2004 Consolidated 
        Appropriations Act, Congress directed DOJ to submit with its 
        fiscal year 2005 budget request ``a proposal to better blend 
        and eliminate duplication of explosives training and other law 
        enforcement programs at the [DOJ].'' \18\ In this regard, we 
        note that the Administration's fiscal year 2005 budget request 
        continues to carry forward language from earlier budget 
        requests that ``no funds made available by this or any other 
        Act may be used to transfer the functions, missions, or 
        activities of the [ATF] to other agencies or Departments in 
        fiscal year 2005.'' \19\ This language appears to be at odds 
        with any attempt to consolidate and streamline programs. 
        Meanwhile, we are anxious to understand what, if any, 
        recommendations in this report may impact how commercial 
        explosives are overseen, regulated and enforced within DOJ, and 
        once understanding these recommendations, reserving the 
        opportunity to provide additional comment to the Subcommittee.
---------------------------------------------------------------------------
    \18\ Conf. Rept. 108-401, to accompany H.R. 2673 (Public Law 108-
199).
    \19\ DOJ Fiscal Year 2005 Budget Summary, page ATF-13.
---------------------------------------------------------------------------
Conclusion
    The manufacture and distribution of explosives is accomplished with 
a remarkable degree of safety. We recognize the important role played 
by ATF in helping our industry achieve and maintain safe and secure 
workplaces. Industry and the public trust that ATF has the resources to 
fulfill its regulatory responsibilities. We, therefore, strongly 
recommend full funding for ATF's explosives program.
                                 ______
                                 
   Prepared Statement of the Confederated Tribes of the Warm Springs 
                         Reservation of Oregon

    Mr. Chairman, I, Garland Brunoe, Chairman of the Tribal Council of 
the Confederated Tribes of the Warm Springs Reservation of Oregon, 
hereby submit this testimony regarding the fiscal year 2005 
appropriation for the U.S. Department of Justice. All of our fiscal 
year 2005 requests address programs in the Justice Department's Office 
of Justice Programs, and are summarized below: (1) Restore State and 
Local Law Enforcement Assistance funding for Indian tribes in the 
amount of $15 million; (2) increase Tribal COPS funding by $10 million 
to $30 million; and (3) provide $20 million for Tribal Juvenile Justice 
programs for fiscal year 2005.
    Our requests are more fully discussed below.

Restore State and Local Law Enforcement Assistance funding for Indian 
        tribes in the amount of $15 million
    The fiscal year 2005 Department of Justice budget proposes to 
completely eliminate funding for the State and Local Law Enforcement 
Assistance program, which in fiscal year 2004 included $2 million for 
tribal jail construction, $8 million for tribal courts, and $5 million 
for tribal alcohol and substance abuse prevention and treatment 
programs. All of these programs are critical to public safety and 
stability on Indian reservations. Our own jail, designed and built by 
BIA, is out of compliance with federal standards and needs to be 
substantially remodeled or rebuilt. Tribal courts are a key link in 
tribal justice systems and essential to tribal sovereignty, and this 
funding has been the only steady source of federal support, even as 
small as it has been, for our court systems. And alcohol and substance 
abuse plague our communities and significantly contribute to crime. 
Accordingly, we request that fiscal year 2005 funding for Indian tribes 
in the State and Local Law Enforcement Assistance program be restored 
to at least their fiscal year 2004 levels.

Increase Tribal COPS funding by $10 million to $30 million
    Indian tribes face significant difficulties in providing law 
enforcement. Reservations are often rural and sparsely populated across 
great distances. Unemployment is often high and infrastructure 
inadequate. Many tribal economies are modest, and cannot on their own 
support much in the way of law enforcement. The Bureau of Indian 
Affairs law enforcement budget is also insufficient. As a result, 
crime, including violent crime, is often exceptionally high in Indian 
Country. Within the last ten years, alarming reports on reservation law 
enforcement and public safety prompted support increases within BIA law 
enforcement and also within the Department of Justice's Community 
Oriented Policing Systems programs. The COPS program is a vital 
component of law enforcement on many reservations, as demonstrated by 
its retention within the drastically cut-back fiscal year 2005 national 
COPS program. Accordingly, we request that the Tribal COPS program be 
increased to $30 million for fiscal year 2005, an increase of $5 
million over fiscal year 2004 and $10 million over the Administration's 
fiscal year 2005 request.

Provide $20 million for Tribal Juvenile Justice programs for fiscal 
        year 2005
    The fiscal year 2005 Department of Justice budget proposes to 
completely eliminate funding for the Juvenile Justice Program, which in 
fiscal year 2004 included $10 million for tribal youth. Tribal youth 
often must confront joblessness and poverty, which can lead to despair 
and delinquency. Today across the United States, Native American young 
people already are among the most troubled, and particular care and 
supervision are essential. A recent audit of Juvenile-related programs 
and services at Warm Springs revealed a dramatic lack of services and 
resources available to work with our troubled youth and correct 
delinquent behavior. Without assistance to address these problems, the 
already devastating circumstances for the young people in our 
communities will only accelerate. Accordingly, we request that the 
Tribal Youth funding in Juvenile Justice be doubled from its fiscal 
year 2004 amount of $10 million to $20 million.
    Mr. Chairman, that concludes the Confederated Tribes of the Warm 
Springs Reservation's appropriations requests of your Subcommittee for 
fiscal year 2005. Thank you.

                                 ______
                                 
               Prepared Statement of The Asia Foundation

    Mr. Chairman: The Asia Foundation is grateful for the strong 
support of the Congress, including the appropriation of $13 million for 
fiscal year 2004. Past committee report language has commended our 
grant making role in Asia and the Appropriations Committees have 
encouraged the Foundation to expand its programs in predominantly 
Muslim countries, including Afghanistan, Indonesia, Pakistan and 
Mindanao in the Philippines. Regrettably, the Administration decided to 
use their fiscal year 2004 requests as the baseline for their fiscal 
year 2005 requests. That resulted in a low fiscal year 2005 request for 
the Foundation. We respectfully urge the Committee to sustain its 
support for the vital work of the Foundation on behalf of U.S. 
interests in this uniquely complex region, particularly as we deepen 
our involvement in front line states, such as Afghanistan, Pakistan and 
Indonesia and India, a regional power of increasing importance to U.S. 
interests in South Asia. The Asia Foundation is requesting a modest 
increase to $15 million, below the $18 million authorized by the State 
Department authorization bill recently passed by the House.
    An appropriation of $15 million would allow The Asia Foundation to 
strengthen programs it has begun in recent years with Congressional 
encouragement, notably in the areas of protecting women and children 
against trafficking, promoting women's political and economic 
participation, strengthening Constitutional democracy and restoring a 
functioning educational system in Afghanistan, promoting tolerance in 
predominantly Muslim nations like Indonesia, protecting human rights, 
and strengthening civil society throughout the region.
    We are cognizant of the fiscal year 2005 budgetary pressures on the 
Committee. However, any cut below the current funding level for the 
Foundation would curtail important work, in some cases, just as the 
program investments over the past few years have reached maturity, and 
positive results are attainable. The Asia Foundation is the only 
American organization with a distinctive history of fifty years of 
presence and engagement in Asia, delivering concrete programs that 
address some of Asia's most pressing needs. Curtailment of Foundation 
programs in these key areas could wrongly signal to people in the 
region a loss of U.S. commitment to democratic governance, civil 
society and human rights in Asia.

                                OVERVIEW

    The United States and Asia face new challenges, complicated by the 
war on terrorism and fragile democracies in Afghanistan, Indonesia, 
Pakistan, and even in Thailand and Korea. More than ever, we must 
support political stability and economic reform, and give attention to 
countries where recent events have complicated bilateral relations, 
specifically in countries that have been traditional allies of the 
United States, and in countries with predominantly Muslim populations. 
Challenges to governance in the newly democratic countries of Asia, 
including Thailand, the Philippines, Indonesia, and Korea, require 
different approaches than in countries struggling to attain democracy, 
peace and stability, such as Afghanistan, Nepal, and Pakistan. 
Continued political instability in Indonesia, lack of a peace 
settlement in the Southern Philippines, and the emergence of regional 
terrorist networks threaten regional stability. Human rights abuses, 
and impunity for perpetrators continue throughout the region. Even 
though women in Asia have made gains in many places, such as Cambodia, 
Thailand and Nepal, they are still subject to economic and political 
inequities. In the worse cases, they are victims of trafficking and 
abuse.
    Working together with Asian organizations as a trusted partner 
through a network of 17 offices in Asia, The Asia Foundation is a 
nongovernmental, nonpartisan American asset combining local 
credibility, a nuanced understanding of the issues facing each country, 
and unparalleled access and relationships with government, 
nongovernmental groups, and the private sector. The Asia Foundation is 
a well recognized American organization, but its programs are grounded 
in Asia, helping to solve local problems in cooperation with Asian 
partners. The Foundation combines a long-term view of policy reform and 
development in Asia, and a rapid response capacity through grant making 
and expert staff to deliver short-term, high impact programs. In 
addition to the importance of these programs to the lives of people in 
Asia, the Foundation's efforts also make an important and tangible 
contribution to public diplomacy for the United States.

                     THE ASIA FOUNDATION'S MISSION

    The Asia Foundation's core objectives are central to U.S. interests 
in the Asia-Pacific region:
  --Democracy, human rights and the rule of law: developing and 
        strengthening democratic institutions and encouraging an 
        active, informed and responsible nongovernmental sector; 
        advancing the rule of law; and building institutions to uphold 
        and protect human rights;
  --Open trade and investment: supporting trade, investment and 
        economic reform at the regional and national levels;
  --Women's political participation: encouraging women's participation 
        in public life; protecting women's rights and supporting 
        advocacy training; prevention of trafficking and supporting 
        efforts to protect and provide shelter to victims;
  --Peaceful and stable regional relations: promoting United States-
        Asian dialogue on security, regional economic cooperation, law 
        and human rights.
    The Foundation remains faithful to its grant-making role, steadily 
building institutions and strengthening Asian leadership. Foundation 
assistance supports training, technical assistance, and seed funding 
for new, local organizations, all aimed at promoting reform, building 
Asian capacity and strengthening United States-Asia relations. 
Foundation grantees can be found in every sector in Asia, leaders of 
government and industry and at the grassroots level, in an increasingly 
diverse civil society.
    The Foundation provides necessary technical assistance, and grants 
that cover nuts and bolts necessities to support reform efforts. For 
example, in the case of the drafting of the Afghan Constitution, the 
Foundation provided expert advice on the drafting process, reference 
materials, equipment and administrative support costs for the 
Constitutional Commission, and later, the operational and logistical 
support for the Constitutional Loya Jirga (CLJ). The Asia Foundation 
was awarded a medal for its contribution at the closing ceremony of the 
Loya Jirga by President Karzai. Special Representative of the U.N. 
Secretary General for Afghanistan Brahimi stated at the end of the 
Constitutional Loya Jirga: ``The Asia Foundation staff are the unsung 
heroes of the CLJ process. Without the creativity, intellectual insight 
and flexibility of The Asia Foundation, much that has been accomplished 
would not have been done.''

                                PROGRAMS

    The Asia Foundation makes over 800 grants per year. The Foundation 
also facilitates programs, provides technical assistance and leverages 
funding from public and private donors, to increase program impact and 
sustainability. With additional funding in fiscal year 2004, the 
Foundation's expanded activities include:
    Human Rights, Conflict and Islam: in Indonesia, establishment of 
the International Center for Islam and Pluralism (ICIP) the only 
regional center for progressive Muslim scholarship and exchange in 
Southeast Asia; education reform in 1,000 schools including training on 
pluralism, human rights and civic education for 160 madrassa (day 
schools) teachers through the Center for Human Resources Development 
(PPSDM) at the State Islamic University; curriculum reform for 800 
pesantren (boarding schools), part of the Foundation's education reform 
of 625 Islamic schools nationwide, with over 215,000 students; in 
Cambodia, Sri Lanka and Nepal, human rights education, monitoring, and 
documentation through new information technology networking; in 
Mindanao in the Philippines Local Peace Monitors for the cessation of 
hostilities agreement and madrassa education research for the first 
time in 15 years;
    Civil Society: in Pakistan, public awareness and media campaigns 
promoting democracy, human rights and access to education for women and 
women's rights under the law, civil society development through 
capacity building and training; in Afghanistan, girls education and 
journalism training for women; in Cambodia, human rights and legal 
services; in Indonesia, promote pluralism, tolerance and moderation by 
mainstream Muslim organizations through public education, media through 
radio talk shows and education reform;
    Women's Programs: regionwide, with particular emphasis on 
Indonesia, Cambodia, Thailand, Vietnam and Mongolia, anti-trafficking 
programs including prevention, services for victims, legal drafting and 
advocacy to support increased prosecutions; services and advocacy for 
women victims of domestic violence; in India, Pakistan, Bangladesh, Sri 
Lanka and Indonesia, Thailand, Malaysia and Mindanao projects to 
advance women's rights within an Islamic framework through analysis, 
public education and outreach; in Afghanistan and Cambodia, support for 
scholarships for girls' education;
    Legal Reform: in Afghanistan, constitutional drafting technical 
assistance and operations and logistics for the Constitutional Loya 
Jirga in support of the UNAMA effort, technical support for the 
Constitutional Secretariat and logistics for the delegate selection 
process in Afghanistan; access to justice programs and public 
consultation in lawmaking in East Timor; legal aid services and legal 
education for migrant women workers in China; in Indonesia reform of 
the Supreme Court including civil society input into the reform 
process; in Nepal, mediation programs, legal reform within the courts, 
establishment of legal information systems and watchdog citizens' 
groups to raise awareness on corruption and official misconduct;
    Economic Reform: In Indonesia, Vietnam, Nepal, Bangladesh, small 
and medium enterprise policy reform; in Korea, Japan, China, Mongolia 
and the Philippines, corporate governance reform and e-government 
efforts to counter corruption;
    International Relations: In China, Vietnam and India, scholarships 
for young Ministry of Foreign Affairs leaders, study programs for 
Southeast Asian young leaders to the United States, and support for 
Track II programs on cross-straits relations and Council for Security 
Cooperation in the Asia Pacific (CSCAP).

                               CONCLUSION

    As these examples of our work emphasize, The Asia Foundation is 
first and foremost a field based, grant-making organization. The 
Foundation has consistently received national recognition for its 
efficient grant-to-operating ratio, reflecting its commitment to 
maximizing program impact in Asia while keeping costs low. We are not a 
research organization or academic institution, nor are we Washington 
based. We operate on the ground in Asia as an accepted, trusted partner 
and supporter of Asian reform efforts that simultaneously support and 
reinforce American political, economic and security interests.
    Public funding is essential to our mission. While the Foundation 
continues to expand its private funding, the flexibility and 
reliability that public funding lends to the Foundation's efforts are 
critical. As an organization committed to U.S. interests in Asia, we 
can only be successful if potential private donors understand that the 
U.S. government continues to support our efforts in the region. 
Furthermore, private funds are almost always tied to specific projects, 
as are USAID funds for which the Foundation competes. These funds do 
not replace public funding, either in scale or flexibility. Moreover, 
the flexibility afforded by appropriated funds enables the Foundation 
to respond quickly to fast breaking developments and program 
opportunities. For example, we were the first American organization in 
Kabul to assist the Emergency Loya Jirga process, having re-opened our 
office in January 2002.
    Now more than ever, the Foundation and its supporters believe that 
its most important asset is its field office network in Asia, enabling 
the Foundation to address critical development and reforms on the 
ground. Maintaining offices overseas costs more than maintaining 
operations within the United States and new demands to ensure adequate 
security have added to the cost. Today, we continue to face budgetary 
constraints. We must protect our staff, but at the same time, we are, 
as always, committed to ensuring the maximum possible amount of 
appropriated funds are dedicated to programs in Asia.
    In closing, the Foundation has an opportunity and the obligation to 
demonstrate America's strong commitment to working with Asian leaders 
to assure the security, rights and well being of the people of Asia. 
The Asia Foundation's programs represent a distinctive and positive 
American response to the challenges facing Asia today, contributing to 
the development of stable societies and advancing the interests of the 
United States in the region. Additional funding would enable the 
Foundation to sustain and expand its efforts to meet these goals. Thank 
you.

                                 ______
                                 
  Prepared Statement of the Association of Small Business Development 
                                Centers

    The Association of Small Business Development Centers (ASBDC) urges 
the Subcommittee to provide an appropriation of $100 million for the 
U.S. Small Business Administration's Small Business Development Center 
(SBDC) grant program in the fiscal year 2005 Commerce-Justice-State 
appropriations bill. This is the funding level recommended by the 
Senate Budget Committee for federal SBDC grants in fiscal year 2005.
    Small businesses are struggling. BusinessWeek Online points out 
that small businesses, which usually create most of the new jobs in the 
initial stages of an economic recovery, are increasingly going bankrupt 
and extinguishing jobs. America's SBDC network can help small 
businesses lead the nation's economic recovery and create new jobs--as 
well as generate the additional revenues needed to reduce the budget 
deficit. But we need the resources to do the job.
    Based on its record during the past decade, with an appropriation 
of $100 million our nation's SBDC network could help SBDC in-depth 
counseling clients to: create an estimated 88,846 new full time jobs; 
increase sales by an estimated $7.1 billion; generate an estimated $211 
million in additional revenue for the federal government; and, create 
an estimated $315 million in additional tax revenues for state 
governments.
    Since fiscal year 2001, when Congress appropriated $88 million for 
SBDC grants, the President's budget proposal has not called for an 
increase in funding for SBDC grants, despite the effects of inflation 
and a growing demand for SBDC services. As a result, federal funding 
for our nation's SBDC network has decreased in real terms since fiscal 
year 2001. The SBDCs in 24 states (including Kansas, Kentucky, 
Maryland, New Mexico, West Virginia and Wisconsin) are operating with 
less federal funding than they received in fiscal year 2002. The SBDCs 
in the fifteen least populated states (including Alaska, Hawaii, New 
Hampshire and Vermont) have not had an increase in federal funding 
since fiscal year 1998. This year, SBDC grantees will receive less 
federal funding than they received in fiscal year 2003, and OMB has 
crafted a budget for fiscal year 2005 that proposes to reduce SBDC 
grant funding even further.
    There is room in the budget to provide a needed increase in funding 
for SBDC grants. The Senate Budget Committee has recommended that 
federal SBDC grants be funded in fiscal year 2005 at $100 million. In 
addition, the Senate passed an amendment to increase the SBA's fiscal 
year 2005 budget by $121 million, to fund increases in a range of 
programs including the SBDCs. Moreover, while the SBA's fiscal year 
2005 Congressional Budget Request proposes to cut funding for SBDC 
grants, it calls for the total cost of the SBDC program to increase by 
nearly $9 million--presumably for the SBA's expenses associated with 
administering the SBDC program. The ASBDC would respectfully suggest 
that any additional funding for the SBA to administer the SBDC program 
would be better spent on the delivery of counseling and training 
services to small businesses and aspiring entrepreneurs, by increasing 
funding for grants instead of administration.
    The Association of Small Business Development Centers (ASBDC) 
represents the 63 State, Regional and Territorial SBDC programs 
comprising America's SBDC network. SBDC programs are located in all 50 
states, the District of Columbia, Puerto Rico, The Virgin Islands, Guam 
and American Samoa. America's SBDC network is the most productive 
federal management and technical assistance program for small business. 
It is a unique partnership that includes Congress, the SBA and the 
private sector, as well as the colleges, universities and state 
governments that receive SBDC grants and manage the SBDC network.
    Nationwide, SBDCs provided management and technical assistance to 
more than 1.3 million small business owners and aspiring entrepreneurs 
last year. In 2003, SBDC services included face-to-face counseling of 
an hour or more for 279,281 clients; 1.6 million total hours of 
counseling; 25,970 group training sessions; training of two hours or 
more for 408,254 clients; and more than two million total hours of 
training for small businesses and aspiring entrepreneurs.
    The SBDC program was designed to create a lasting partnership among 
federal, state and local governments and institutions of higher 
learning, to disseminate the very best practical business management 
and technical knowledge to our nation's small business owners and 
aspiring entrepreneurs, and grow the American economy. The plan has 
worked remarkably well:
  --SBDCs help create and save jobs. In the recession of 2001, as big 
        businesses downsized, SBDC in-depth counseling for small 
        businesses generated 46,688 new full time jobs and helped save 
        an additional 34,215 jobs.
  --SBDC counseling clients create more jobs than average businesses. 
        Businesses that received in-depth SBDC counseling experienced 
        10 times the job growth of average businesses (8.4 percent 
        compared to 0.8 percent for U.S. businesses in general in 
        2001).
  --SBDCs help small businesses increase sales. SBDC in-depth 
        counseling helped small businesses generate $3.9 billion in new 
        sales and save $4.3 billion in sales in 2001.
  --SBDC clients' sales grow faster than other businesses' sales. 
        Established businesses that received in-depth SBDC counseling 
        experienced sales growth of 12.1 percent in 2001--compared to 
        3.1 percent for businesses in general.
  --SBDC clients create new businesses. 50 percent of pre-venture SBDC 
        in-depth counseling clients start businesses within one year of 
        receiving assistance. In 2001, SBDC in-depth counseling clients 
        started 12,872 new businesses.
  --SBDC clients make investments in our economy. SBDCs helped small 
        businesses obtain an estimated $2.7 billion in financing in 
        2001. Every dollar spent on the SBDC network helped small 
        businesses invest $15.89 in capital.
    Outstanding institutions of higher education such as the University 
of New Hampshire, the University of Alaska Anchorage, Santa Fe 
Community College, the University of Kentucky, the University of 
Houston, the Dallas County Community College District, Texas Tech 
University, the University of Texas at San Antonio, Fort Hays State 
University (Kansas), the University of South Carolina-Columbia, the 
University of Hawaii at Hilo, the University of Maryland, the Vermont 
State Colleges, the University of Wisconsin-Extension and Washington 
State University, to name a few, are among the hosts of the SBDC 
program. Many host institutions house the great business schools and 
entrepreneurial programs in our nation, such as the Wharton School, the 
Kenan-Flagler School of Business, the Robert H. Smith School of 
Business, the Isenberg School of Management and the Terry College of 
Business. SBDC hosts also include state governments such as the State 
of Colorado and the West Virginia Development Office. These state 
governments, like the institutions of higher learning that host SBDC 
programs, bring to the SBDCs resources, relationships and unparalleled 
leadership in their respective states.
    Among the management and technical assistance services they 
provide, SBDCs provide services in several areas that are of particular 
concern to small businesses, and to members of the Subcommittee, 
including export assistance, procurement and manufacturing.
    Many SBDCs host specialized International Trade Centers, where 
small business owners and aspiring entrepreneurs receive 
individualized, in-depth counseling and specialized training from 
experts in international trade and export expansion. And because the 
SBDC International Trade Centers are part of the larger SBDC network, 
small businesses and aspiring entrepreneurs that seek international 
trade assistance can also access the many other types of assistance--
from marketing to research--that they need to make their export 
businesses succeed. In 2003, SBDCs trained 8,592 small business owners 
and aspiring entrepreneurs in international trade, and provided 
counseling on international trade matters to 9,378 clients.
    SBDCs offer assistance with government procurement and are often 
co-located with Procurement and Technical Assistance Centers (PTACs). 
Services include help with registrations, identifying solicitations and 
special programs, preparing certification documents and bids, 
submitting applications, contract administration and contract close-
outs. In 2003, SBDCs provided government procurement counseling to 
12,784 clients.
    America's SBDC network is also responding to the need for 
management and technical assistance among small manufacturers. Ninety-
five percent of American manufacturers are small and medium-size 
businesses, employing half of all manufacturing workers in the United 
States, and many of them rely on their local SBDCs for assistance. In 
2003, SBDCs provided manufacturing counseling to 22,267 clients.
    SBDCs serve women, minorities and America's veterans. In 2003, 37 
percent of SBDC counseling clients nationwide were women, 35 percent 
were minorities and 10.4 percent were veterans. Forty-five percent of 
SBDC training clients were women, 25 percent were minorities and 8.2 
percent were veterans.
    SBA statistics for the SBDC program show that SBDC counseling cases 
and training attendees combined increased from 650,000 to 685,000 
between fiscal year 2002 and fiscal year 2003. Counseling hours 
increased from 1.47 million to nearly 1.57 million. Training attendees 
increased from 384,000 to 408,000. Training hours increased from 1.58 
million to 2.08 million. These figures clearly demonstrate that 
America's small business owners know they need help and are 
increasingly seeking it from the SBDC network. However, there is a 
limit to the increases in services that the SBDC network can provide 
with flat, or declining, federal funding.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Finally, SBDCs have a positive revenue impact on the federal 
budget. The President's fiscal year 2004 Budget pointed out that an 
independent evaluation of the SBDC program indicated that each $1 spent 
on SBDC counseling resulted in $2.78 in tax revenues. The federal SBDC 
budget of $88 million generated an estimated $182.9 million in federal 
revenue in 2001. SBDCs also leverage federal, state, local and private 
resources. For an SBDC to receive federal funding, it must first raise 
an equal amount of funding from non-federal sources. The SBDCs raise a 
minimum of $88 million a year in non-federal resources to serve small 
business owners and aspiring entrepreneurs.
    The ASBDC appreciates the Subcommittee's consideration of the 
Association's views. We urge the Subcommittee to provide an 
appropriation of $100 million for the SBDC grant program in the fiscal 
year 2005 Commerce-Justice-State appropriations bill, as recommended by 
the Senate Budget Committee.

                                 ______
                                 
           Prepared Statement of the Doris Day Animal League

    Mr. Chairman and members of the Appropriations Subcommittee on 
Commerce, Justice, State, the Judiciary and Related Agencies, thank you 
for the opportunity to submit testimony on behalf of the 350,000 
members and supporters of the Doris Day Animal League in support of our 
request that the Federal Bureau of Investigation assign the crime of 
animal cruelty its own classification in the agency's crime data 
reporting system.
    Law enforcement agencies already collect and submit data on animal 
cruelty crimes, but those data are combined with other crimes in a 
miscellaneous category where it is irretrievable and therefore useless. 
Local law enforcement agencies and many others want this information to 
help them better understand and respond to animal abuse and other 
offenses. To minimize the cost of making this change, we are suggesting 
that this category be added only as reporting agencies switch from the 
original Uniform Crime Reporting Program (UCR) to the current National 
Incident-Based Reporting System (NIBRS, currently used by only 18 
percent of reporting agencies) or to the new system (the ``national 
indices initiative'') the FBI has just started to develop. Thus, we 
estimate the cost to the FBI to add this category to NIBRS would be 
minimal (less than $90,000, based on a comparable FBI estimate) to 
modify materials and computer programs, with no additional costs to 
local agencies beyond the costs they would incur anyway in the 
changeover. There would, of course, be no incremental costs at all 
associated with including this category from the start in the new 
reporting system. Since the FBI has already started updating its crime 
data reporting system, this is the perfect opportunity to ensure that 
this serious category of crimes is handled in a way that makes the data 
usable.

The Significance of Animal Cruelty as a Crime: ``The Violence 
        Connection''
    Animal cruelty was once viewed as an offensive behavior unrelated 
to other crimes. Now it is recognized as a serious crime with important 
implications for human society. A growing body of research, produced 
over the last 30 years, establishes a clear link between animal abuse 
and human violence. One comprehensive study of data from a 20-year 
period found that adults convicted of animal cruelty were more likely 
than their peers to engage in other forms of criminal activities, 
including violent crimes against humans, property crimes, and drug and 
disorderly offenses. In addition to the association between animal 
cruelty and criminal behavior, there is also evidence that the severity 
of violence against animals can indicate the degree of aggressiveness 
toward humans. Research on incarcerated adult males found that the most 
aggressive inmates had the most violent histories of animal cruelty. It 
is worth noting that in dangerous situations such as a hostage-taking, 
the FBI has included a history of animal cruelty among the factors used 
to determine an individual's threat level.
    Another important link with serious policy implications is the co-
occurrence of family violence and animal abuse. In interview studies 
with domestic violence victims, between 54 and 71 percent of the women 
report that their partners also harmed or killed the family pet. Child 
abuse and animal abuse also are linked: animal abuse was confirmed in 
88 percent of families being supervised by a child welfare agency for 
physically abusing their children.
    In addition to being linked to other types of criminal activity and 
family violence, animal abuse by children signals an important warning. 
In fact, the FBI was one of the first to recognize the significance of 
juvenile animal cruelty when it reported that many serial killers had 
abused animals as children. It also has been reported that many of the 
school shooters in the late 1990s had engaged in various forms of 
animal cruelty.
    The National Crime Prevention Council, the Department of Education, 
and the American Psychological Association all list animal cruelty as 
one of the warning signs for at-risk youth. Furthermore, researchers 
agree that persistent aggressive behavior in childhood, termed 
``conduct disorder,'' tends to be a fairly stable trait throughout life 
and is the single best predictor of later criminal behavior. Animal 
cruelty is one of the symptoms for a diagnosis of conduct disorder and 
therefore can be one of the earliest indicators that a child is at 
risk.
    Not all children who abuse animals will become serial killers, 
school shooters, or criminals as adults. However, research clearly 
suggests that engaging in childhood animal cruelty conditions an 
individual to accept, or engage in, interpersonal violence as an adult.

Responses to ``The Violence Connection''
    Government agencies, professional organizations, and communities 
have responded to the growing body of evidence of the animal abuse-
human violence connection. For example, before 1990, only seven states 
had felony provisions in their animal anticruelty statutes; that number 
is now 41 states and the District of Columbia. As of this date, 24 
state animal anticruelty statutes permit or mandate psychological 
counseling for offenders.
    In addition to these changes in state cruelty laws, awareness of 
the significance of animal abuse as a crime has resulted in the 
development of a number of initiatives. ``Safe Pet'' programs, which 
provide safekeeping for the pets of domestic violence victims so that 
they feel free to leave dangerous situations, are being instituted in 
communities throughout the United States. Animal control officers are 
being trained to ``cross report,'' that is, to look for signs of child 
and spousal abuse when investigating an animal abuse or neglect 
complaint; likewise, social workers are taught to report animal abuse. 
Intervention strategies for children and adults who abuse animals have 
been developed and mental health professionals are being trained in 
this area of treatment.

Modifying the Categories of the FBI's Crime Data Reporting Program
    The FBI's crime data reporting program is a nationwide effort that 
collects crime statistics from nearly 17,000 local and state law 
enforcement agencies. During 2000, the participating agencies 
represented 94 percent of the U.S. population. Reported crimes vary 
from criminal homicide in Part I to curfew and loitering under Part II. 
Law enforcement, criminologists, legislators, sociologists, municipal 
planners, the media, and others interested in criminal justice use the 
statistics for research and planning purposes. However, under the 
current system, there is no separate category for reporting crimes of 
animal cruelty, and thus no way to use those data, even though animal 
abuse often is an indicator of other types of criminal behavior, 
including family violence.
    Assigning the crime of animal cruelty to its own classification 
would have a number of advantages. Its inclusion in NIBRS would allow 
precise identification of ``. . . when and where crime takes place, 
what form it takes, and the characteristics of its victims and 
perpetrators.'' (National Incident-Based Reporting System, p. 2, U.S. 
Department of Justice, August 2000). Law enforcement agencies, 
researchers, policy planners, and others would be better able to 
understand the factors associated with animal abuse, track trends at 
the state and national levels, and determine the demographic 
characteristics associated with animal abuse--which is useful in 
developing more effective intervention and prevention strategies to 
interrupt the cycle of violence.
    Designating a separate category for animal cruelty crimes in the 
national indices initiative now being developed would add considerably 
more data analysis capabilities: ``. . . variables such as felony 
animal abuse arrests could be linked with a vast array of other 
statistics to develop useful demographic information.'' (Letter from 
Michael D. Kirkpatrick, FBI, Sept. 30, 2003). The expanded databases of 
the new system would enable law enforcement agencies to identify and 
track individuals with histories of violence.

Categorize Under ``Crime Against Society''
    Animal cruelty is most appropriately categorized as a ``crime 
against society.'' Like other crimes in this category (which include 
family offenses, as well as gambling, drugs, and pornography), animal 
cruelty offenses threaten the general order of society. Animal abusers 
have often committed violent crimes against persons and been arrested 
for property crimes, disorderly conduct, and substance abuse. Most 
significantly, animal abuse is highly correlated with child, spousal, 
and elder abuse; and juvenile animal cruelty is a leading indicator of 
the development of aggressive behavioral disorders, which are 
predictive of future violence. Although animals are often considered 
``property'' under some laws, classification as a ``crime against 
property'' is not appropriate because the nature of animal abuse is 
qualitatively different from property crimes. It involves neglect or 
violence toward a sentient being, often leading to serious injury or 
death; it frequently involves an intimate relationship, as in family 
violence; and it is associated with other crimes.

Proposed Report Language for the Senate Appropriations Subcommittee on 
        Commerce, Justice, State, the Judiciary and Related Agencies
    We respectfully request that the Subcommittee include the following 
language in the Commerce, Justice, State, Judiciary and Related 
Agencies Appropriations bill report:

    ``The Committee directs the FBI to provide the necessary resources 
to assign the crime of animal cruelty, defined as the violation of laws 
or ordinances that prohibit cruelty to animals, its own classification 
under the category `Crime Against Society' in the agency's current or 
any future crime reporting data collection system by adding this 
category to its software and other reporting mechanisms. The Committee 
expects the FBI to establish this classification as quickly as possible 
so that state and local law enforcement agencies will be able to plan 
for its inclusion as they upgrade to the National Incident-Based 
Reporting System, the upcoming national indices system, or any future 
system.
    ``This will enable law enforcement agencies and researchers to 
track crime rates, better understand the factors associated with animal 
abuse and the characteristics of perpetrators, and identify with 
precision when and where the crimes take place, thus facilitating more 
effective interventions. Eventually, the capabilities envisioned for 
the new National Indices Initiative now in development will allow 
animal cruelty to be linked to other crimes, such as domestic violence, 
child abuse, and other violence directed at humans.
    ``The Committee further directs the FBI to report to the Committee 
by March 2005 on the integration of this category into its crime data 
reporting program.''

                                 ______
                                 
 Prepared Statement of the Alliance for International Educational and 
                           Cultural Exchange

    As Chair of the Board of the Alliance for International Educational 
and Cultural Exchange, I appreciate the opportunity to submit testimony 
in support of an overall appropriation of $400 million for the 
educational and cultural exchange programs administered by the 
Department of State's Bureau of Educational and Cultural Affairs (ECA) 
in fiscal year 2005. This level of spending will allow robust funding 
for ECA's core exchange programs, restore funding to the former Soviet 
Union and Eastern Europe through the FSA/SEED programs, and provide 
funding for an Islamic Exchange Initiative.
    The Alliance is the leading policy voice of the U.S. exchange 
community, and has worked closely with the Subcommittee on exchange 
issues. We note with gratitude the Subcommittee's role in increasing 
exchange appropriations in recent years, and its consistent support for 
exchanges.
    The Alliance comprises 65 nongovernmental organizations, with 
nearly 8,000 staff and 1.25 million volunteers throughout the United 
States. Through its members, the Alliance supports the international 
interests of 3,300 American institutions of higher education.
    By engaging a very broad array of American individuals and 
institutions in the conduct of our foreign affairs, exchange programs 
build both enhanced understanding and a web of productive contacts 
between Americans and the rest of the world.
    Despite widespread support for exchanges in Congress, this account 
still lags well behind its historic levels in constant dollars due both 
to the deep cuts of the mid-nineties and to the significant reductions 
in fiscal year 2004 funding. Coupled with the increases in fixed 
program costs such as airfare and accommodation, reduced appropriations 
have resulted in significantly diminished participant levels in 
programs consistently cited by our embassies as one of their most 
effective means of advancing U.S. policy interests.
    The incorporation of funding for programs provided for under the 
Freedom Support Act (FSA) and Support for East European Democracy Act 
(SEED) into the ECA budget in the fiscal year 2004 budget cycle, at a 
substantially lower level than previously allocated, has resulted in a 
significant reduction in funding for those programs.
    As our experiences since September 11, 2001, demonstrate clearly, 
we need public diplomacy and exchanges more now than ever. We need to 
build trust and understanding for our people and our policy goals not 
just in the Muslim world--an effort that is of critical importance--but 
around the globe. To win the war on terrorism and to rebuild Iraq, we 
will need the help of our friends and allies in every region of the 
world. This is a time to intensify and expand our public diplomacy, and 
we believe there is strong bipartisan support in Congress to do exactly 
that.
    We therefore urge the Subcommittee to fund the Department of 
State's exchange budget at $400 million in fiscal year 2005. This 
amount would provide for targeted, meaningful growth in every region of 
the world in support of our most important foreign policy objectives.

Core exchange programs
    An appropriation of $400 million would allow for meaningful growth 
in the Department of State's traditional exchange programs, programs 
that remain at the core of our efforts to build mutual understanding 
and respect between the United States and critical nations around the 
world. These well-established programs--Fulbright and other academic 
programs, International Visitor, and citizen exchanges--continue to 
demonstrate their relevance and effectiveness as changing threats, 
challenges, and opportunities present themselves in a rapidly evolving 
world.
    Among State's academic exchange programs, the Fulbright Program 
continues to demonstrate its unique value in deepening mutual 
understanding between the United States and 140 partner governments. A 
record 5,700 U.S. students and young professionals applied for 
Fulbright grants in 2003, demonstrating the desire of U.S. citizens and 
communities to be internationally engaged.
    Fulbright exchange programs in Iraq and Afghanistan were revived in 
2003, bringing young leaders to study in U.S. graduate programs in 
fields critical to the development of those societies. Other program 
changes include: the cutting-edge research conducted by New Century 
Scholars, which provides deep focus on a single global problem by 
leading scholars from around the world; the Islamic Civilization 
Initiative that incorporates outreach activities upon the American 
student's return to the United States to increase knowledge of the 
Muslim world on the campus and in local communities; and a conflict 
resolution initiative for young leaders from the Middle East, South 
Asia, and the Great Lakes region of Africa.
    Other critical academic exchange programs include the Educational 
Partnerships Program, which fosters substantive, ongoing relationships 
between American universities and their counterparts in high priority 
countries; the Humphrey Fellowships Program, which provides powerful 
academic and professional training experiences for professionals in the 
developing world; Overseas Educational Advising, through which 
prospective foreign students receive reliable information about 
American higher education and professional assistance in the 
application process; the Gilman Fellowship Program, which enables 
American students with financial need to study abroad; and English 
teaching and U.S. Studies programs, designed to enhance understanding 
of American society and values.
    The International Visitor program continues to be ranked by many 
U.S. ambassadors as their most effective program tool. This results-
oriented program allows our embassies to address directly their highest 
priority objectives by bringing emerging foreign leaders to the United 
States for intensive, short-term visits with their professional 
counterparts. The program also exposes visitors to American society and 
values in homes and other informal settings. An increase in funding for 
the International Visitor program would allow the program to make an 
even greater impact on such key issues as regional security in 
Northeast Asia, counter-terrorism, international trade, and global 
health.
    Citizen exchanges continue to engage American citizens across the 
United States in productive international activities. In addition, 
these programs leverage their relatively modest federal dollars into 
significantly more funding through the participation of local 
communities, schools, businesses, and nongovernmental organizations. 
Increased funding for citizen exchanges would permit an expansion of 
these highly cost-effective activities, particularly in the critical 
area of capacity building in communities across the United States. To 
be globally competitive, American communities must be globally engaged, 
and this enhanced capacity will allow for more extensive connections 
and impact in support of U.S. interests in high priority countries 
around the world.

Exchanges with the countries of the former Soviet Union and Central 
        Europe
    As noted above, funding for exchange programs authorized by the FSA 
and SEED Acts was shifted to the CJS bill for the first time last year. 
The transfer has resulted in dramatic cuts for these programs, 
estimated to exceed 50 percent from previous levels.
    Exchanges under FSA and SEED provide opportunities to expose future 
leaders to American civil society and values, and foster personal and 
professional relationships between Americans and citizens of these 
developing regions. We must continue this engagement with future 
leaders of these important nations that are still emerging from decades 
of totalitarian leadership. The recent election of Georgian President 
Mikheil Saakashvili is a testament to the value of these programs. 
Saakashvili benefited from a Muskie/FSA Graduate Fellowship, earning an 
LL.M. degree from Columbia University in 1994. He also participated in 
a 1999 International Visitor exchange on ``Judicial Reform.'' Members 
of Saakashvili's cabinet are also alumni of U.S.-funded exchanges; for 
example, Irakli Rekhviashvili, a participant in the Eurasian 
Undergraduate Student Exchange Program, was recently appointed the 
Georgian Minister of Economy.
    While obstacles to exchange remain, interest in exchanges in the 
region continues to grow. In recent years, professional and collegiate-
level programs with these countries have attracted many more applicants 
than the programs can sustain. The Contemporary Issues Fellowship 
Program, targeting influential policymakers and mid-level 
professionals, receives nearly 1,300 applicants for 100 scholarships. 
The Future Leaders Exchange Program (FLEX) for high school students 
receives more than 50,000 applications for 1,300 slots.
    We hope the Subcommittee will agree that a reduction in these 
programs is unwise in a region of the world of such strategic 
importance to the United States. This is particularly true when one 
considers the effectiveness and impact of these exchange programs.
Islamic Exchange Initiative--Building Cultural Bridges
    While the need for increased funding is worldwide, increased 
exchanges with the Islamic world are particularly critical as we pursue 
the war on terrorism. To defeat terrorism, the United States will need 
more than the might and skill of our armed forces. To ultimately defeat 
terrorism, we must also engage the Muslim world in the realm of ideas, 
values, and beliefs.
    Changing minds--or merely opening them--is a long, painstaking 
process. There are no quick fixes. If we are to win the war on 
terrorism, there will be no avoiding the need to build bridges between 
the American people and the people of the Muslim world. We must begin 
this process now.
    In the Islamic world, we envision this initiative engaging the full 
range of programs and activities managed by ECA: Fulbright and Humphrey 
exchanges that will stimulate broader cultural understanding, joint 
research and teaching, and foster positive relationships with a new 
generation of leaders; the Partnerships for Learning Undergraduate 
Studies Program (PLUS), that allows undergraduates from the Islamic 
world to complete their B.A. degrees at U.S. universities; university 
affiliations targeted toward key fields such as mass media and economic 
development; International Visitor and other citizen exchange programs 
designed to bring emerging leaders into significant and direct contact 
with their professional counterparts and the daily substance of 
American life; youth and teacher exchanges and enhanced English 
teaching programs, all designed to bring larger numbers of young people 
a direct and accurate picture of our society, based on personal 
experience rather than vicious stereotyping.
    Increasing the State Department's exchanges with the Islamic world 
will give us the means to develop productive, positive relationships. 
This initiative will engage the American public--in our communities, 
schools, and universities--in an effort to project American values. We 
will find no better or more convincing representatives of our way of 
life.
    And the engagement of the American public will leverage significant 
additional resources to support this effort.
    We commend the Subcommittee for funds made available in the fiscal 
year 2002 supplemental for Islamic exchanges. The $10 million 
appropriated by this Subcommittee has been put to good use by the 
Department of State in key programs such as Fulbright, International 
Visitors, and English teaching.
    Strengthening exchanges with the Islamic world has strong 
bipartisan support, evidenced by legislation sponsored in the 107th 
Congress by Senators Edward Kennedy and Richard Lugar, and 
Representatives Henry Hyde and Tom Lantos. These bills led to $20 
million in appropriations funding, some of which was used to fund what 
would become the Youth Exchange and Study Program (YES). YES has 
brought approximately 138 Muslim high school students to the United 
States for the 2003-2004 school year, and will bring an additional 365 
students next year. To build on the YES program's very successful 
beginning, the program requires a sustained funding commitment.

Conclusion
    We recognize that a meaningful and effective Islamic exchange 
initiative, restored funding for the FSA and SEED programs, and 
sufficient funding for robust traditional exchange programs will 
require a significant increase in the State Department exchanges 
budget. We believe that a $400 million funding level is necessary and 
appropriate given the importance of the tasks at hand.
    The U.S. exchange community stands ready to assist you in these 
efforts, and is grateful for your support.

                                 ______
                                 
           Prepared Statement of Sister Cities International

    On behalf of the 700 U.S. cities partnered with more than 1,700 
international cities in 122 countries, I want to thank the subcommittee 
for its continued support of international educational, cultural and 
development exchanges that continue to impact U.S. foreign policy goals 
throughout the world. Sister Cities International is a nonprofit, 
citizen diplomacy network that creates and strengthens partnerships 
between U.S. and international communities at the local level. Sister 
Cities International works to promote sustainable development, youth 
involvement, cultural understanding, and humanitarian assistance 
through citizen diplomacy. Citizen diplomacy is a peaceful way to 
promote American foreign policy by establishing links between people 
within the international community. Sister Cities International works 
to create citizen-to-citizen connections by promoting peace through 
mutual respect, understanding, and cooperation at the local, county and 
state level. I urge you to promote the ideals of citizen diplomacy by 
carefully considering the critical legislation currently before the 
subcommittee.
    In the two years since September 11, 2001, the need to eliminate 
global terror and institute avenues of intercultural understanding has 
grown. Today, citizen diplomacy programs hold the highest incentive for 
governments who are interested in establishing goodwill between states. 
International education and exchange programs are critical elements in 
the conduct of U.S. foreign policy and advance national security. The 
United States must make deliberate efforts to forge sustainable, 
mutually cooperative relationships between the United States and the 
Islamic world in order to rebuild global security. Sister Cities 
International is well positioned to play an integral role by supporting 
long-term community partnerships through reciprocal exchange programs.
    We believe that the Department of State, through the support and 
encouragement of the subcommittee and Congress, should be strategically 
investing in two key areas of international exchange: support for long-
term, ongoing programs such as Fulbright and the International Visitors 
Program and building the capacity of public-private partnerships like 
Sister Cities International. An investment in the capacity of 
organizations like Sister Cities International makes good fiscal sense, 
given the fact that Sister Cities International leverages significant 
non-federal, community-based resources in support of international 
exchange with the small amount of federal dollars we receive every 
year. Nevertheless, from 1995-2001, core funding from the Department of 
State's Bureau of Educational and Cultural Affairs (ECA) declined 
dramatically, reducing our efforts to reach out to many regions of the 
world. Without additional core resources, Sister Cities International 
will find it increasingly difficult to expand the number of 
partnerships between U.S. and international communities and promote 
active citizen involvement in international affairs.
    Annually, 6,750 to 13,300 citizen exchanges occur between sister 
city programs. With a federal investment of $370,440, each exchange 
costs the U.S. government approximately $25 to $50. Moving into our 
48th year as a leader in the citizen diplomacy arena, Sister Cities 
International pledged in 2002 to double the number of partnerships in 
underserved regions of the world over the next five years. New 
partnerships will be established in the Middle East, Africa, Eurasia, 
Latin America, and the Caribbean. However, this new endeavor can only 
be accomplished with increased core grant support. Therefore, Sister 
Cities International is working with key Congressional supporters on 
our first initiative to increase our core grant by $164,000 to $534,000 
for fiscal year 2005.
    An increase in Sister Cities International's core grant of $164,000 
will specifically lead to the following results:
  --Expansion the Sister Cities International network by 100 
        partnerships a year over three years.
  --An increase in the number of exchanges conducted under the Sister 
        Cities International umbrella by 3,000 over the three-year 
        period at a cost to the federal government of $55 per exchange.
  --Expansion of the network in underserved regions of the world, 
        focusing on Islamic countries, Africa, Central and Eastern 
        Europe, and Eurasia.
  --More capacity for local sister city partnerships to undertake 
        exchange programs focused on economic development, youth and 
        education, women in leadership, sustainable development, and 
        humanitarian assistance.
    The second initiative seeks to alleviate the tension between the 
United States and the Islamic World is the ``U.S.-Islamic Sister City 
Partnership Program.'' Currently, there are 62 United States-Islamic 
partnerships and with Congress' support, we hope to expand the number 
of United States-Islamic partnerships by 38 to 100 over the next two 
years. Through ``Islamic Friendship Grants,'' new and existing 
partnerships would receive $25,000 each to develop humanitarian 
assistance, international exchange, and community and economic 
development programs in the region. Each ``Islamic Friendship Grant'' 
will be leveraged at least one-to-one, bringing in an additional 
$25,000 in non-federal resources to each partnership, for an additional 
investment of $5 million. For this particular initiative, we are asking 
for $2.75 million through the expansion of the Islamic Exchange 
Initiative funded by Congress in the fiscal year 2002 Supplemental 
Appropriations.
    I want to thank the members of the subcommittee for their 
leadership and consideration of this important matter. Given the 
growing global challenges in which U.S. diplomacy is called upon to 
protect American national interests and security, now, more than ever, 
it is important to fully fund the International Affairs budget. 
Although the 150 account only reflects approximately one percent of the 
total federal budget, notwithstanding increases for the Millennium 
Challenge Account (MCA), HIV/AIDS, and illicit drugs, 58 percent of 
core mainline programs receive flat or decreased funding. Support for 
the 150 Account is crucial for improving America's image abroad and 
protecting our interests at home. I ask you to support the Presidential 
requests for funding for the 150 Account and our requests to increase 
funding for Sister Cities International.
    Sister city and other international exchange programs are time-
tested and uniquely cost effective. They help ensure a prosperous 
future for the United States and a more democratic world. Americans who 
participate in citizen diplomacy programs experience a profound change 
in the way they think about the world, leading to greater 
understanding, mutual respect and cooperation around the complex issues 
affecting our global community. This is the vision that drove President 
Dwight D. Eisenhower to establish our organization in 1956 and it 
remains the vision today by which we hope to promote peace--one 
individual, one community at a time.

                                 ______
                                 
             Prepared Statement of Florida State University

    I am writing to tell you about two projects Florida State 
University is pursing through the Department of Justice. The first is a 
Juvenile Justice Education Program Model Study. The request is for $2.5 
million through the Juvenile Justice Programs Office, Part C. The 
second deals with Extreme Security for the Critical Infrastructure. The 
funding level is $2.5 million and is being requested through the Byrne 
Discretionary Grant Program.
    Mr. Chairman, I would like to thank you and the Members of the 
Subcommittee for this opportunity to present testimony before this 
Committee. I would like to take a moment to briefly acquaint you with 
Florida State University.
    Located in Tallahassee, Florida's capitol, FSU is a comprehensive 
Research I university with a rapidly growing research base. The 
University serves as a center for advanced graduate and professional 
studies, exemplary research, and top quality undergraduate programs. 
Faculty members at FSU maintain a strong commitment to quality in 
teaching, to performance of research and creative activities and have a 
strong commitment to public service. Among the current or former 
faculty are numerous recipients of national and international honors 
including Nobel laureates, Pulitzer Prize winners, and several members 
of the National Academy of Sciences. Our scientists and engineers do 
excellent research, have strong interdisciplinary interests, and often 
work closely with industrial partners in the commercialization of the 
results of their research. Florida State University had over $162 
million this past year in research awards.
    FSU recently initiated a new medical school, the first in the 
United States in over two decades. Our emphasis is on training students 
to become primary care physicians, with a particular focus on geriatric 
medicine--consistent with the demographics of our state.
    Florida State University attracts students from every county in 
Florida, every state in the nation, and more than 100 foreign 
countries. The University is committed to high admission standards that 
ensure quality in its student body, which currently includes some 345 
National Merit and National Achievement Scholars, as well as students 
with superior creative talent. We consistently rank in the top 25 among 
U.S. colleges and universities in attracting National Merit Scholars to 
our campus.
    At Florida State University, we are very proud of our successes as 
well as our emerging reputation as one of the nation's top public 
research universities.
    Mr. Chairman, let me tell you about a two projects we are pursuing 
this year through the Department of Justice. The first project is a 
Juvenile Justice Education Program Model Study.
    In 1996, the U.S. Department of Justice reported that the cost of 
criminal victimization in this country is $450 billion a year. Given 
that delinquent youth constitute a major part of the crime problem, 
such promising methods of crime reduction as providing delinquent youth 
high quality education that can serve as a positive turning point in 
their delinquent to adult crime life course should be vigorously 
pursued. This is the intent of the 2001 No Child Left Behind Act which 
mandates the receipt of ``best education'' services for the country's 
incarcerated delinquent youth to ensure their successful community 
reintegration following release from juvenile justice institutions.
    The USDOE as well as the U.S. Department of Justice's Office of 
Juvenile Justice and Delinquency Prevention and the American 
Correctional Association have recognized Florida's system of juvenile 
justice education as an exemplary state system. This recognition 
reflects Florida's commitment to accountability and its implementation 
of an approach to the identification and validation of best practices 
in juvenile justice education. In 1998, to fulfill this commitment, the 
Florida Department of Education awarded funding for the Juvenile 
Justice Educational Enhancement Program (JJEEP) to FSU's School of 
Criminology and Criminal Justice. During the subsequent years of 
JJEEP's operations, Florida's system of best practices and 
accountability have become recognized as a model for providing juvenile 
justice youth quality and accountable education services that embodies 
the major components of NCLB.
    During JJEEP's early years of implementing both best practices and 
an accountability system for Florida's juvenile justice education 
system, a number of implementation impediments were experienced and 
ultimately overcome. JJEEP's experiences in overcoming these 
implementation impediments should not be repeated but rather used to 
benefit other states as they attempt to successfully implement NCLB. 
Most importantly, JJEEP has conclusively documented that the receipt of 
best education practices as envisioned in NCLB well-served numerous 
Florida juvenile justice youth as they exited juvenile justice 
institutions and reentered their communities. With the successful 
nationwide implementation of NCLB, every juvenile justice student, 
regardless of state residence, will be able to receive accountable 
juvenile justice education best practices that increase the likelihood 
of their successful community reintegration and thereby reduce the 
incidence of crime, criminal victimization and associated costs.
    This project's methodology will be centered upon the development 
and maintenance of effective working partnerships in each state between 
those responsible for juvenile justice education, the national project 
staff, and USDOE. These partnerships will involve collaboration 
throughout all phases of the project to ensure consensus and 
appropriate implementation of the NCLB requirements. Following the 
initial assessment of each state's juvenile justice education system, 
the findings will be compared to Florida's system and experiences and 
the requirements of NCLB to develop each state's NCLB implementation 
plan. Moreover, and throughout the process, ongoing training, technical 
assistance, and evaluation will be provided to ensure successful 
implementation of the NCLB requirements in each state's juvenile 
justice education systems.
    We believe this is an outstanding program and will reap very 
positive outcomes for Florida and the Nation.
    The second project we are pursuing deals with Cybersecurity. The 
Cybersecurity Research Institute of Florida (CRIF) at Florida State 
University is seeking funding to support the implementation of extreme 
security through the development of a new model of a cybersecurity 
management infrastructure. Extreme security refers to protection 
against a previously unanticipated attack on cyberinfrastructure. The 
work will focus on the protection of the cybersecurity component of 
this critical infrastructure. The critical infrastructure can be 
identified as elements of the national/international infrastructure 
such as the national power or water system, the international 
telecommunication system, and the international banking system.
    CRIF is in a unique position to research and develop a 
cybersecurity protection model and management infrastructure through 
its links with: the Florida Cybersecurity Institute (FCI) which was 
recently established as a cooperative effort of Florida State 
University, the Florida Department of Law Enforcement, and the National 
White Collar Crime Center to conduct research and education activities 
in the areas of cybercrime; and the Security and Assurance in 
Information Technology Laboratory (SAIT) at Florida State University 
which was established in 1999 to promote research, education, and 
outreach.
    The Florida State University (FSU) has been designated as a Center 
of Academic Excellence in Information Assurance Education by the 
National Security Agency. Some of the world's top researchers in 
cryptography, information security, and infrastructure protection work 
in the Computer Science Department at FSU. Coupled with the 
relationships and contacts of the FCI founding partners in academia, 
government, and industry, CRIF is particularly capable of developing 
and implementing a comprehensive model for extreme cybersecurity.
    Our cybersecurity management model addresses such issues as cost of 
the system, the implementability of the model in the critical 
infrastructure, and definition of new risk models that focus on the 
types of extreme attacks previously discussed. Our goal is the 
survivability of the cybersecurity critical infrastructure under 
extreme conditions.
    CRIF will conduct research related to the development of the 
cybersecurity management model, and then implement it in one of the 
critical infrastructure environments--the banking system in the state 
of Florida. The banking system in Florida is a particularly important 
system as Florida is one of the states with the largest number of small 
businesses. These small businesses are notorious for not having 
technical assistance that larger companies use for cyberinfrastructure 
protection. If the banking system is disrupted for these small 
businesses, many would fail, having an incredibly negative effect on 
lives, livelihoods, and the State's short- and longer-term economy. 
This work will provide proof of concept of our approach to assist in 
protecting the cyberinfrastructure of the banking industry in Florida. 
We will develop a range of extreme security levels, based on costs and 
capabilities that can be incrementally implemented by the various 
critical infrastructure groups. Lessons learned could be transferred 
nationally.
    Mr. Chairman, these are just of couple of the many exciting 
activities going on at Florida State University that will make 
important contributions to solving some key concerns our nation faces 
today. Your support would be appreciated, and, again, thank you for an 
opportunity to present these views for your consideration.

                                 ______
                                 
 Prepared Statement of the California Industry and Government Central 
                California Ozone Study (CCOS) Coalition

    Mr. Chairman and Members of the Subcommittee: On behalf of the 
California Industry and Government Central California Ozone Study 
(CCOS) Coalition, we are pleased to submit this statement for the 
record in support of our fiscal year 2005 funding request of $500,000 
from the National Oceanic and Atmospheric Administration (NOAA) for 
CCOS as part of a Federal match for the $9.4 million already 
contributed by California State and local agencies and the private 
sector. We greatly appreciate your past support for this study 
($500,000 in fiscal year 2001, $250,000 in fiscal year 2002, and 
$250,000 in fiscal year 2003) as it is necessary in order for the State 
of California to address the very significant challenges it faces as it 
seeks to comply with air pollution requirements of the federal Clean 
Air Act.
    Most of central California does not attain federal health-based 
standards for ozone and particulate matter. The San Joaquin Valley has 
recently requested redesignation to extreme and is committed to 
updating their 1-hour ozone State Implementation Plan (SIP) in 2004, 
based on new technical data. In addition, the San Joaquin Valley, 
Sacramento Valley, and San Francisco Bay Area exceed the new federal 8-
hour ozone standard. SIPs for the 8-hour standard will be due in the 
2007 timeframe--and must include an evaluation of the impact of 
transported air pollution on downwind areas such as the Mountain 
Counties. Photochemical air quality modeling will be necessary to 
prepare SIPs that are approvable by the U.S. Environmental Protection 
Agency.
    The Central California Ozone Study (CCOS) is designed to enable 
central California to meet Clean Air Act requirements for ozone SIPs as 
well as advance fundamental science for use nationwide. The CCOS field 
measurement program was conducted during the summer of 2000 in 
conjunction with the California Regional PM10/PM2.5 Air Quality Study 
(CRPAQS), a major study of the origin, nature, and extent of excessive 
levels of fine particles in central California. This enabled leveraging 
of the efforts of the particulate matter study in that some equipment 
and personnel served dual functions to reduce the net cost. From a 
technical standpoint, carrying out both studies concurrently was a 
unique opportunity to address the integration of particulate matter and 
ozone control efforts. CCOS was also cost-effective since it builds on 
other successful efforts including the 1990 San Joaquin Valley Ozone 
Study.
    CCOS includes an ozone field study, data analysis, modeling 
performance evaluations, and a retrospective look at previous SIP 
modeling. The CCOS study area extends over central and most of northern 
California. The goal of the CCOS is to better understand the nature of 
the ozone problem across the region, providing a strong scientific 
foundation for preparing the next round of State and Federal attainment 
plans. The study includes five main components: Designing the field 
study; conducting an intensive field monitoring study from June 1 to 
September 30, 2000; developing an emission inventory to support 
modeling; developing and evaluating a photochemical model for the 
region; and evaluating emission control strategies for upcoming ozone 
attainment plans.
    The CCOS is directed by Policy and Technical Committees consisting 
of representatives from Federal, State, and local governments, as well 
as private industry. These committees, which managed the San Joaquin 
Valley Ozone Study and are currently managing the California Regional 
PM10/PM2.5 Air Quality Study, are landmark examples of collaborative 
environmental management. The proven methods and established teamwork 
provide a solid foundation for CCOS. The sponsors of CCOS, representing 
state, local government, and industry, have contributed approximately 
$9.4 million for the field study. The federal government has 
contributed $4,874,000 to support some data analysis and modeling. In 
addition, CCOS sponsors are providing $2 million of in-kind support. 
The Policy Committee is seeking federal co-funding of $2.5 million to 
complete the data analysis and modeling portions of the study and for a 
future deposition study. California is an ideal natural laboratory for 
studies that address these issues, given the scale and diversity of the 
various ground surfaces in the region (crops, woodlands, forests, urban 
and suburban areas).
    For fiscal year 2005, our Coalition is seeking funding of $500,000 
from the National Oceanic and Atmospheric Administration (NOAA). This 
request will be used to continue NOAA's involvement in developing 
meteorological simulations for CCOS episodes, which are also being used 
as inputs to SIP-related photochemical modeling. NOAA has a direct 
stake in the CCOS because the extensive meteorological data collected 
as part of the field study can be used by NOAA to improve its 
meteorological forecasting abilities, particularly by providing NOAA 
with a new database for use in the evaluation of U.S. western boundary 
conditions for weather forecasting models. As you know, NOAA is also at 
the scientific forefront of the development of meteorological models 
including the Weather Research and Forecasting (WRF) model that is 
viewed as a future replacement for the current Mesoscale Meteorology 
Model, Version 5 (MM5). Thus, NOAA's involvement in the CCOS would 
facilitate the use of CCOS measurements in the development of WRF. In 
addition, the CCOS includes atmospheric airflow research, and data were 
collected on sea breeze circulations, nocturnal jets and eddies, 
airflow bifurcation, convergence and divergence zones, up-slope and 
down-slope flows, and up-valley and down-valley airflows. This research 
provides fundamental data needed to understand airflows over complex 
terrain, and has national applicability.
    Thank you very much for your consideration of our request.

                      CURRENT CCOS STUDY SPONSORS

Private Sector
    Western States Petroleum Association
    Pacific Gas and Electric Company
    Electric Power Research Institute
    NISEI Farmers League and Agriculture
    Independent Oil Producers' Agency
    California Cotton Ginners and Growers Associations
Local Government
    San Joaquin Valley Unified Air Pollution Control District (on 
behalf of local cities and counties)
    Bay Area Air Quality Management District
    Sacramento Metro Air Quality Management District
    San Luis Obispo County Air Pollution Control District
    Mendocino County Air Pollution Control District
State Government
    California Air Resources Board
    California Energy Commission
Federal Government
    National Oceanic and Atmospheric Administration
    Environmental Protection Agency
    Department of Agriculture
    Department of Transportation

                                 ______
                                 
    Prepared Statement of the National American Indian Court Judges 
                              Association

    On behalf of the National American Indian Court Judges Association 
(NAICJA), I am pleased to submit this testimony on the proposed fiscal 
year 2005 budget for the Justice Department's Indian Country Law 
Enforcement Initiative and the Indian Tribal Justice Technical and 
Legal Assistance Act of 2000 (Public Law 106-559). We request $73.4 
million for Tribal Courts including $15 million for Indian Country Law 
Enforcement Initiative and $58.4 million in funding for the Indian 
Tribal Justice Technical and Legal Assistance Act of 2000 (Public Law 
106-559). In addition, we request full funding for the following areas 
or, at minimum, proportional increases in keeping with economic growth. 
Specifically, this includes:
  --Increase by $4.74 million Administration proposed cuts in Law 
        Enforcement under the COPS program in DOJ.
  --Increase by $7.59 million Administration proposed cuts in Tribal 
        Courts under DOJ.
  --Increase by $2 million Administration proposed cuts in BIA for 
        ``contract support costs'' to $135,314,000.
  --Increase by $2.46 million Administration proposed cuts in DOJ for 
        Indian Country Prison grants.
    The National American Indian Court Judges Association (NAICJA), 
www.naicja.com, was incorporated in 1969. NAICJA is the largest 
organization representing Tribal Judges and Tribal Courts in the United 
States. The mission of NAICJA is to strengthen and enhance all Tribal 
justice systems through improvement and development of Tribal Courts 
and Tribal Court Judges.

Justice Department Funding: Indian Country Law Enforcement Initiative 
        and Indian Tribal Justice Technical and Legal Assistance Act of 
        2000 (Public Law 106-559)
    $15 million for Indian Country Law Enforcement Initiative.--NAICJA 
strongly supports full funding for the Indian Country Law Enforcement 
Initiative. NAICJA would like to specifically emphasize our support for 
the funding of the Indian Tribal Court Fund at a level of at least $15 
million (Please note that this fund was formally authorized by the 
106th Congress--see Public Law 106-559, section 201). Through the 
increased funding for law enforcement under the Indian Country Law 
Enforcement Initiative, more police officers have been added throughout 
Indian Country. Without substantial additional funding, tribal courts 
will be unable to handle the increased caseloads generated by this 
increased law enforcement.
    $58.4 million in funding for the Indian Tribal Justice Technical 
and Legal Assistance Act of 2000 (Public Law 106-559).--When the 106th 
Congress enacted Public Law 106-559 in December 2000, it recognized the 
vital legal and technical assistance needs of tribal justice systems--
finding in part that ``there is both inadequate funding and inadequate 
coordinating mechanism to meet the technical and legal assistance needs 
of tribal justice systems and this lack of adequate technical and legal 
assistance funding impairs their operation'' and promised three grant 
programs to address these Congressional recognized needs. It is vital 
that Congress provide adequate funding for Public Law 106-559 (see the 
Act itself for more specific information). NAICJA strongly supports 
funding of Public Law 106-559 at the level of at least $58.4 million. 
Failure to provide this funding level would make the Indian Tribal 
Justice Technical and Legal Assistance Act of 2000 (Public Law 106-559) 
a hollow recognition of tribal justice systems needs without providing 
needed resources.
    We further express our concern with the Administration's fiscal 
year 2005 Budget proposals regarding Tribal Courts. Decreases in these 
areas will severely hinder effective law enforcement and Tribal Courts 
in Indian Country.
    We request full funding for the following areas or, at minimum, 
proportional increases in keeping with economic growth. Specifically, 
this includes: Cuts in Law Enforcement under the COPS program by $4.74 
million in DOJ; cuts in Tribal Courts under DOJ by $7.59 million; cuts 
in BIA for ``contract support costs'' by $2 million down to 
$133,314,000; and cuts in DOJ for Indian Country Prison grants by $2.46 
million.

                      IMPORTANCE OF TRIBAL COURTS

    Tribal justice systems are the primary and most appropriate 
institutions for maintaining order in Tribal communities.

    ``Tribal courts constitute the frontline tribal institutions that 
most often confront issues of self-determination and sovereignty, while 
at the same time they are charged with providing reliable and equitable 
adjudication in the many and increasingly diverse matters that come 
before them. In addition, they constitute a key tribal entity for 
advancing and protecting the rights of self-government. . . . Tribal 
courts are of growing significance in Indian Country.'' (Frank 
Pommersheim, Braid of Feathers: American Indian Law and Contemporary 
Tribal Law 57 (1995)).

    Tribal Courts must deal with the very same issues state and Federal 
courts confront in the criminal context, including, child sexual abuse, 
alcohol and substance abuse, gang violence and violence against women. 
Tribal Courts, however, must address these complex issues with far 
fewer financial resources than their Federal and state counterparts. 
Judicial training that addresses the existing problems in Indian 
Country, while also being culturally sensitive, is essential for Tribal 
Courts to be effective in deterring and solving crime in Indian 
communities.

              INADEQUATE FUNDING OF TRIBAL JUSTICE SYSTEMS

    There is no question that Tribal justice systems are, and 
historically have been, underfunded. The 1991 United States Civil 
Rights Commission found that ``the failure of the United States 
Government to provide proper funding for the operation of tribal 
judicial systems . . . has continued for more than 20 years.'' The 
Indian Civil Rights Act: A Report of the United States Civil Rights 
Commission, June 1991, p. 71. The Commission also noted that 
``[f]unding for tribal judicial systems may be further hampered in some 
instances by the pressures of competing priorities within a tribe.'' 
Moreover, they opined that ``If the United States Government is to live 
up to its trust obligations, it must assist tribal governments in their 
development . . .'' More than ten years ago, the Commission ``strongly 
support[ed] the pending and proposed congressional initiatives to 
authorize funding of tribal courts in an amount equal to that of an 
equivalent State court'' and was ``hopeful that this increased funding 
[would] allow for much needed increases in salaries for judges, the 
retention of law clerks for tribal judges, the funding of public 
defenders/defense counsel, and increased access to legal authorities.''
    With the passage of the Indian Tribal Justice Act, 25 U.S.C.  3601 
et seq. (the ``Act''), Congress found that ``[T]ribal justice systems 
are an essential part of tribal governments and serve as important 
forums for ensuring public health, safety and the political integrity 
of tribal governments.'' 25 U.S.C.  3601(5). Congress found that 
``tribal justice systems are inadequately funded, and the lack of 
adequate funding impairs their operation.'' 25 U.S.C.  3601(8). In 
order to remedy this lack of funding, the Act authorized appropriation 
of base funding support for tribal justice systems in the amount of 
$50,000,000 for each of the fiscal years 1994 through 2000. 25 U.S.C.  
3621(b). An additional $500,000 for each of the same fiscal years was 
authorized to be appropriated for the administration of Tribal Judicial 
Conferences for the ``development, enhancement and continuing operation 
of tribal justice systems . . .'' 25 U.S.C.  3614.
    Nine years after the Act was enacted into law, and even after 
reauthorization, no funding has been appropriated. Only minimal funds, 
at best, have been requested. Yet, even these minimal requests were 
deleted prior to passage. Even more appalling is the fact that BIA 
funding for Tribal Courts has actually substantially decreased 
following the enactment of the Indian Tribal Justice Act in 1993.

           BIA-DOJ INDIAN COUNTRY LAW ENFORCEMENT INITIATIVE

    Full funding is requested for the Joint BIA-DOJ Law Enforcement 
Initiative proposal to improve law enforcement in Indian Country. The 
Final Report of the Executive Committee for Indian Country Law 
Enforcement Improvements documents the ``stark contrast between public 
safety in Indian Country and the rest of the United States.'' (Final 
Report, p. 4.) ``While law enforcement resources have been increased 
and deployed throughout the United States, BIA resources actually have 
been reduced in Indian Country during the past few years.'' It is 
axiomatic that ``as a consequence of improvements to law enforcement 
services, a corresponding increase in funds is needed for judicial 
services, especially tribal courts.'' (Final Report, p. 8).
    The Initiative includes funding to continue the Department of 
Justice Indian Tribal Court Program. We urge the Committee to support 
full funding of the Tribal Court Program to assist in the development, 
enhancement and continued operation of tribal judicial systems. While 
funding has fallen far short of the $58 million in annual funding 
promised by the Indian Tribal Justice Act, the Initiative will fail 
without it. Without well-staffed, competent Tribal judiciaries to 
handle the influx of the new criminal prosecutions flowing from the Law 
Enforcement Initiative, the goal of providing service to 1.4 million 
Native Americans who live on or near Indian lands the same ``protection 
of their basic rights, a sense of justice, and freedom from fear'' 
enjoyed by Americans at large, will not be attained. (Final Report, p. 
4).

                               CONCLUSION

    Tribal justice systems are the primary and most appropriate 
institutions for maintaining order in tribal communities. They are key 
to Tribal economic development and self-sufficiency. Any serious 
attempt to fulfill the federal government's trust responsibility to 
Indian nations, must include increased funding and enhancement of 
Tribal justice systems.
    We welcome the opportunity to comment on the Justice Department's 
Budget Request for the fiscal year 2004 funding of the Indian Country 
Law Enforcement Initiative and the Indian Tribal Justice Technical and 
Legal Assistance Act of 2000 (Public Law 106-559).
    Please contact me at (715) 478-7255, or NAICJA Executive Director 
Chuck Robertson, at (605) 342-4804 or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2749464e444d46675552544f4a4855420944484a">[email&#160;protected]</a> with 
questions or comments. Thank you.

                                 ______
                                 
      Prepared Statement of the American Sportfishing Association

    The American Sportfishing Association (ASA) recommends the 
following as the Subcommittee considers appropriations for the National 
Marine Fisheries Service (NMFS) for fiscal year 2005. The American 
Sportfishing Association is a non-profit trade association whose 600 
members include fishing tackle manufacturers, sport fishing retailers, 
boat builders, state fish and wildlife agencies, and the outdoor media. 
The ASA makes these recommendations on the basis of briefings with 
agency staff and from years of experience with fisheries management in 
this Nation. It is important to note that sportfishing provides $116 
billion in economic output to the economy of the United States each 
year. Sportfishing in marine waters alone provides a $31 billion impact 
each year to coastal states.

   NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION--NATIONAL MARINE 
                           FISHERIES SERVICE

    An important but often underrepresented NOAA constituency is the 
Nation's 34 million sportfishing anglers, who collectively provide 
billions of dollars in economic impact each year to the U.S. economy. 
The importance of adequately including this group and their activities 
in management decisions cannot be overstated.

Recreational Fisheries
    With over nine million participants and 91 million fishing days, 
saltwater recreational fishing is the fastest growing segment of 
sportfishing in the United States. NOAA-Fisheries has a responsibility 
to recreational anglers. Sportfishing in marine waters alone provides 
$8.1 billion in salaries and wages to nearly 300,000 wage earners in 
coastal areas. Good socio-economic information is critical for 
effective marine resources management efforts, and the ASA applauds the 
Administration's requested increase of $1,200,000 (for a total of $5.2 
million) for additional economic and social science research, data 
collection and analysis. But, the ASA asks Congress to require NOAA-
Fisheries to provide adequate data for sportfishing in marine waters 
and that an additional $1.7 million be provided for economic and social 
science research and data collection.

Stock Assessment and Monitoring
    Our nation's valuable marine fish resources are under intense 
pressure from coastal population growth, increasing fishing effort and 
accompanying declines in habitat quality. These pressures demand well-
documented information on marine fish stocks. NOAA-Fisheries has not 
fully demonstrated an ongoing and comprehensive commitment to 
modernization and improvement of fisheries stock assessment and 
management of marine systems. It will take a sustained commitment on 
the part of the Administration, Congress and partner agencies to ensure 
that these initiatives are in place, sustained and effective over the 
long-term.
    The ASA recognizes and supports the fiscal year 2005 President's 
budget request to increase funds for fisheries stock assessments, 
cooperative research, and management by $4 million to a total of $18.9 
million, but the NOAA-Fisheries stock assessment program needs to build 
to the $100 million level over the next five years if it is to be 
effective in providing data for proper management of marine stocks. The 
ASA recommends an additional $10 million to begin building this program 
to the necessary level.
    NOAA-Fisheries has developed successful joint programs in 
statistics, including the RecFIN, and ComFIN programs and, most 
recently, the Atlantic Coastal Cooperative Statistics Program. The ASA 
recommends that Congress fund GulFIN at $4.5 million and RecFIN at $3.9 
million, and urges NOAA-Fisheries to use the RecFIN funding for 
cooperative data collection for recreational fisheries consistent with 
statutory directives. The ASA is pleased with the President's request 
of $3.0 million for PacFIN, the proposed $6.7 million for the Alaska 
groundfish monitoring effort, and the recommended funding levels for 
AKFIN at $3.2 million.
    The ASA strongly urges Congress to address the statistics gaps on 
the Atlantic Coast by supporting the Atlantic Coastal Cooperative 
Statistics Program (ACCSP.) NOAA-Fisheries and the Atlantic states 
share a commitment through and Memorandum of Understanding to proceed 
with this program. The ASA urges Congress to appropriate the funds 
necessary for success by adding a $5 million appropriation in fiscal 
year 2005 for ``Fish Statistics--Atlantic States Marine Fisheries 
Commission'' as the ACCSP is fully prepared to utilize this amount 
immediately as stated in their planning document.
    Cooperative research programs, including the SEAMAP and MARFIN 
programs, support fishery-independent research on high priority 
species. MARFIN continues to provide funds for Congressionally mandated 
shrimp bycatch studies. SEAMAP is building a long-term fishery-
independent database needed for managing heavily exploited species and 
for identifying and protecting critical habitat. The ASA is concerned 
with the decline in funding for these critical information-gathering 
programs; therefore, the ASA recommends that the MARFIN competitive 
grant program be funded at $6.0 million (with $4 million for the 
Southeast and $2 million for the Northeast) and SEAMAP at $6.0 million.

Habitat Loss
    The Administration has proposed the elimination of several habitat-
related programs including important work being carried out on the 
Charleston Bump. The Charleston Bump is an important nursery habitat 
for Atlantic Highly Migratory Fish species (HMS), and the ASA supports 
continuation of this program at fiscal year 2004 levels.
    The ASA supports the fiscal year 2005 request of $13.2 million for 
Fisheries Habitat Restoration. This program provides funding to 
foundations that awards grants to restore fish habitat. Specifically, 
the ASA is pleased with the $1.5 million increase for the Community-
based Restoration Program (CRP) that has funded over 800 vitally 
important restoration projects that entail volunteers and educational 
opportunities to promote stewardship and public involvement. The ASA 
recommends an additional $2 million for CRP grants that are regularly 
matched by a 3-5 ratio and completed by many groups including regional 
or national partners, non-profit organizations, communities, and 
industry.

Interagency Efforts
    The ASA strongly recommends that Congress appropriate $10.0 million 
for the Atlantic Coastal Fisheries Cooperative Management Act. It 
provides the Atlantic States Marine Fisheries Commission with the 
financial resources to carry out their Congressional mandates and the 
program continues to accomplish goals, such as the continuing successes 
in striped bass and weakfish management.
    The ASA urges Congress to appropriate adequate funding for all 
cooperative programs with state agencies, including ESA Section 6 
cooperative programs and to implement restoration programs under the 
authority granted in the Endangered Species Act. These agreements would 
provide funding on a matching basis to accomplish conservation 
activities and to protect candidate species at risk of extinction. It 
is essential to protect the species important to recreational anglers 
and to sustain populations through sound management. The ASA recommends 
an additional $4 million be included in the fiscal year 2005 
appropriation to provide funding for cooperative agreements with states 
to enhance the states' roles under the Endangered Species Act.
    Addressing the significant shortfalls in financial assistance to 
accomplish mandated and timely fisheries management needs is critical 
to allow for implementation of the Magnuson-Stevens Fisheries 
Conservation and Management Act. The ASA supports the additional 
$800,000 in funding for NOAA-Fisheries Regional Fishery Management 
Councils that will allow the Councils to provide a more timely response 
to regional problems as fishing pressures continue to grow in many 
areas.
    Reliable fishery statistics provide the foundation upon which all 
fishery management decisions are based. State participation in the 
development and implementation of fishery statistics programs is 
critical to ensure the validity, comparability, and usefulness of data. 
The States and NOAA-Fisheries are each authorized to collect and 
interpret statistics for marine fisheries. Therefore, it is essential 
that States and the Interstate Marine Fisheries Commissions participate 
in cooperative statistics programs.

Other NOAA-Fisheries Issues
    The ASA is pleased with the increase of $10.9 million for the 
Pacific Coastal Salmon Recovery Fund and the inclusion the state of 
Idaho for salmon funding. We urge the Subcommittee to support funding 
for this program that is essential to recovery efforts of endangered 
and at-risk salmon species that are so critically important to the 
Pacific Northwest. The Pacific Coastal salmon fisheries provide 
outstanding opportunities for recreational anglers and the ASA 
appreciates all efforts designated to restore these recreational 
species.
    The ASA is concerned over the continuing low level of funding for 
implementation of the Anadromous Fisheries Act. The Anadromous 
Fisheries Act budget line has traditionally been used to fund 
activities that cannot be supported through other federal and state 
funds, and the fisheries management community has been unable to 
adequately address the needs of most anadromous fish stocks. Therefore, 
the ASA urges Congress to fund the Anadromous Fisheries Act grants to 
States at $8.0 million.
    The ASA strongly recommends that Congress appropriate $30 million 
for cooperative law enforcement arrangements with the states for fiscal 
year 2005. Additionally, the ASA urges Congress to insist that NOAA-
Fisheries work with the Department of Justice to streamline the 
reimbursement process to states prosecuting federal fisheries 
violations, as was intended by Congress.

Other National Oceanic and Atmospheric Administration (NOAA) Programs
    The ASA urges Congress to aggressively support the development of 
new technologies to help address critical marine resource issues. 
Several ongoing efforts, including the Hollings Marine Laboratory (HML) 
and the Fish Cooperative Institute, are funded through the Oceanic and 
Coastal Research line of the National Ocean Service budget. The ASA is 
pleased with the Administration's recognition of this important work in 
marine environmental health and the included funding level of $4.0 
million for the HML and $0.750 for the Fish Cooperative Institute.
    The National Estuarine Research Reserve (NERR) and Coastal Zone 
Management (CZM) programs are two highly successful examples of state-
federal partnership efforts to improve the quality of our natural 
resources. The ASA is pleased with the proposed $16.4 million for NERR 
operations as well as with the Administration's request of $7.25 
million for construction of research and educational facilities at NERR 
sites. Additionally, the ASA is pleased that the Administration 
recognizes the efforts of coastal states to address issues ranging from 
public access to non-point source pollution to development and urban 
sprawl. Increased development continues to have detrimental impacts on 
the quality of life in our communities, and states and local 
communities are in the best position to develop sound solutions to 
these pressures. Therefore, the ASA strongly urges Congress to support 
the nation's coastal zone management enterprise at a level of $85 
million for Coastal Zone Management grants to help states and local 
communities work to improve the quality of our coastal natural 
environment.
    The ASA is pleased with the Administration's acknowledgement of the 
problems posed by pfiesteria and other harmful algal blooms. However, 
the ASA is concerned over the proposed termination of work carried out 
in concert with the states. The Administration has proposed to 
terminate the $600,000 for pfiesteria work being carried out by the 
South Carolina Harmful Algal Bloom Task Force. This effort is 
especially important in evaluating the risks of harmful algal blooms in 
tidal-dominated high flow systems, and the ASA urges Congress to 
restore funding for this effort.

                                 ______
                                 
 Prepared Statement of the American Council of Young Political Leaders

    Mr. Chairman, distinguished members of the Subcommittee on 
Commerce, Justice, and State, the Judiciary and Related Agencies, 
ladies and gentlemen:
    The American Council of Young Political Leaders (ACYPL) welcomes 
this opportunity to present testimony as you consider the U.S. 
Department of State's fiscal year 2005 appropriations for cultural and 
educational exchange programs. My name is Brad Minnick, and as the 
ACYPL's executive director, I oversee nearly 30 annual exchange 
programs funded in part by a core grant from the State Department's 
Bureau of Educational and Cultural Affairs (ECA). Today I offer some 
perspectives about the value of exchanges like ours against the 
backdrop of global terrorism and rising anti-Americanism around the 
world. In my view, citizen exchanges are a critical component in the 
war against terrorism and the promotion of democratic ideals.

Background and History of ACYPL
    Since its founding in 1966 as an outgrowth of the Fulbright-Hays 
Act, ACYPL has introduced nearly 6,500 select emerging leaders from 
around the globe to international diplomacy and to each other. ACYPL 
prepares in-depth study tours for young leaders, aged between 25 and 40 
years old, to give them much-needed international exposure early in 
their political careers. U.S. participants travel overseas to study the 
political system and culture of another nation. Reciprocal visits bring 
young leaders here from abroad for an introduction to American 
democracy and culture and our federalist form of government.
    We target young politicians likely to assume future positions of 
responsibility and leadership. Here at home, our delegates are 
typically state legislators, mayors, city council members and other 
state and local elected officials. Many have never before traveled 
outside the United States.
    ACYPL programs are strictly bipartisan; our delegates are drawn 
from all 50 states and equally from both major political parties. We 
take particular care in putting together our delegations to demonstrate 
to the world that this nation has diverse opinions, cultures, 
ethnicities, religions, and politics. Similarly, ACYPL's overseas 
delegations are chosen by our partners and U.S. Embassies abroad to 
represent the political and cultural diversity of their home countries.
    Here in the United States ACYPL can claim nearly 40 sitting members 
of Congress among its distinguished alumni; six sitting state 
governors; several current and former Cabinet secretaries and many 
leaders in business, finance, community affairs, and education. 
Overseas, our distinguished alumni include prime ministers, cabinet 
officers, ambassadors and parliamentarians. The current Hungarian prime 
minister and the current Hungarian ambassador to the United States were 
roommates on an ACYPL exchange in 1983.

A Model for Experience and Understanding
    ACYPL is but one of many international organizations actively 
engaged in citizen diplomacy. Why are we unique and why are we 
effective?
    ACYPL is cost-efficient. For practically every dollar we receive in 
federal funding, we turn it into at least two dollars through cost-
share, in-kind contributions and outside fundraising. Overall, we will 
leverage nearly 160 percent of our base federal grant in corporate and 
private funding support this year--a $1.2 million return on a federal 
investment of $800,000.
    ACYPL exchanges are bilateral. Appearing recently before the House 
Appropriations Subcommittee on Commerce, Justice, and State, Ambassador 
Edward Djerejian noted that ``the most effective programs of public 
diplomacy--the ones most likely to endure and have long-term impact--
are those that are mutually beneficial . . .'' We host the same number 
of delegates from each country that we send to those countries. Our in-
country counterpart organizations willingly organize and underwrite the 
visits of our American delegates because we reciprocate.
    We focus only on emerging political leaders. We believe 
passionately in the need to identify, educate and introduce to each 
other tomorrow's global leaders today. Through familiarity and 
relationships comes knowledge and understanding. The earlier in one's 
political career we can make these connections, the better.
    As Assistant Secretary of State Patricia de Stacy Harrison is fond 
of saying, ``if you don't go, you don't know.'' ACYPL brings young 
leaders here to see for themselves the multicultural, pluralistic 
nation of friendly and generous people that is the United States. A 
delegation from Indonesia visiting Dearborn, Michigan was shocked to 
see that Muslims here not only worship openly but are assimilated into 
the fabric of American society. A Chinese delegation didn't know until 
they met him that a Chinese-American could be and was elected one of 
our nation's 50 governors.
    American delegates make similar discoveries. Delegates to India and 
Tanzania had never before seen such rampant poverty. Through their 
meetings in Egypt, Jordan and Morocco delegates experienced first-hand 
the intensity of anti-American sentiment among young adults. Delegates 
in Vietnam saw the deep bitterness many government officials still hold 
over the ``American war.'' In Australia delegates learned about the 
true strength and history of our alliance.
    ACYPL continues to engage its alumni. We view the initial exchange 
as only the beginning of our delegates' experience as citizen 
diplomats. And we tap these well connected alumni at home and abroad to 
give current delegates access to leaders at the highest levels of 
government. A recent Chinese delegation learned about the rule of law 
directly from Supreme Court Justice Sandra Day O'Connor and White House 
Counsel Alberto Gonzales, who is himself an alumnus of ACYPL. 
Palestinian delegates quizzed Ambassador Dennis Ross and Secretary of 
State Colin Powell about Middle East peace. Israelis met with former 
Defense Secretary William Perry. In Jordan, U.S. delegates met with 
King Abdullah; in Romania they talked NATO membership with Prime 
Minister Nastase and Foreign Minister Geoana; in Uruguay, delegates 
questioned President Battle about Iraq and international cooperation in 
the war on terrorism.
    Many alumni can testify about the deep impact the program had on 
them as they rose through the ranks to their current position of 
national or international leadership. The phrase most frequently used 
in describing their ACYPL experience is ``life-changing.'' Here is a 
typical comment from our delegate evaluations: ``As a state legislator, 
I was never focused on foreign issues before this trip. This trip and 
access to the political leaders has opened my eyes forever on our 
responsibility as a nation.'' Said a recent foreign delegate: ``I have 
come to realize that actually I know less about the United States than 
I thought I did before going on this trip.'' Another wrote that going 
forward ``I'll be able to avoid the fallacy of oversimplifying 
America.''
    U.S. Embassies abroad widely speak of the positive results ACYPL 
visits generate. For example, a recent delegation spent time in 
Malaysia, ACYPL's first visit there in over 10 years, where they were 
introduced to some of the new political leadership elected just one 
week before the delegates' arrival. We were told that this could not 
have been a better time for the ACYPL delegation to come to Malaysia 
because the visit allowed Embassy staff to meet many key contacts in 
the major political parties, government officials and non-governmental 
organizations for the first time. One notable contact was with the 
executive director and secretary of the International Movement of 
Muslim Youth (ABIM), based in Malaysia, who attended the ACYPL 
welcoming reception hosted by the Embassy's deputy chief of mission. 
This was the first time ABIM had ever accepted an Embassy invitation to 
any event, and the occasion allowed Embassy staff and the ABIM to 
discuss how they could work together in the future in places like Iraq.

Why Exchanges Are Needed
    Current events around the world speak of the tragedy of the 
increasing lack of understanding between the United States and some of 
its traditional allies; it also speaks volumes to the deeply-rooted 
mistrust of the United States felt by millions around the globe. 
Citizen-to-citizen exchanges offer unique opportunities for learning 
from one another about commonly-shared solutions to problems, as well 
as about different perspectives on forms of government and the 
aspirations other nations have for their citizens. This is especially 
true when it applies to emerging democracies, post-conflict nations, or 
in countries where the United States has a critical focus.
    Worldwide, ACYPL has succeeded in addressing immediate national 
public diplomacy interests. When U.S. relations with the People's 
Republic of China were normalized in 1979, ACYPL was one of the first 
exchange programs established between our two nations. This year we are 
celebrating the 25th anniversary of the first ACYPL visit to mainland 
China. We are proud to be in the vanguard of exchange programs that 
seek to promote peace, reconciliation, and friendship among former 
adversaries.
    Our experience with China illustrates the benefits that come when 
exchanges are sustainable over a quarter of a century. Since 1979 
nearly 400 young leaders on both sides have gained valuable 
understanding about the other; indeed, many of these alumni have risen 
to high levels of leadership in both countries. This exchange never 
fell victim to the ebb and flow of funding or of relations between our 
two governments, even during Tiananmen Square or the downing of a U.S. 
Air Force plane over Hainan Island. I remember vividly arriving in 
Beijing as an ACYPL delegate myself the day martial law was declared in 
1989. Despite the Tiananmen Square protests, both nations agreed our 
visit should proceed. It was an experience I shall never forget.
    With regard to public diplomacy in the Middle East and other areas 
of focus by the State Department, ACYPL has strengthened its exchanges 
to promote current priorities. While 25 percent of State Department 
funding for exchanges this year will go to programs in the Middle East 
and South Asia, fully 37 percent of ACYPL's exchanges in 2004 are with 
nations with predominant Muslim populations. We have already brought to 
the United States approximately 100 delegates from the Near East. 
Recent inbound exchanges have included parliamentarians from Indonesia, 
where it has been stated in a September 2003 General Accounting Office 
report that only 15 percent of Indonesians view the United State 
favorably. We are also hosting Egyptian parliamentary staffers who are 
witnessing first-hand how representative government works in the U.S. 
Congress; and later this summer a delegation from Jordan (where only 1 
percent view the United States favorably, according the same GAO 
report) will visit schools, citizen groups, and local legislators to 
learn about a civil society. We feel these visits offer more than just 
education, but an opportunity to expose mutual misconceptions; create 
goodwill that promotes understanding and dialogue; and engage young 
leaders in public diplomacy efforts with lasting results.

Where We Are Today and Challenges for the Future
    Unfortunately, like many of our exchange program colleagues, ACYPL 
does not have the resources to conduct and maintain exchanges worldwide 
on the scale appropriate for the world's only super power. America's 
national leaders agree on the value of educational and cultural 
exchanges, yet those of us who organize these exchanges typically 
operate on shoestring budgets. The United States spends less than one 
percent of the annual Defense budget on all of its public diplomacy 
programs combined. Because resources are so limited, my organization 
must constantly choose between maintaining existing relationships or 
establishing new ones. We cannot do both under existing funding.
    The international exchange community understands the severe budget 
pressures facing this subcommittee. But we also understand what America 
gains from these exchanges. Government-to-government dialogue and 
military strength can only reach so far and do so much. Public 
diplomacy efforts underscore or compliment government-to-government 
achievements while imparting personal experience and developing mutual 
understanding among future leaders. Yet, without sustained or new 
funding for programs like ours, progress towards impressing upon other 
nations the blessings of democracy and freedom cannot be made fully; 
nor will we reach those who need to hear our message the most. Indeed, 
as Ambassador Djerejian notes in Changing Minds, Winning Peace, ``the 
importance of public diplomacy in meeting the strategic challenge that 
America faces in the Arab and Muslim world requires a dramatic increase 
in funding.''
    Our organization could facilitate exchanges with 100 emerging young 
political leaders in Afghanistan and/or Iraq that focus on democracy, 
rule of law, openness in government, civil society, women's rights, and 
the importance of public service for $600,000. We could double the 
number of countries we exchange with for $2 million. With $300,000 more 
we could add enhanced follow-on activities and better communicate with 
our global alumni.
    Thank you for this opportunity to share my thoughts about why 
public diplomacy programs like ours must be strengthened in a post 9/11 
world. As you deliberate how best to allocate limited resources I 
encourage you to consider the important role that ACYPL and its sister 
exchange organizations can play in fostering improved understanding 
among emerging leaders, combating global terrorism and changing 
perceptions abroad about America. Thank you.

                                 ______
                                 
     Prepared Statement of the National Center for Victims of Crime

    The National Center for Victims of Crime submits this testimony to 
urge members of the Subcommittee on Commerce, Justice, State and the 
Judiciary to approve the President's budget request and release $675 
million from the Victims of Crime Act (VOCA) Fund for fiscal year 2005. 
In addition, we urge Subcommittee members to prevent the creation of 
additional earmarks from the VOCA Fund and to discontinue the use of 
earmarks from the VOCA Fund for federal positions.
    The National Center for Victims of Crime is the leading resource 
and advocacy organization for victims of crime. From our work with 
crime victims and service providers across the country, we are well 
acquainted with the funding needs of those who assist victims of crime. 
Since our founding in 1985, the National Center has worked with public 
and private non-profit organizations and agencies across the country, 
and has provided information, support, and technical assistance to 
hundreds of thousands of victims, victim service providers, allied 
professionals, and advocates. Our toll-free information and referral 
Helpline keeps us in touch with the needs of crime victims nationwide. 
Through our day-to-day interactions with our members and with the 8,300 
crime victim service providers in our referral network, we stay 
informed of the work they do and of the impact that funding decisions 
at the federal level have on their ability to meet the needs of 
victims. We also interact with crime victim service providers through 
our regional Training Institute, which offers training on a variety of 
issues to service providers throughout the country. In short, we hear 
from victims and service providers every day about the impact and 
importance of the VOCA Fund.

About the VOCA Fund
    The VOCA Fund was created twenty years ago to provide ongoing 
federal support for state and local crime victim programs. It is funded 
by criminal fines and penalties imposed on federal offenders. Since 
fiscal year 2000, the VOCA Fund has carried over money from year to 
year, with each year's VOCA Fund disbursement reflecting a cap on the 
amount of money released from the Fund. The bulk of the funds are 
distributed each year by formula grants to the states to fund: (a) 
crime victim compensation programs, which pay many of the out-of-pocket 
expenses incurred by victims; and (b) crime victim assistance. The VOCA 
Assistance funding supports rape crisis centers, domestic violence 
shelters, victim assistants in law enforcement and prosecutor offices, 
and other direct services for victims of crime.

VOCA funding for victim assistance has decreased since fiscal year 2002
    For the last two years, a cursory look at the federal 
appropriations might indicate that VOCA funding for victim services has 
increased. In fact, it has fallen since fiscal year 2002. The decrease 
in VOCA funding for victim assistance has resulted from changes in the 
statutory formula for disbursement of VOCA dollars and from the 
disproportionate impact of the budgetary rescission on VOCA assistance 
spending. While the total VOCA disbursement has increased, from $550 
million in fiscal year 2002 to $625 million in fiscal year 2004, VOCA 
assistance spending has dropped in that time, from $383 million in 
fiscal year 2002 to approximately $356 million in fiscal year 2004. 
This seven percent decrease has had a significant impact on rape crisis 
centers, homicide survivor groups, and victim/witness programs that are 
already suffering steep declines in support from states and private 
funders.
    Under the terms of the VOCA statute (42 U.S.C.  10601), there are 
certain set asides for federal programs that are funded according to 
their need. These programs are victim/witness coordinators in the 
offices of U.S. Attorneys, victim assistants in FBI field offices, and 
the federal automated victim notification system. Another set aside 
exists for children's justice programs. From the remaining VOCA 
dollars, five percent is allocated to the Office for Victims of Crime 
for additional federal programs and for national-scope projects. 
Payouts from the VOCA Fund to state crime victim compensation programs 
are then made, based on a partial reimbursement of each state payments 
to victims. The amount of funds remaining becomes that year's VOCA 
assistance figure. Thus, any change in earmarks from the fund or in the 
needs of the funded federal programs, any reduction in overall VOCA 
spending, and any budgetary rescission, disproportionately impacts VOCA 
assistance spending.

The importance of VOCA funding to state and local victim services
    VOCA assistance money provides the crucial federal support for core 
services to crime victims. Through the VOCA fund, the federal 
government supports services for survivors of homicide victims and for 
victims of assault, robbery, gang violence, hate and bias crimes, 
intoxicated drivers, bank robbery, fraud, elder abuse, child abuse and 
neglect, domestic violence, and sexual assault. VOCA assistance dollars 
fund services that help victims in the immediate aftermath of crime, 
including accompaniment to hospitals for examination; hotline 
counseling; emergency food, clothing and transportation; replacing or 
repairing broken locks; filing restraining orders; and more. This 
program also funds assistance as victims move through the criminal 
justice system, including notification of court proceedings, 
transportation to court, help completing a victim impact statement, 
notification about the release or escape of the offender, and 
assistance in seeking restitution.
    Organizations receiving VOCA assistance grants include sexual 
assault and rape treatment centers, domestic violence programs and 
shelters, child abuse programs, centers for missing children, mental 
health services, and other community-based victim coalitions and 
support organizations including those who serve homicide survivors. 
Also funded are victim service programs operated by other types of 
organizations, including criminal justice agencies, faith-based 
organizations, emergency medical facilities, and others.

The need far outpaces the funds
    Victims from around the country call our toll-free Helpline, 
looking for the assistance that can help them rebuild their lives. Too 
often we have had to tell rural domestic violence victims that the 
closest services are 200 miles away, to tell mothers of sexual abuse 
victims that they will have to drive over an hour to get to special 
children's services, and to tell rape victims that there are no longer 
services in their county and they will have to call the state coalition 
for help. Immigrant victims find there are no service providers with 
available interpreters; victims with disabilities can't locate 
specialized services. Because the recent decrease in federal funding 
follows decreases in state and private giving, any additional cuts come 
at the expense of core services to victims.
  --Service providers tell us they have long waiting lists for services 
        that victims need immediately. When a teenage sexual assault 
        victim turns to a rape crisis center, telling her she can come 
        back in three months isn't good enough.
  --Program directors tell us they have had to chose between retaining 
        a volunteer coordinator who can provide the necessary 
        professional oversight to volunteers who inform victims about 
        their rights and assist them as they apply for compensation, 
        and a counselor who can provide in-depth counseling and group 
        therapy.
  --Programs that formerly served multiple counties through satellite 
        offices have had to contract their services to a single 
        location. Not only does this change directly affect the 
        accessibility of their services, but it also means a lessening 
        of ties to others in the community who can collaborate to 
        respond to victims.
  --Programs that have spent years making inroads into immigrant 
        communities are now faced with discontinuing their services 
        because they can no longer afford bilingual advocates.
  --Services for ``secondary'' victims have been cut. While service 
        providers understand the need to provide services to children 
        of domestic violence victims, to non-offending mothers in cases 
        of child sexual abuse, and to family members of victims of 
        other violent crime, the combined budget cuts have often 
        resulted in eliminating those services.
  --As programs have had to cut back, they report that experienced but 
        overworked staff are leaving the field. Where new staff have 
        been hired, directors report a lack of funding to train them.
    Victim service providers understand the needs in their community. 
With additional funding, they could increase their community 
collaborations to reach out to underserved victims, including elderly 
victims, teen victims, immigrant victims, victims with disabilities, 
and victims in rural areas. They can also expand their core services to 
meet the needs of those victims of crime, to help them rebuild their 
lives. They also report a need for funding for technology that can 
increase their efficiency and effectiveness--such as automated victim 
notification systems, databases to enable service providers to 
coordinate their efforts for a single victim, and Web technology to 
improve their outreach to the community.

There must be no additional earmarks from VOCA
    Finally, while our first priority is to see the cap on the VOCA 
Fund raised to $675 million for fiscal year 2005, we also urge you to 
prevent the creation of additional earmarks from the VOCA Fund, even 
for projects that serve crime victims. VOCA formula grants are designed 
to let each state fund victim services based on the needs and strategic 
plans of that state. Money from the general VOCA Fund must not be set 
aside for additional specific purposes.
    We also urge that earmarks for federal positions from the VOCA Fund 
be discontinued. New earmarks on the Fund have been enacted over the 
last several legislative sessions, limiting the amount of money 
ultimately available to states to fund local programs. These earmarks 
result in a significant decrease in funding available to help the vast 
majority of crime victims--victims whose cases are prosecuted and who 
are served at the state and local levels. Such federal positions may be 
warranted, but surely Congress can find other sources of revenue to 
support federal employees. Moreover, because of the statutory 
construction of those earmarks, they are immune from any budgetary 
actions that restrict VOCA spending overall, and so are 
disproportionately favored.
    The most important action Congress can take to help this nation's 
victims of crime is to provide the funding for services and 
compensation programs that help them rebuild their lives. Congress' 
creation of the VOCA Fund in 1984 was a landmark action that 
fundamentally changed the way our society responds to victims of crime. 
We urge you to continue this great effort, by approving the President's 
budget request of $675 million for VOCA and holding fast against 
pressure to earmark the Fund.

                                 ______
                                 
    Prepared Statement of the Great Lakes Indian Fish and Wildlife 
                               Commission

    Summary of GLIFWC's Fiscal Year 2005 Testimony.--The Commission 
requests that Congress restore funding for the COPS Tribal Resources 
Grant Program to $40 million in fiscal year 2005 in the Department of 
Justice. The Administration is proposing to reduce funding for this 
essential program to $20 million.
    Disclosure of DOJ Grants Contracted.--The Commission is an 
intertribal organization which, under the direction of its member 
tribes, implements federal court orders governing tribal harvests of 
off-reservation natural resources and the formation of conservation 
partnerships to protect and enhance natural resources within the 1836, 
1837, and 1842 ceded territories. Under COPS Tribal Resources Grant 
Program, the Commission contracted:
  --$172,924 in fiscal year 2000 for the purposes of replacing obsolete 
        radio equipment and to improve the capacity of GLIFWC's 
        officers to provide emergency services throughout the Chippewa 
        ceded territories;
  --$292,190 in fiscal year 2001 for the purposes of replacing obsolete 
        patrol vehicles (boats, ATVs, and snowmobiles), purchasing 
        portable defibrillators, and training GLIFWC officers;
  --$302,488 in fiscal year 2002 for the purposes of replacing obsolete 
        patrol vehicles (ATVs and snowmobiles), improving officer 
        safety (in-car video cameras), increasing computer 
        capabilities, and expanding training of GLIFWC officers in 
        interagency emergency response; and
  --$280,164 in fiscal year 2003 for the purposes of hiring 3 
        additional officers, providing basic recruit training, and 
        supplying standard issue items.
    Ceded Territory Treaty Rights and GLIFWC'S Role.--GLIFWC was 
established in 1984 as a ``tribal organization'' within the meaning of 
the Indian Self-Determination Act (Public Law 93-638). It exercises 
authority delegated by its member tribes to implement federal court 
orders and various interjurisdictional agreements related to their 
treaty rights. GLIFWC assists its member tribes in: securing and 
implementing treaty guaranteed rights to hunt, fish, and gather in 
Chippewa treaty ceded territories; and cooperatively managing and 
protecting ceded territory natural resources and their habitats.
    For the past 19 years, Congress and Administrations have funded 
GLIFWC through the BIA, Department of Justice and other agencies to 
meet specific federal obligations under: (a) a number of U.S./Chippewa 
treaties; (b) the federal trust responsibility; (c) the Indian Self-
Determination Act, the Clean Water Act, and other legislation; and (d) 
various court decisions, including a 1999 U.S. Supreme Court case, 
affirming the treaty rights of GLIFWC's member Tribes. GLIFWC serves as 
a cost efficient agency to conserve natural resources, to effectively 
regulate harvests of natural resources shared among treaty signatory 
tribes, to develop cooperative partnerships with other government 
agencies, educational institutions, and non-governmental organizations, 
and to work with its member tribes to protect and conserve ceded 
territory natural resources.
    Under the direction of its member tribes, GLIFWC operates a ceded 
territory hunting, fishing, and gathering rights protection/
implementation program through its staff of biologists, scientists, 
technicians, conservation enforcement officers, and public information 
specialists.
    Community-based Policing.--GLIFWC's officers carry out their duties 
through a community-based policing program. The underlying premise is 
that effective detection and deterrence of illegal activities, as well 
as education of the regulated constituents, are best accomplished if 
the officers live and work within tribal communities that they 
primarily serve. The officers are based in 10 satellite offices located 
on the reservations of the following member tribes: In Wisconsin--Bad 
River, Lac Courte Oreilles, Lac du Flambeau, Red Cliff, Sokaogon 
Chippewa (Mole Lake) and St. Croix; in Minnesota--Mille Lacs; and in 
Michigan--Bay Mills, Keweenaw Bay and Lac Vieux Desert.
    Interaction With Law Enforcement Agencies.--GLIFWC's officers are 
integral members of regional emergency services networks in Minnesota, 
Michigan and Wisconsin. They not only enforce the tribes' conservation 
codes, but are fully certified officers who work cooperatively with 
surrounding authorities when they detect violations of state or federal 
criminal and conservation laws. They also are certified medical 
emergency first responders, including CPR, and in the use of 
defibrillators, and are trained in search and rescue, particularly in 
cold water rescue techniques. When a crime is in progress or 
emergencies occur, local, state, and federal law enforcement agencies 
look to GLIFWC's officers as part of the mutual assistance networks of 
the ceded territories. This network includes the Wisconsin Department 
of Natural Resources, Minnesota Department of Natural Resources, 
Michigan Department of Natural Resources, U.S. Coast Guard, USDA-Forest 
Service, State Patrol and Police, county sheriffs departments, 
municipal police forces, fire departments and emergency medical 
services.
    GLIFWC Programs Currently Funded by DOJ.--GLIFWC recognizes that 
adequate communications, training, and equipment are essential both for 
the safety of its officers and for the role that GLIFWC's officers play 
in the proper functioning of interjurisdictional emergency mutual 
assistance networks in the ceded territories. GLIFWC's COPS grants for 
the past four years have provided a critical foundation for achieving 
these goals. Significant accomplishments with Tribal Resources Grant 
Program funds include:
  --Improved Radio Communications and Increased Officer Safety.--GLIFWC 
        replaced obsolete radio equipment to improve the capacity of 
        officers to provide emergency services throughout the Chippewa 
        ceded territories. GLIFWC also used COPS funding to provide 
        each officer a bullet-proof vest, night vision equipment, and 
        in-car videos to increase officer safety.
  --Emergency Response Equipment and Training.--Each GLIFWC officer has 
        completed certification as a First Responder and in the use of 
        life saving portable defibrillators. In 2003, GLIFWC officers 
        carried First Responder kits and portable defibrillators during 
        their patrol of 275,257 miles throughout the ceded territories. 
        In remote, rural areas the ability of GLIFWC officers to 
        respond to emergencies provides critical support of mutual aid 
        agreements with federal, state, and local law enforcement 
        agencies.
  --Ice Rescue Capabilities.--Each GLIFWC officer was certified in ice 
        rescue techniques and provided a Coast Guard approved ice 
        rescue suit. In addition, each of GLIFWC's 10 reservation 
        satellite offices was provided a snowmobile and an ice rescue 
        sled to participate in interagency ice rescue operations with 
        county sheriffs departments and local fire departments.
  --Wilderness Search and Rescue Capabilities.--Each GLIFWC officer 
        completed Wilderness Search and Rescue training. The COPS 
        Tribal Resources Grant Program also enabled GLIFWC to replace 
        many vehicles that were purchased over a decade ago including 
        10 ATV's and 16 patrol boats and the GPS navigation system on 
        its 25 foot Lake Superior Patrol Boat. These vehicles are used 
        for field patrol, cooperative law enforcement activities, and 
        emergency response in the 1837 and 1842 Chippewa Ceded 
        Territories. GLIFWC officers also utilize these vehicles for 
        boater, ATV, and snowmobile safety classes taught on 
        Reservations as part of the Commission's Community Policing 
        Strategy.
  --Hire, train, and supply 3 additional officers.--Funding has been 
        contracted to provide 3 additional officers to ensure tribes 
        are able to meet obligations to both enforce off-reservation 
        conservation codes and effectively participate in the myriad of 
        mutual assistance networks located throughout a vast region 
        covering 60,000 square miles.
    Consistent with numerous other federal court rulings on the 
Chippewa treaties, the United States Supreme Court recently affirmed 
the existence of the Chippewa's treaty-guaranteed usufructuary rights 
(Minnesota v. Mille Lacs Band, Case No. 97-1337, March 24, 1999). As 
tribes have re-affirmed rights to harvest resources in the 1837 ceded 
territory of Minnesota, workloads have increased. This expanded 
workload, combined with staff shortages would have limited GLIFWC's 
effective participation in regional emergency services networks in 
Minnesota, Michigan and Wisconsin. The effectiveness of these mutual 
assistance networks is more critical than ever given: National homeland 
security concerns; State and local governmental fiscal shortfalls; and 
staffing shortages experienced by local police, fire, and ambulance 
departments due to the call up of National Guard and military reserve 
units.
    Examples of the types of assistance provided by GLIFWC officers are 
provided below: as trained first responders, GLIFWC officers routinely 
respond to, and often are the first to arrive at, snowmobile accidents, 
heart attacks, hunting accidents, and automobile accidents (throughout 
the ceded territories); search and rescue for lost hunters, fishermen, 
hikers, children, and elderly (Sawyer, Ashland, Bayfield, Burnett, and 
Forest counties in Wisconsin and Baraga, Chippewa, and Gogebic counties 
in Michigan); being among the first to arrive on the scene where 
officers from other agencies have been shot (Bayfield, Burnett, and 
Polk counties in Wisconsin) and responding to weapons incidents 
(Ashland, Burnett, Sawyer, and Vilas counties in Wisconsin); assist 
with drowning incidents (St. Croix River on the Minnesota/Wisconsin 
border, Sawyer county in Wisconsin, Gogebic county in Michigan) and 
searching for lost airplanes (Ashland, Forest and Washburn counties in 
Wisconsin); organize and participate in rescues of ice fishermen on 
Lake Superior (Ashland and Bayfield counties in Wisconsin) and 
assisting with Lake Superior boat rescues (Baraga county in Michigan 
and with the U.S. Coast Guard in other parts of western Lake Superior); 
and assist sheriffs departments with natural disasters (e.g. floods in 
Ashland County and a tornado in Siren, Wisconsin).
    Simply put, adding three additional officer positions will not only 
assist GLIFWC in meeting its obligations to enforce tribal off-
reservation codes, but it will enhance intergovernmental efforts to 
protect public safety and welfare throughout the region by the states 
of Wisconsin, Minnesota, and Michigan.

                                 ______
                                 
     Prepared Statement of the American Foreign Service Association

    Mr. Chairman and members of the Subcommittee: On behalf of the 
American Foreign Service Association (AFSA) and the 23,000 active-duty 
and retired members of the Foreign Service, I express our appreciation 
for the opportunity to share our views and concerns with you regarding 
the 2005 fiscal year funding request for the Department of State and 
its programs.
    Our country is facing the most serious threat to its well-being 
since the Cold War. Foreign Service personnel are working long hours, 
in difficult circumstances with uncommon courage, to advance our 
bilateral and multilateral relationships, fight the battle against 
international terrorism, stop the flow of illegal drugs, uncover 
international crime and illegal financing networks, and work for the 
kind of development that will remove safe havens for international 
terrorists. On July 1, the State Department will take on a task that 
may reverberate for decades in the Middle East. The United States will 
be turning over sovereignty to the Iraqi people and the Department of 
State will be establishing one of the largest diplomatic missions in 
its history. The United States will become a partner with the Iraqi 
people in bringing peace and justice to their wartorn nation.
    As the United States takes on these ever-expanding diplomatic 
responsibilities, this Subcommittee's actions are vital to their 
success. Your decisions determine whether we will have the resources 
necessary to support the foreign affairs infrastructure and many of the 
tools of diplomacy needed to implement our foreign policy.
    The Subcommittee's and the Congress' past support of the 
Administration's request in meeting staffing needs, improving 
information technology systems, making posts and missions more secure, 
and providing for an active exchange program is very much appreciated. 
Certainly Secretary of State Colin Powell and his staff also must be 
thanked for their hard work on our behalf. For over three years, the 
Secretary has successfully served our Nation and the President as both 
his principal foreign policy advisor and as the effective and inspiring 
CEO of the Department of State.

                     PERSONNEL FUNDING REQUIREMENTS

    With the fiscal year 2004 funding, the Department completed its 
three-year Diplomatic Readiness Initiative (DRI) and by September 2004 
will have hired 1,158 new employees above attrition into the Foreign 
and Civil Services. Because of DRI, the majority of the Department's 
long vacant overseas positions will be filled. Further, the Department 
will be able to staff new operations in Iraq and Afghanistan, and in 
new offices like MEPI and HIV/AIDS without ``robbing Peter to pay 
Paul'' as had been the practice.
    However, the 1,158 additional Foreign and Civil Service personnel 
target was chosen prior to the changes in the world brought about by 
the September 11, 2001, attacks on the United States. When the numbers 
were selected, it was a different time and a different world. For 
fiscal year 2005 the Administration has requested an additional $76 
million to fund 317 new positions which would include 183 individuals 
for new staffing requirements, 63 positions for the Consular Associates 
Replacement Program, and 71 new security positions.
    AFSA supports this additional personnel request. Through 
reprioritization, DRI allowed the Department to meet unforeseen 
demands. However, this reprioritization also meant that current needs 
are not being met. The additional personnel ``float'' that was needed 
so that training could take place or positions will be covered while 
our personnel move from one post to another, take home leave, or the 
myriad other reasons for people to be in motion has not materialized. 
This personnel float must be replaced. Also additional security 
staffing is required to meet an increasingly dangerous world. Last 
year, Mr. Chairman, the Foreign Service experienced the most mandatory 
evacuations of posts than ever before, and we do not see this trend 
abating soon.
    Without the additional requested funding for staffing, the gains 
made by DRI could be lost. With the lack of appropriate funding in the 
decade of the 1990s, our foreign affairs infrastructure fell into a 
state of near crisis. This cannot be allowed to happen again, and we 
urge the Congress to meet the Administration's personnel request.
    There is one other matter in terms of the funding request that AFSA 
wishes to call to the Subcommittee's attention. In the State Department 
authorization bill, there is a provision in the House and Senate bills 
that would increase the hardship and danger pay differentials from a 
maximum of 25 percent to 35 percent. AFSA requests that if this 
increase is authorized, sufficient funding be included in this 
appropriations bill to accommodate this increase in differentials. The 
world has become a much more dangerous and difficult place to live. An 
increasing number of posts have hit the maximum but there still is a 
difference of ``worse and worst'' among these posts. An increase in the 
differential would help acknowledge the greater hardship that is 
required to live in the worst posts.

            PERSONNEL ISSUES FOR SUBCOMMITTEE CONSIDERATION

    Mr. Chairman, there is another issue to be considered is the 
treatment of our personnel. The Foreign Service is very fortunate in 
that we continue to attract from the best and brightest of our nation. 
Today, because of DRI and increased funding, hiring finally has began 
to increase. Currently nearly one-third of the State Department's 
Foreign Service has been hired since 1998, which creates a new dynamic 
for our institution. We ask for the Congress' attention in this matter 
because it can create personnel problems that work against retention 
and the morale of the Foreign Service.
    The newer members of the Foreign Service have much in common with 
their older colleagues. They, too, are the best that our nation has to 
offer. They, too, are hard working, dedicated, patriotic individuals 
who are willing to serve in dangerous and remote places. But one major 
difference is the importance of the spouse and family concerns in their 
consideration of their employment satisfaction level. In line with 
societal trends, our new Foreign Service members are marrying well-
educated, career oriented spouses. These spouses do not see themselves 
continually sacrificing their career and serving as part of a ``two-
fer'' couple. For many, spousal employment options and the attitudes of 
the spouse constitute the single most important factor in determining 
both mobility of the Foreign Service members and whether a person will 
make the Foreign Service a career. The efforts made by the Department 
in this area are noteworthy, but the problems have yet to be solved. 
AFSA urges the Committee to work with the Department in seeking ways to 
improve the career opportunities and the personal satisfaction of 
spouses for the long-term health of the Foreign Service.
    Another issue that should be addressed revolves around training and 
the per diem provided. As DRI concept continues to succeed and more 
individuals take additional training to learn new skills regarding 
their next assignment or to learn new hard language skills, AFSA 
believes that the per diem levels provided for those assigned to 
training need to be revised. Current allowances do not accommodate 
increased cost of living in the Washington, D.C. metropolitan area. 
AFSA asks that the Subcommittee provide funding to the Department of 
State so that appropriate support levels for those in long-term 
training can be provided.

                            EMBASSY SECURITY

    Mr. Chairman, AFSA continues to thank both the Congress and the 
Department of State for the impressive work they have been doing 
together in improving the security of our posts and missions abroad 
since the U.S. embassy bombings in East Africa in 1998.
    When Secretary Powell testified before this Subcommittee on March 
25, he discussed the vast improvements being made in terms of embassy 
security brought on by changes in management. He testified that at the 
beginning of this Administration, one new secure embassy was being 
built each year. Today, the Department is building 10 new secure 
embassy compounds a year. Moreover, the embassy's program costs have 
been reduced by 20 percent.
    However, the threats to Americans and the historic number of 
mandatory evacuations of our posts and missions abroad last year both 
attest to the need to continue our efforts in this area. It must be 
remembered that despite significant upgrades to the security of our 
facilities around the world, the General Accounting Office reported in 
its March 20, 2003 testimony before the Senate Committee on Foreign 
Relations that:

    ``. . . even with these improvements, most office facilities do not 
meet security standards. As of December 2002, the primary office 
building at 232 posts lacked desired security because it did not meet 
one or more of State's five key current security standards . . .. Only 
12 posts have a primary building that meets all 5 standards. As a 
result, thousands of U.S. government and foreign national employees may 
be vulnerable to terrorist attacks.''

    Mr. Chairman, the Foreign Service does not seek hilltop fortresses. 
Such would be counterproductive to our purpose for being in a country. 
We accept that dangers are part of our profession. But we also expect 
that our government, should provide for our safety as much as possible. 
AFSA urges that funding continue at its current, if not an accelerated 
pace, to complete the work of securing our posts and missions abroad.
    In this regard, we are aware of the proposed Capital Security Cost 
Sharing (CSCS) program to help provide additional funding to increase 
the speed in which secure embassy compounds can be built. Given the 
situation in the world today, no one can argue against building secure 
facilities faster. However, we wish to express our hope that the 
participating departments and agencies will be provided additional 
funding to meet the additional CSCS building costs. It is our concern 
that the mission that overseas staff were doing would be lost due to a 
strictly budget driven decision.

                              SOFT TARGETS

    Mr. Chairman, for the past few years, AFSA expressed its concerns 
to this Subcommittee regarding the lack of attention the Department of 
State seemed to give to the protection of soft targets. We have always 
been appreciative of your and the Subcommittee's efforts to direct the 
Department's attention to that area. As you know, this was a particular 
concern to the Foreign Service because we believed that the term ``soft 
targets'' was nothing more than a euphemism for attacks against our 
spouses and children as we try and lead a somewhat normal life of going 
to school, to church, and on other family outings.
    It was thus particularly gratifying when the Secretary said to this 
Subcommittee:

    ``Our budget request also, I might say, touches on physical 
security improvements to those soft targets in our missions: schools, 
recreational facilities. And you know that we have an extensive plan to 
go after this soft targeting possibility, providing physical security 
improvements to overseas schools attended by dependents of government 
employees and other citizens. Our 2005 request includes $27 million for 
this effort, including $10 million for the schools, $5 million to 
improve security at employee association facilities, and $12 million 
for residential security upgrades. Protection of Americans living and 
working overseas is one of our highest priorities.''

      PAY DISPARITIES BETWEEN SERVICE OVERSEAS AND SERVICE AT HOME

    Finally Mr. Chairman, we wish to bring to your attention a concern 
that grows each year and seriously damages the morale of those in the 
Foreign Service. Because of prohibitions in the Federal Employees Pay 
Comparability Act, federal employees under Title V cannot receive 
locality pay when they go abroad. This means that currently when a 
member of the Foreign Service is posted abroad, that person will take a 
13 percent cut in base pay. Further, because of the ``rest of U.S. 
concept'' in locality pay, there is no federal employee of the same 
grade serving in the United States who will receive less than 8 percent 
more than a member of the Foreign Service member posted abroad.
    This difference has devalued the concept of differentials for 
serving in hardship and danger posts, it devalues the concept of equal 
pay for equal work, and it harms the individual because it affects the 
amount a person serving abroad can contribute to his or her retirement.
    There are now several pay disparities afflicting a member of the 
Foreign Service serving abroad caused by locality pay. Two people of 
the same rank, one serving in Washington and the other serving abroad, 
will have a difference of more than 13 percent because of locality pay. 
Since the adjustments in pay procedures for the Senior Executive 
Service and the Senior Foreign Service, due to personnel changes in 
last year's Defense Authorization bill, a member of the Senior Foreign 
Service will receive 13 percent more than a colleague at the same post 
but who is not at the Senior level. Finally, it is our understanding 
those in this nation's intelligence services receive an overseas 
adjustment similar to locality pay.
    Mr. Chairman, AFSA believes the current situation needs to be 
corrected, and we will seek that end. The laws will have to be changed, 
but when that happens, we urge this Subcommittee to provide the 
necessary funds to eliminate this pay disparity.

                               CONCLUSION

    Again, Mr. Chairman and members of the Subcommittee, thank you for 
the opportunity to share the views of the American Foreign Service 
Association.
    Ultimately, our security cannot be won on the battlefield alone. 
Rather, it will turn on our ability to make foreign governments, 
international organizations, and the people of the world understand the 
threats that confront all of us and then face those threats with us. In 
the long run, our best defense will be convincing others to work toward 
an international society that is tolerant and just, as well as vigilant 
against common threats. This is the work of diplomacy, and we trust 
that you and your subcommittee will want to assign our diplomatic 
efforts the same strategic priority and funding that is assigned to 
this nation's military efforts.

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
